App. 1
FILED: September 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1849 (L)
(2:10-md-02187)
-----------------------------------------------------------------------

In re: C. R. BARD, INC., Pelvic Repair System Products
Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1850
(2:12-md-02325)
-----------------------------------------------------------------------

In re: AMERICAN MEDICAL SYSTEMS, INCORPORATED, Pelvic Repair System Products Liability Litigation

App. 2
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1851
(2:12-md-02326)
-----------------------------------------------------------------------

In re: BOSTON SCIENTIFIC CORPORATION, Pelvic
Repair System Products Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1853
(2:12-md-02327)
-----------------------------------------------------------------------

In re: ETHICON, INC., Pelvic Repair System Products
Liability Litigation

App. 3
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1855
(2:12-md-02387)
-----------------------------------------------------------------------

In re: COLOPLAST CORP., Pelvic Support Systems
Products Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1856
(2:13-md-02440)
-----------------------------------------------------------------------

In re: COOK MEDICAL INC., Pelvic Repair System
Products Liability Litigation

App. 4
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1857
(2:14-md-02511)
-----------------------------------------------------------------------

In re: NEOMEDIC PELVIC REPAIR SYSTEM PRODUCTS LIABILITY LITIGATION
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1892
(2:12-md-02327)
-----------------------------------------------------------------------

In re: ETHICON, INCORPORATED, Pelvic Repair
System Products Liability Litigation

App. 5
--------------------------------------BERNSTEIN LIEBHARD LLP
Appellant
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

Upon review of submissions relative to the motions to dismiss and the motion for stay pending appeal, the Court grants the motions to dismiss and
denies the motion for stay pending appeal.
Entered at the direction of Judge Agee with the
concurrence of Judge King and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk

App. 6
FILED: September 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1849 (L)
(2:10-md-02187)
-----------------------------------------------------------------------

In re: C. R. BARD, INC., Pelvic Repair System Products
Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1850
(2:12-md-02325)
-----------------------------------------------------------------------

In re: AMERICAN MEDICAL SYSTEMS, INCORPORATED, Pelvic Repair System Products Liability Litigation

App. 7
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1851
(2:12-md-02326)
-----------------------------------------------------------------------

In re: BOSTON SCIENTIFIC CORPORATION, Pelvic
Repair System Products Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1853
(2:12-md-02327)
-----------------------------------------------------------------------

In re: ETHICON, INC., Pelvic Repair System Products
Liability Litigation

App. 8
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1855
(2:12-md-02387)
-----------------------------------------------------------------------

In re: COLOPLAST CORP., Pelvic Support Systems
Products Liability Litigation
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1856
(2:13-md-02440)
-----------------------------------------------------------------------

In re: COOK MEDICAL INC., Pelvic Repair System
Products Liability Litigation

App. 9
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1857
(2:14-md-02511)
-----------------------------------------------------------------------

In re: NEOMEDIC PELVIC REPAIR SYSTEM PRODUCTS LIABILITY LITIGATION
--------------------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

No. 19-1892
(2:12-md-02327)
-----------------------------------------------------------------------

In re: ETHICON, INCORPORATED, Pelvic Repair
System Products Liability Litigation

App. 10
--------------------------------------BERNSTEIN LIEBHARD LLP
Appellant
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

In accordance with the decision of this court, this
appeal is dismissed. This judgment shall take effect
upon issuance of this court’s mandate in accordance
with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT
OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: ETHICON, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY
LITIGATION

MDL NO. 2327

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

THIS DOCUMENT RELATES TO ALL CASES
PRETRIAL ORDER # 342
MEMORANDUM OPINION AND ORDER
(Re: Allocation Order)
(Filed Jul. 25, 2019)
I am in receipt of the Fee and Cost Committee’s
(“FCC”) Final Written Recommendation, with the External Review Specialist’s Recommended Allocation for
distribution of the common benefit fund. [ECF Nos.
7640, 7640-1]. These recommendations have been
made in response to this court’s Order finding that a
5% holdback of the plaintiffs’ total recoveries was reasonable for compensating plaintiffs’ attorneys for common benefit work (“Fee Award Order”). PTO # 327
[ECF No. 7519]. I hereby INCORPORATE BY REFERENCE my Fee Award Order entered on January
30, 2019. I have carefully reviewed the FCC’s Final
Written Recommendation and the External Review
Specialist’s suggested modifications to the FCC’s recommendation, as well as the very few objections
thereto. I FIND the recommended distribution to be

App. 12
fair and reasonable. I hereby ADOPT and INCORPORATE BY REFERENCE the FCC’s Final Written
Recommendation as submitted by the FCC, and as adjusted after consideration by the Honorable Daniel J.
Stack, Retired, External Review Specialist, pursuant
to the protocol agreed to by the parties and ordered by
me. I OVERRULE each of the objections [ECF Nos.
7709, 7712, 7715, 7718, 7733, 7747] and ORDER the
distribution as recommended in Judge Stack’s modification to the FCC’s Final Written Recommendation.
[ECF No. 7640-1 at 30-35]. I ORDER the chairman of
the FCC to direct the accounting firm holding the fund
to distribute monies to pay expenses and MDL assessments according to Judge Stack’s “Recommended Allocation of Expenses” and to disperse the remaining
money on deposit as of July 25, 2019, according to
Judge Stack’s “Recommended Allocation of Fees.” [ECF
No. 7640-1 at 30-35]. The common benefit fund is held
by Smith Cochran & Hicks in seven different MDL accounts, which taken together are considered by me,
and referred to by the FCC, as the common benefit
fund.
This extraordinarily large group of multidistrict
litigation required unprecedented coordination and cooperation among and between the leadership counsel
and those other lawyers who performed work for the
common benefit of each of the individual plaintiffs. I
entered the Order Establishing Criteria for Applications to . . . MDL Fund to Compensate and Reimburse
Attorneys for Services Performed and Expenses Incurred for MDL Administration and Common Benefit

App. 13
and Appointment of Common Benefit Fee and Cost
Committee (“Appointment Order”) on January 15,
2016, which “identif[ied] a process and committee” (the
FCC) for determining common benefit fund allocations.
PTO # 211 [ECF No. 1845]. I hereby INCORPORATE
BY REFERENCE the Appointment Order that I entered on January 15, 2016. The FCC, tasked with making fee award recommendations for common benefit
work, included lawyers in law firms representing or
substantially responsible for the resolution of approximately 75% of the more than 100,000 cases filed in the
seven MDLs assigned to me.
Members of the FCC were major contributors to,
and claimants of, the monies contributed to the common benefit fund. Their diverse and competing interests offered a large measure of mutually assured
fairness to the process. The lawyers appointed to the
FCC were known to me to be the most active in the
broadest range of cases across the seven MDLs. That
is, the composition of the FCC significantly contributed
to a process that was structurally designed for transparency and equitable distribution of common benefit
fund monies.
I entered the Fee Committee Protocol (“Protocol
Order”), PTO # 262, on June 23, 2017, which established more specific procedures assuring procedural
fairness in making claims against the common benefit
fund [ECF No. 4044]. I hereby INCORPORATE BY
REFERENCE the Protocol Order that I entered on
June 23, 2017. That Order specified the tasks required
of each attorney claimant, set a December 21, 2016

App. 14
cut-off date (“cut-off date”) for submitting common
benefit time and expense records, outlined the procedural steps for making claims, and provided structural
steps to guide the FCC’s performance of its duties. Id.
The procedural guidance to claimants assured
fairness by offering multiple opportunities for each
claimant to refine their claims, to object to preliminary
conclusions, to advocate for changes, and to object to
the penultimate recommendation of the FCC. Finally,
each firm was entitled to pursue their objections by requesting a further evaluation from the External Review Specialist, Judge Stack, appointed by me. Each
firm was then afforded the opportunity to object to the
External Review Specialist’s final recommendation by
appealing to me.
The substantive determinations as to the recommended allocation of monies made by the FCC, as adjusted by Judge Stack, followed guidance that I
provided in part C of the Protocol Order. [ECF No. 4044
at 5-8]. Of course, the task of allocating the common
benefit fund among claimants required an individualized analysis that was, as I had directed, guided by
more subjective factors. That guidance principally focused on the extent to which a claimant’s work contributed to the overall resolution of the mesh litigation.
The FCC and Judge Stack properly gave great weight
to the quality and impact of each claimant’s efforts.
The self-audited time and expense records of law
firms seeking common benefit compensation were submitted and carefully reviewed by two members of the

App. 15
FCC and then further reviewed by the entire FCC.
These reviews were guided by my court orders and
were accompanied by presentations to every member
of the FCC. I would note that MDL leadership was also
recommended for compensation and was treated the
same as all of the non-FCC claimant firms. The process
was exhaustive. Over 900,000 hours were claimed as
time spent for the common benefit. After the complete
review process, the FCC approved roughly 679,000
hours for compensation. [ECF No. 7640 at 17].
The Final Written Recommendation of the FCC
was then sent to the External Review Specialist, Judge
Stack, for the purposes of ensuring procedural fairness
and providing a finalized recommendation to this
court. Although Judge Stack received these finalized
materials from the FCC after a nearly two-year review
by the FCC, he was already familiar with the litigation
from “assist[ing] the FCC in its duties of evaluating the
time and expenses submitted for consideration in this
MDL, and [from] aid[ing] the FCC in any way [that
was] appropriate in performing the work of the FCC
and in furtherance of the directive and mandates” this
court established in its Protocol Order. [ECF No. 76401]. Judge Stack “was able to evaluate the nature and
quantity of the work performed by each applicant firm
in considering each applicant firm’s contribution to the
outcome of the litigation[ ]” because he was present for
each firm’s presentations to the FCC. Id. at 13.
Eight firms objected to the FCC’s Final Written
Recommendation as submitted to Judge Stack. These
objectors were provided another opportunity to be

App. 16
heard by the External Review Specialist. Judge Stack
heard from each remaining objecting firm and considered their concerns with the entire process. Judge
Stack permitted and considered “additional materials
and arguments advanced beyond what had been presented previously.” [ECF No. 7640-1 at 14]. During the
process, Judge Stack resolved the objections of half of
the firms, leaving only four objectors out of 94 firms
seeking common benefit compensation.
After Judge Stack finished his recommendation,
the Final Written Recommendation as adjusted by
Judge Stack was then provided to the court. There
were only four remaining objectors and one objection
by a non-lawyer. As I stated in the Participation Agreement referenced in the Fee Award Order, only MDL
lawyers and lawyers who signed the agreement are eligible for common benefit compensation. Therefore, the
one non-lawyer objection [ECF No. 7733] is DENIED.
The four remaining objectors focus upon the structure and results of the allocation process which they
agreed to several years ago. The objectors have had
many opportunities to object, including to the FCC, the
External Review Specialist, and me. Having considered each of their objections, I find that they are entirely without merit. All of the remaining objections
[ECF Nos. 7709, 7712, 7718, 7747] are DENIED.
Because most of the required and useful common
benefit work was completed before the cut-off date for
time and expense submissions as stated in the Protocol
Order [ECF No. 4044 at 2], and because I have

App. 17
sufficient knowledge of the MDLs’ history to make allocations for all of the common benefit work performed,
the FCC recommends that I allocate all future common
benefit money collected after the entry of this order according to the same percentages. However, because
there was some minimal, but necessary work performed after the cut-off date, the FCC recommends
that I withhold 30% of all money collected after entry
of this order to be evaluated for common benefit compensation at a later time. I agree.
Therefore, the court ORDERS that all expenses
and MDL assessments noted in the External Review
Specialist’s “Recommended Allocation of Expenses” be
dispersed to each firm according to the “Total Expense
and MDL Assessment” column of the recommendation.
[ECF No. 7640-1 at 32-35]. The court also ORDERS
that all of the common benefit money on hand as of
July 25, 2019, after subtracting the expenses and assessments mentioned above, be dispersed according to
the External Review Specialist’s “Recommended Allocation of Fees” for each firm as listed under the “External Review Specialist’s Recommendation Allocation”
column of the recommendation. [ECF No. 7640-1 at 3031]. For all future common benefit money received after July 25, 2019, the court ORDERS that the common
benefit fund’s accounting firm, Smith Cochran & Hicks,
disperse 70% of the received money on a quarterly basis according to the External Review Specialist’s “Recommended Allocation of Fees” percentages that are
listed under the “External Review Specialist’s Recommended Allocation” column of the recommendation.

App. 18
[ECF No. 7640-1 at 30-31]. The first quarterly payments shall be made with monies on deposit as of January 1, 2020 and shall be paid by Smith Cochran &
Hicks by January 15, 2020, and quarterly thereafter.
Finally, the court ORDERS that the remaining 30%
be held in the common benefit fund for a final evaluation of common benefit compensation until a further
order of the court.
The court DIRECTS the Clerk to file a copy of this
order in 2:12-md-2327. It shall be the responsibility of
the parties to review and abide by all pretrial orders
previously entered by the court. The orders may be accessed through the CM/ECF system or the court’s website at www.wvsd.uscourts.gov.
ENTER: July 25, 2019
/s/ Joseph R. Goodwin
JOSEPH R. GOODWIN
UNITED STATES
DISTRICT JUDGE

App. 19
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT
OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: C.R. BARD, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL NO. 2187

IN RE: AMERICAN MEDICAL
SYSTEMS, INC. PELVIC REPAIR
SYSTEMS PRODUCTS
LIABIILITY LITIGATION

MDL No. 2325

IN RE: BOSTON SCIENTIFIC CORP., MDL No. 2326
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2387

IN RE: COOK MEDICAL, INC,
MDL No. 2440
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
LITIGATION
This Document Relates To All Cases

MDL No. 2511

App. 20
Recommended Allocation of Common
Benefit Fees and the Reimbursement of
Shared Expenses and Held Costs by the
Court Appointed External Review Specialist
COMES NOW, The Honorable Daniel J. Stack, Retired, as External Review Specialist1 (as identified in
the Order Granting Motion to Appoint the Hon. Daniel
J. Stack Ret., as External Review Specialist (the “Appointment Order”) and in accordance with the Fee
Committee Protocol2 (the “Protocol”) issue my Recommended Allocation in accordance with Section F of the
Protocol as follows:
The Court having entered its Memorandum Opinion and Order (Re: Petition for an Award of Common
Benefit Attorneys’ Fees and Expenses) (S.D. W. Va. Jan.
30, 2019), which was entered in each of the seven
MDLs, (hereinafter referred to as “Fee Petition Order”)
establishing the common benefit fund, this Recommended Allocation sets forth the basis for my recommendation that the Court award payment from the
common benefit fund for payment of fees in the percentages shown in Exhibit 1 to this Recommended
1

Appointed by Court Order entered October 13, 2017: Bard
MDL 2187 [ECF No. 4663], AMS MDL 2325 [ECF No. 5112], BSC
MDL 2326 [ECF No. 4422], Ethicon MDL 2327 [ECF No. 4783],
Cook MDL 2440 [ECF No. 592], Coloplast MDL 2387 [ECF No.
1572], Neomedic MDL 2511 [ECF No. 177].
2
Bard MDL 2187 PTO 257 [ECF No. 4020], AMS MDL 2325
PTO 244 [ECF No. 4346], BSC MDL 2326 PTO 166 [ECF No.
3968], Ethicon MDL 2327 PTO 262 [ECF No. 4044], Cook MDL
2440 PTO 81 [ECF No. 503], Coloplast MDL 2387 PTO 133 [ECF
No. 1437], Neomedic MDL 2511 PTO 38 [ECF No. 172].

App. 21
Allocation and award payment of costs from the common benefit fund in the amounts shown in Exhibit 2
to this Recommended Allocation.
In making this Recommended Allocation, I rely
upon the time and expense submissions made by firms
seeking common benefit funds and/or expenses (hereinafter may be referred to as “applicant firms”), the
Common Benefit Orders of this Court, the Final Written Recommendation of the Common Benefit Fee and
Cost Committee, including the Declaration of Henry
Garrard and the other material supplied therewith,3
my observation of and participation in the review and
deliberation undertaken by the Common Benefit Fee
3

Available to me for my evaluation of applicant firms were:
(1) attorney biographies provided by applicant firms, (2) the original time submission made by each applicant firm to the Court
appointed CPA, (3) the self-audited time submission made by
each applicant firm to the Court appointed CPA, (4) the affidavit
provided by each applicant firm accompanying its self-audited
time, (5) the letter to each applicant firm reflecting the FCC’s initial review of time submissions including Exhibits identifying
time found not compensable by the FCC at that time, (6) the materials provided by applicant firms in response to the FCC’s initial
review including affidavits provided by applicant firms, (7) the expense submissions provided by each applicant firm, where applicable, (8) the letter to each applicant firm reflecting FCC’s revised
time and expense review after the FCC’s consideration of the materials received from applicant firms including the Exhibits detailing individual line items of time and expense not accepted by
the FCC at that time, (9) the transcripts of the in-person meetings
conducted among the FCC, myself and those firms seeking an inperson opportunity to be heard by the FCC, (10) the FCC’s Preliminary Written Recommendation delivered to each firm and the
two Exhibits attached thereto, and (11) the FCC’s Final Written
Recommendation including all Exhibits.

App. 22
and Cost Committee (the “FCC”), my conversations,
written correspondence and meetings with applicant
firms, and applicable law.4 In delivering this Recommended Allocation to the Court, I request that the FCC
provide to the Court for its consideration, in camera,
all of the same materials that were made available to
me.
I.

BACKGROUND

In relating the history of the transvaginal mesh
litigation, I reviewed and incorporate by reference the
lengthy historical narrative of the litigation by the
FCC and the factual and procedural history of the
FCC’s activities set forth in the Declaration of Henry
Garrard which is included with the attached FCC’s
Final Written Recommendation (Exhibit 3). The pelvic mesh multi-district litigations (“MDLs”) pending
before this Court began with the Judicial Panel on
Multidistrict Litigation’s order consolidating cases involving the Avaulta line of pelvic organ prolapse repair
devices sold by C.R. Bard, Inc. (“Bard”) in 2010 and ultimately led to the consolidation of seven multidistrict
litigations (“MDLs”) in the Southern District of West
Virginia.5 The MDL Panel sent four additional MDLs
4

A copy of the Final Written Recommendation of the Common Benefit Fee and Cost Committee Concerning the Allocation
of Common Benefit Fees and the Reimbursement of Shared Expenses and Held Costs delivered by the FCC which includes the
Declaration of Henry Garrard is attached hereto as Exhibit 3 and
is incorporated by reference.
5
In re Avaulta Pelvic Support Sys. Prods. Liab. Litig. (later
expanded to include a range of other pelvic repair mesh devices

App. 23
to this Court in 2012, another in 2013, and a seventh
MDL in 2014.6 The pelvic mesh litigation coordinated
before this Court ultimately grew to include more than
104,836 filed cases, comprising one of the largest mass
tort litigations in history.
As explained in the Plaintiffs’ Proposed Counsel
Organizational Structure, which was submitted to the
Court on March 17, 2012, the common medical, scientific and legal claims and theories, common defenses,
and common experts, as well as the presence of numerous plaintiffs implanted with different defendants’
products, called for a singular “cross-MDL” Plaintiffs’
leadership structure. The Plaintiffs’ lawyers involved
in the litigation foresaw the challenge that lay ahead
and assembled a Plaintiffs’ Steering Committee (“PSC”)
of 61 attorneys from law firms across the country, who
were ultimately appointed and assigned by the Court
the responsibility of marshaling resources and leading
this sprawling litigation under a unified leadership
structure.

sold by Bard, and renamed the C.R. Bard, Inc. Pelvic Repair Sys.
Prod. Liab. Litig.), 746 F.Supp.2d 1362, MDL No. 2187 (J.P.M.L.
2010).
6
In re American Med. Sys., Inc., et al., Pelvic Repair Systems
Prods. Liab. Litig., 844 F.Supp.2d 1359, MDLs Nos. 2325, 2326,
2327 (J.P.M.L. 2012) (3 separate MDLs); In re Coloplast Corp.
Pelvic Repair Support Sys. Prods. Liab. Litig., 883 F.Supp.2d
1348, MDL 2387 (J.P.M.L. 2012); In re Cook Medical, Inc., Pelvic
Repair Sys. Prods. Liab. Litig., 949 F.Supp.2d 1373, MDL 2440
(J.P.M.L. 2013); In re Neomedic Pelvic Repair Sys. Prods. Liab.
Litig., 999 F.Supp.2d, MDL 2511 (J.P.M.L. 2014).

App. 24
As envisioned and directed by the Court, the
Court-appointed PSC, Coordinating Co-Lead Counsel,
Executive Committee, and Co-Lead Counsel coordinated and collaborated across MDL lines to plan the
litigation strategy, develop theories and confront legal
issues, identify experts, and ultimately bear the cost
and expend the labor necessary to develop the general
liability cases against numerous products made and
sold by a variety of corporate defendants. This singular
PSC and leadership structure enabled such coordinated development of litigation strategy and theories
and allowed the work product from one MDL to be utilized across product and manufacturer lines. As the
Court found in its Fee Petition Order entered in each
of the seven MDLs, “[t]his singular PSC worked and
collaborated across MDL lines to develop the litigation
strategy and theories of liability, depose experts, and
absorb the massive litigation costs.” Id. at 5. Important
legal decisions by the Court and by counsel impacted
all MDLs due to the commonality of the products and
issues involved. This single, unified leadership structure was also necessary to avoid potential conflicts and
cross-purpose work. Further, the Court found that absent the cross-MDL leadership structure, “all of the
progress and efficiencies in these MDLs would have
been impossible.” Fee Petition Order at 6. As anticipated, the time, effort and expense of simultaneously
pursuing and developing multiple legal theories against
a range of products manufactured and sold by a disparate group of defendants, was enormous.

App. 25
Prosecuting multiple MDLs simultaneously before
one court presented unique logistical and procedural
difficulties and taxed the resources of the firms leading
this litigation. To address the economic disparity between the parties, the PSC firms were required to
expend tens of millions of dollars to prosecute this
massive litigation. The PSC firms contributed a total
of $17,825,000 in common benefit assessments, which
were used to fund the litigation generally. “Held costs”
in the amount of $28,986,811.38 were recognized by
the FCC as incurred for the common benefit, which
have not yet been reimbursed out of the MDL fund. An
additional amount of approximately $12,000,000 has
been paid from the common benefit fund as costs associated with general expert fees, special master fees,
data warehousing and management fees, and to the
Court-appointed accountant overseeing the MDL fund.
These costs continue to be incurred and to be paid from
the common benefit fund.
In addition to the costs incurred, through December 21, 2016, ninety-four law firms submitted more
than 900,000 hours of time for common benefit consideration, and the Court-appointed FCC has recognized
a total of 679,191.20 of those hours as being for common benefit.
In order to provide a mechanism to compensate attorneys who performed work for the common benefit of
all plaintiffs in this complex litigation and to reimburse those attorneys for common benefit expenses,
this Court entered orders establishing a five percent
(5%) assessment upon the gross monetary recovery in

App. 26
every case.7 In addition, this Court set forth the procedures to be employed for reporting common benefit
time and expenses.8
This Court Ordered that all time and expenses
must be (a) for the common benefit, (b) appropriately
authorized, (c) timely submitted, and (d) approved by
this court.9 All applicant firms were ordered to maintain contemporaneous time and expense records and
submit the records every six (6) weeks. Standardized
forms were provided for recordkeeping, and all time
and expense submissions were delivered to the Court
appointed CPA.
On January 15, 2016, this Court entered its Pretrial Order Establishing Criteria for Applications to
the MDL Fund to Compensate and Reimburse Attorneys for Services Performed and Expenses Incurred for
MDL Administration and Common Benefit and Appointment of Common Benefit Fee and Cost Committee in each of the related MDL’s (the “FCC Order”).10
7

Bard MDL 2187 PTO 84 [ECF No. 634], AMS MDL 2325
PTO 77 [ECF No. 833], BSC MDL 2326 PTO 52 [ECF No. 508],
Ethicon MDL 2327 PTO 62 [ECF No. 747], Cook MDL 2440 PTO
12 [ECF No. 44], Coloplast MDL 2387 PTO 32 [ECF No. 124], Neomedic MDL 2511 PTO 21 [ECF No. 79].
8
Bard MDL 2187 PTO 54 [ECF No. 365], AMS MDL 2325
PTO 20 [ECF No. 303], BSC MDL 2326 PTO 17 [ECF No. 212],
Ethicon MDL 2327 PTO 18 [ECF No. 282], Cook MDL 2440 PTO
11 [ECF No. 43], Coloplast MDL 2387 PTO 6 [ECF No. 15], Neomedic MDL 2511 PTO 20 [ECF No. 78].
9
Id.
10
Bard MDL 2187 PTO 207 [ECF No. 1744], AMS MDL 2325
PTO 204 [ECF No. 204], BSC MDL 2326 PTO 136 [ECF No. 1289],

App. 27
The FCC Order appointed nine individuals to serve as
members of the Common Benefit Fee and Cost Committee for purposes of recommending an allocation of
a singular common benefit fund. Under the FCC Order
and the Protocol, the FCC was to review the submissions of applicant firms and to provide a recommendation regarding the allocation of common benefit funds.
The Protocol further provided the framework under
which I, as External Review Specialist, was to assist
the FCC in performing its duties, review the FCC’s recommendation, hear objections, and provide this Recommended Allocation. The primary focus of the FCC’s
and my review was always the quality and value of the
work performed. Specifically, this Court’s FCC Order
provided “the over-arching guideline that the FCC
must consider is the contribution of each common benefit attorney to the outcome of the litigation.”
I was directed by the Appointment Order to “assist[ ] the FCC in its duties of evaluating the time and
expenses submitted for consideration in this MDL, and
to aid the FCC in any way appropriate in performing
the work of the FCC and in furtherance of the directives and mandates” of the Protocol. I was further
directed by the Appointment Order to “exercise the duties set forth in [the Protocol], including meeting with
firms submitting requests for fees or expenses to the
FCC, attempting to resolve objections [to the FCC’s
recommendation], if any, and submitting to this Court
Ethicon MDL 2327 PTO 211 [ECF No. 1845], Coloplast MDL 2387
PTO 85 [ECF No. 441], Cook MDL 2440 PTO 71 [ECF No. 414],
and Neomedic MDL 2511 PTO 23 [ECF No. 85].

App. 28
a written recommendation as to a fair allocation of the
Common Benefit Fund.” That work has now been completed.
II.

EXPERIENCE AND METHODOLOGY OF
THIS REPORT
A. Methodology of Review of the Work Performed

I am impressed by the robust due process safeguards utilized by the FCC in its execution of its duties
under the Protocol. Applicant firms were presented
with several opportunities to interact with the FCC
in the review and evaluation of time and expense submissions. Applicant firms were first presented the opportunity to perform a “self-audit” of their time and
expense submissions. The self-audited time and expense
submissions provided applicant firms the opportunity
to clarify and correct entries prior to consideration by
the FCC. After the opportunity for self-audit, the FCC
then evaluated the time for each applicant firm along
with review of each applicant firm’s initial affidavit
and attorney biographies. This review resulted in a
communication sent to each applicant firm reflecting
the initial review of time submissions. The applicant
firms received a spreadsheet indicating those individual time entries where the FCC found that the work
was not for the common benefit and a separate spreadsheet indicating those individual time entries where
the FCC had questions regarding the common benefit
of the work performed. The FCC requested that applicant firms respond to those individual time entries

App. 29
identified by the FCC and provide information that
would substantiate the common benefit of the time entry, thus presenting a second opportunity for applicant
firms to provide additional information for consideration by the FCC. The FCC received those responses
along with additional affidavits from the applicant
firms. Each applicant firm was required by the Protocol
to include in their affidavit a sworn discussion of how
the firm “made a substantial common benefit contribution to the outcome of the litigation” as follows:
a.

The consistency quantum, duration, and intensity of the firm’s commitment to the litigation;

b.

The level of experience, reputation, and status
of each attorney and firm, including partner
participation by the firm;

c.

The firm’s membership and/or leadership on
the [PSC] and/or Executive Committee;

d.

The firm’s participation and leadership in discovery (motions, depositions);

e.

The firm’s participation and leadership in law
and briefing matters;

f.

The firm’s participation and leadership in science and expert matters;

g.

The firm’s participation and leadership in document review;

h.

The firm’s activities in preparation for, support
of or conduct of bellwether trials or other trials which impacted proceedings on a common

App. 30
benefit level . . . [including] an explanation . . .
of why the Firm believes such work should be
considered as common benefit. For example,
whether and how such work benefitted the
MDL plaintiffs generally; the status of settlements in the particular MDL in which the
work was performed at the time such work
was performed, and whether the case-specific
work assisted in bringing about settlements
with the defendant in that MDL. Each Firm
requesting common benefit reimbursement
for work done in any State Court case shall
provide an explanation in their affidavit of
why the Firm believes such work should be
considered as common benefit;
i.

The firm’s participation and leadership in settlement negotiations, drafting of settlement
documentation and closing papers, and administration of settlement agreements (excluding individual representations);

j.

Where common benefit work occurred;

k.

The . . . members of the firm [that] held leadership positions in groups that engaged in
common benefit work (describe position and
group);

l.

The firm’s participation in ongoing activities,
such as the Fee and Cost Committee, Settlement Claims Administration, or Court-Appointed
Committees and Leadership, which are intended to provide common benefit;

m. [Explanation of ] whether counsel in the firm
were or were not involved in the litigation

App. 31
prior to the formation of the MDL, and the
time and expenses incurred during such time
period;
n.

The firm made the following, significant contributions to the funding of the litigation (include all assessments made to the MDL) and
the amount of any sums reimbursed and
date(s) of reimbursement;

o.

The members of the firm who were PSC members, group members, or Executive Committee
members whose commitment to the litigation
did not ebb; and

p.

The other relevant factors which the Fee Applicant requests be considered by the Court.

See Protocol at 6; see also Ex. 4 to Protocol, Fee Affidavit in Connection With Request for Allocation of Aggregate Common Benefit and Costs Award.
The FCC then communicated to each applicant
firm the FCC’s decision based upon its review of the
responsive information received from the applicant
firm. The FCC invited each applicant firm to appear for
an in-person meeting with the FCC thereby, which is
the third opportunity applicant firms were presented
to provide additional information for consideration by
the FCC. Of the ninety-four applicant firms, twentyseven appeared before the FCC for an in-person meeting. After conducting these in-person meetings, the
FCC prepared and delivered its Preliminary Written
Recommendation. Applicant firms were given an opportunity to object in writing to the Preliminary

App. 32
Written Recommendation – their fourth opportunity to
provide information and share concerns with the FCC
– and twenty-four chose to do so. The FCC received and
evaluated those written objections in preparing its Final Written Recommendation. Under the Protocol, parties had the opportunity to object to the Final Written
Recommendation, which was the fifth opportunity that
applicant firms had to present facts and argument to
the FCC and to receive feedback from the FCC. Eight
firms objected to the FCC’s Final Written Recommendation.
In preparing this Recommended Allocation, I familiarized myself with the history of this litigation and
the contributions of the applicant firms through review
of the materials submitted by those firms and through
observation of and assistance in the FCC’s evaluation
of the materials submitted by those firms. I attended
an in-person meeting with co-lead counsel for each of
the related pelvic mesh MDLs to discuss the quality
and value of the applicant firms’ contribution to the
common benefit. I also reviewed the materials submitted by each of the applicant firms, including their affidavits and biographical information for attorneys
seeking common benefit reimbursement for their work.
In addition, I received and considered the applicant
firms’ responses to the FCC’s initial review, as well as
the applicant firms’ objections to the FCC’s Preliminary Written Recommendation.
For those twenty-seven applicant firms who
sought to meet with the FCC in-person to further discuss their contribution to the litigation following the

App. 33
FCC’s Initial Review of the time and expense submissions, I attended each of their presentations to the
FCC, and I considered the information provided during
these presentations in making my recommendation.
As noted above, 70 of the 94 firms accepted the FCC’s
Preliminary Written Recommendation without objection. I considered the contentions and information contained in the objections made by twenty-four applicant
firms to the FCC’s Preliminary Written Recommendation. While I did not participate in the FCC’s allocation
decision, the opportunity to review the applicant firms’
objections and to observe the FCC’s deliberations was
most informative and helpful. I joined in the delivery
of the FCC’s Preliminary Written Recommendation for
purposes of attesting to the FCC’s adherence to the
requirements of the Protocol and the Fee Order consistent with my charge under the Protocol. I also reviewed and considered the Final Written Recommendation
of the FCC, including the factual background of the
common benefit process provided in the provided in the
Declaration of Henry Garrard and the firm-specific
paragraphs addressing the contribution of each firm
that the FCC proposed to receive common benefit
funds. I found that the methodology utilized by the
FCC was fair and in accordance with the law and directions of this Court. In summary, prior to issuing its
Final Written Recommendation, the FCC provided ample opportunities for the firms to advocate for their
contribution to the common benefit of the litigation, including through providing for a period of self-audit
prior to submission for review, written responses to the
initial review performed by the FCC, an opportunity to

App. 34
provide a detailed affidavit addressing the nature and
value of the applicant firm’s contribution to the common benefit, an opportunity to be heard by the FCC,
and a written objection to the Preliminary Written
Recommendation.
In accordance with the Court’s directive in the Order appointing me as External Review Specialist, I
provided assistance to the FCC in evaluating the time
and expenses submitted for consideration as common
benefit. I observed the FCC’s painstaking process of reviewing the time and expense submissions from 94 different firms, which is explained in detail in the Final
Written Recommendation, and which consumed several months. The total individual time entries across
the 94 firms exceeded over 900,000 hours in entries. I
observed the several FCC meetings where the time
and expense submission of each applicant firm, as well
as each firm’s contributions to and participation in the
litigation, was discussed and analyzed.11 I was struck
by the significant differences in the quality of recordkeeping among the various applicant firms. From my
involvement in the process of review of the applicant
11

Importantly, it is clear to me based on my personal observations of and participation in the FCC’s deliberations that all
applicant firms were subject to, and reviewed under, the same
rules and analysis regarding the common benefit time, including
the FCC firms. For example, issues such as whether to compensate law clerk time arose, and the decision to disallow common
benefit time for law clerks impacted each and every law firm, including without exception the FCC member firms. The same set
of rules and guidelines for the evaluation of common benefit time
and expenses were applied with equal force to all applicant firms,
regardless of whether they were represented on the FCC or not.

App. 35
firms’ submissions, I observed significant problems
with the timekeeping records submitted by certain of
the applicant firms including some of the firms that
remain as objectors. Some firms submitted obviously
excessive time submissions, inadequate descriptions
of the task performed, duplicative submissions, work
that conferred little or no common benefit, individual
case work, and various inaccuracies and instances of
non-compliance with the Protocol. The FCC addressed
these submissions through its review process that resulted in the elimination of more than 200,000 hours
from consideration. Many of the firms clearly did not
comply with the Court’s directive to self-audit their
time, which complicated the FCC’s review process.
Based on my observation of and assistance in the
FCC’s review of the time and expense submissions, as
well as my attendance at each of the applicant firms’
presentations and review of the affidavits and materials submitted by the applicant firms, I was able to evaluate the nature and quantity of the work performed by
each applicant firm in considering each applicant
firm’s contribution to the outcome of the litigation.
Of the twenty-four objections to the FCC’s Preliminary Written Recommendation, sixteen of those objections were ultimately resolved. Eight firms objected to
the FCC’s Final Written Recommendation. I find it particularly instructive that of the 94 firms who submitted
common benefit time for consideration, and of twentyfour firms that objected to the FCC’s Preliminary Written Recommendation, and the eight firms that objected
to the Final Written Recommendation, only four firms

App. 36
remain as objectors. The multiple opportunities to give
and receive feedback and the FCC’s demonstrated willingness to hear and give due consideration to the positions of those applicant firms who made objections and
to adjust its recommended allocation where appropriate is evidence of the allocation process working as the
Court intended. See, In re Vioxx Prods. Liab. Litig., 802
F.Supp.2d 740, 774 (E.D.La.2011) (J. Fallon) (“The Court
interprets this ongoing development of the FAC’s and
the Special Master’s recommended allocations as an
indication that the allocation process was working
properly. The effectiveness of this [allocation] process
in this case is supported by the fact that only 4 out of
the 108 common benefit fee applicants continue to
maintain their objections.”). As shown in Exhibit 1 to
this Recommended Allocation, the proposed allocation
of common benefit funds to applicant firms changed
from the FCC’s Preliminary Written Recommendation
to its Final Written Recommendation in response to information received by the FCC through its review and
objection process. Based on the information I received
through the objections to the Final Written Recommendation, I made further changes in allocation to certain applicant firms.
I have personally spoken or met with each of the
eight firms that objected to the FCC’s Final Written
Recommendation, and I have considered their arguments and submissions in making this Recommended
Allocation. The opportunity to meet with each of the
firms objecting to the Final Written Recommendation
was very helpful and informative, and it afforded me

App. 37
an additional opportunity to ask questions and to evaluate any additional materials and arguments advanced
beyond what had been presented previously, and it provided another opportunity for the objecting firms to
ask questions of me and to receive feedback from me.
Certain of the eight firms that objected to the
FCC’s Final Written Recommendation did work primarily, if not exclusively, in the State Courts of New
Jersey and have based their objection, in part, on an
agreement entered between MDL leadership and certain New Jersey counsel. These objectors argue that
because of this agreement, all of their time submitted
should be considered as common benefit. These objectors also assert that the FCC’s recommendations regarding allocation of funds do not accurately reflect the
value of their common benefit contribution. I reviewed
the agreement entered between MDL leadership and
the New Jersey counsel and have considered that agreement in light of the Court’s Protocol and Fee Order. My
recommendation regarding allocation of common benefit fees and expenses takes into consideration the contribution of those who participated in the New Jersey
litigation as well as those who participated in related
litigation in other state court venues. I further note
that state court trials were subject to the same analysis by the FCC, regardless of the identity of trial counsel and irrespective of whether the time was expended
by Plaintiffs’ leadership, Participating Counsel, or member firms of the FCC. Arguments that there were different “rules” for the FCC members and other applicant
firms are simply without merit and factually incorrect.

App. 38
Certain of the firms objecting to the FCC’s Final
Written Recommendation complain that they are unable to adequately respond to or assess the FCC’s recommended allocation without first receiving discovery
from the FCC regarding its deliberations. Contrary to
the suggestion of these objectors, I have observed the
FCC’s process to be open and transparent. The FCC
provided ample information and explanation regarding its process and its analysis both in writing and in
person to each of the objecting firms. The FCC’s process
provided applicant firms with meaningful opportunities to object and to be heard. These objectors have also
had the opportunity to be heard by me, and again I
have taken their objections into consideration in making my recommendation. I find it noteworthy that sixteen of the twenty-four firms that objected to the FCC’s
Final Written Recommendation were able to resolve
their objections without discovery from the FCC. As
the FCC has pointed out in response to one objecting
firm’s requests for discovery from the FCC, each of
which were denied by the Court, discovery in connection with fee motions is rarely permitted and should
never result in a second major litigation. See, e.g., In
re Genetically Modified Rice Litig., 764 F.3d 864, 872
(8th Cir. 2014). Moreover, as the FCC pointed out in its
response to one of the several motions to compel discovery filed by the same firm, the FCC has already provided much of the information that the firm sought to
discover and certain of the requested information was
not in the FCC’s possession. Finally, it is not the FCC’s
or my obligation to demonstrate why any particular
time submission was not considered for the common

App. 39
benefit. To the contrary, it is the burden of the applicant firm who claims entitlement to common benefit to
prove its compliance with the Court’s Common Benefit
Orders as well as to prove how and the extent to which
its work benefited the litigation. See, In re Volkswagen
“Clean Diesel” Marketing, Sales Practices, and Prods.
Liab. Litig., 2019 WL 274036, *5-*9 (9th Cir. Jan. 22,
2019).
One common theme of the eight firms’ objections
to the Final Written Recommendation is that their
work was improperly undervalued by the FCC while
other firms would receive too much money for their
work under the FCC’s recommendation. It is inevitable
that law firms that have devoted significant time and
effort to this litigation will view the value of their own
work, and that of others, differently. It would be unrealistic to expect that every lawyer (or judge) would
reach the same conclusion regarding the value of every
applicant firm’s work. In Diet Drugs, 2003 WL 21641958
*10-*11, the court made an observation that I find particularly instructive here, stating “[w]ith so much
money at stake and so much time invested by skilled
attorneys on valuable common benefit work, it is not
surprising that disputes exist concerning the proper
method and dollar amount of the individual allocations. We emphasize, however, that the allocation of fees
is not an exact science.” The court in In re Motor Fuel
Temperature Sales Practices Litig., 2016 WL 4445438,
*13 (D.Kan.2016), made a similar observation, stating
that “[i]n determining reasonable attorneys’ fees, the

App. 40
essential goal ‘is to do rough justice, not to achieve auditing perfection.’ ”
Because many of the relevant factors in the allocation decision process are inherently subjective, Judge
Fallon noted in Vioxx that “some subjectivity is unavoidable in allotting common benefit fees.” 802 F. Supp.
2d at 774. None of the applicant firms could dispute the
truism that not all hours are entitled to equal reimbursement. As Judge Fallon explained, “there is a hierarchy of value for work that tends to have a greater
impact on the litigation and generates more ‘common
benefit.’ Such work deserves greater compensation.”
Id. at 772. Judge Fallon explained further that “in the
real and imperfect world of litigation it is an accepted
fact that not all work hours are entitled to the same
compensation rate. The nature of the work, the skill
and experience of the party doing the work, and the
result achieved all factor into the appropriate allocation. How these factors are weighed injects an unavoidable amount of subjectivity in the analysis. The best
that can be done to assure the validity of the
analysis is to base the subjectivity quotient on
sufficient facts and experience, and to invite input from those affected.” Id. at 774 (emphasis
added).
The common benefit allocation process is intended
to provide meaningful input and feedback, the ultimate goal of which is not to achieve perfection but rather a result that is fair and reasonable. Diet Drugs,
2003 WL 21641958 at *6 (noting that applicants had the
opportunity to object to their proposed fee allocation,

App. 41
meet with the fee committee and discuss their objections, suggest revisions before a final recommended allocation was determined, and, if still dissatisfied, seek
relief from the court). As outlined above, the common
benefit allocation process here provided multiple opportunities to object and to be heard. Where appropriate, adjustments have been made in light of the feedback and
information provided for certain of the applicant firms.
Based upon my review of the objections and my
meetings and discussions with the objecting firms, it is
apparent that some of the objecting firms are seeking
credit for much of the same work. For example, three
of the objecting firms claim that they deserve more
credit than others for the development or the success
of the Ethicon litigation. Some of these objecting firms
worked on the same trials together and some claim to
have developed some of the same experts and the same
litigation theories and strategy. Certain of these objecting firms claim that their work that resulted in an
early New Jersey State Court trial verdict provided
substantial benefit to the litigation. However, another
objecting firm argues that the New Jersey verdict was
only of limited value compared to subsequent trial(s)
in which their firm was involved because the New Jersey verdict addressed only failure to warn and not design defect. The point of this observation is not to
decide which of these firms is right or wrong about who
deserves the most credit for the development or success of this litigation. I have no doubt about the sincerity of these firm’s beliefs that their contributions were
more significant than those of one another or those of

App. 42
other firms. However, these competing objections only
emphasize the point made by several courts in the
common benefit context: the allocation process necessarily involves a certain level of subjectivity, and different people could analyze the same work and come
to different conclusions regarding the value of that
work in terms of its benefit to the litigation overall as
to who deserves the most credit for that work.
Contrary to the urging of certain of the objecting
firms, I am not required to and I did not attempt to
employ any “lodestar” calculation in making my recommended allocation. Glaberson v. Comcast Corp., 2016
WL 6276233 (E.D.Pa. 2016) (“a mathematical application of a ratio of the firms’ lodestars is not mandated”
in the allocation of common benefit attorneys’ fees).
It is telling that the firms advocating for a lodestar
approach were among the most abusive of the Courtordered time reporting requirements, submitting excessive time, inadequate descriptions of work performed,
time that provided minimal to no common benefit and
duplicate billings for the same task, among other violations. Citing to Judge Fallon’s Vioxx opinion, the
Special Master in Deepwater Horizon observed that
“[m]echanically calculating hours and allocating
fees solely on that basis would incentivize padded hours and diminish the work that truly
moved the litigation towards its conclusion.”
(In re: Oil Spill by the Oil Rig “Deepwater Horizon” in
the Gulf of Mexico, on Apr. 20, 2010, 2:10-md-2179, Doc.
23574-1 (Special Master’s Recommendation Concerning the Allocation of Common Benefit Fees) (Oct. 24,

App. 43
2017), p. 8 (emphasis added)). I similarly find that multiplying the number of hours submitted by an hourly
rate would only serve to reward firms that abused the
process and would not adequately account for the wide
variations in the value of the benefit of the work performed by the applicant firms.
While the hours submitted by the various firms
was considered as a part of my analysis, I reviewed the
submitted time and applicant presentations and materials not to calculate a “lodestar” but rather in light of
the Court’s overarching instruction to “evaluat[e] what
work and expenses furthered the common benefit of
the litigation.” (Fee Committee Protocol, p. 10). See
also, In re Thirteen Appeals Arising Out of San Juan
Dupont Plaza Hotel Fire Litig., 56 F.3d 295, 307 (1st
Cir.1995) (“While the time logged is still relevant to the
court’s inquiry – even under the [percentage of fund]
method, time records tend to illuminate the attorney’s
role in the creation of the fund, and, thus, inform the
court’s inquiry into the reasonableness of a particular
percentage. . . .”); In re Copley Pharmaceutical, Inc., Albuterol Prods. Liab. Litig., 50 F.Supp.2d 1141, 1149-50
(D.Wyo.1999) (“[t]he value of time expended with appropriate adjustments may provide a rough starting
point for assessing the respective roles of counsel, but
it should not be used rigidly as a precise measure to
the exclusion of other intangible factors.”).
In addition to the number of hours submitted,
my review of the work performed considered additional factors in order to determine its quality and the
value it generated towards the overall litigation and

App. 44
ultimate settlement. For example, those attorneys who
spent their time passively involved in meetings, reviewing emails, telephone conferences, or attending
hearings or depositions to merely observe were viewed
as not having contributed to the common benefit on the
same level as those attorneys and firms who undertook
critical aspects of the litigation, such as (1) preparing
for and taking generic liability depositions, (2) meeting
and working with experts, (3) preparing experts for
and defending their depositions, (4) presenting motions and briefs and oral arguments before the Court
or on appeal, (5) preparing for and participating in trials and (6) leading settlement negotiations. In fact, a
number of firms submitted time that conferred no common benefit whatsoever. I also took into account the
length of the applicant firm’s involvement in the litigation, its overall time and resource commitment to
the case, whether attorneys in the firm assumed a
leadership role, and the reputation and experience of
the attorneys performing work.
Certain of the objecting firms point out their participation in the trial of cases, some of which resulted
in verdicts, that they believe were beneficial to the litigation. I would first point out that not all work spent
related to a given “trial” are of equal value. Some firms
performed the work related to preparing for and trying
the case from the time the case was identified for trial
and their work continued through the post-trial appeal
process. Others may have provided valuable support at
some point before or during trial, and still others may
have participated in the trial itself, but in different

App. 45
roles. Moreover, as Judge Fallon observed in the Vioxx
litigation, not all trials are equal in terms of common
benefit and the evaluation of trial-related work must
take into consideration whether and the extent to
which that work was beneficial to others. Vioxx, 802
F. Supp. 2d at 773 (“In allocating common benefit fees
to trial counsel it is important to determine when the
trial occurred, whether the work was shared with
other counsel, whether the work was helpful in other
cases or just in that one case. In this latter event, it
does not mean that such counsel would not be entitled
to some common benefit fee because there is a salutary
rippling effect which a win or ‘hard fought case’ has on
other cases. But it also does not mean that such counsel may be entitled to the same common benefit fee as
a colleague whose work was shared with other counsel
and had a meaningful effect on subsequent trials.”). I
am aware that certain of the trials in which the objecting firms were involved were built upon work product
from others and occurred after the liability case had
been established for the product at issue by others. I
am also aware that certain of the objecting firms outwardly resisted sharing information and work product
with others, and the value of the trials inured largely
to the clients in those individual cases. All of these factors must be taken into account.
Finally, some objectors argue that the outcome reflected in the FCC’s Final Written Recommendation
was predetermined. This allegation is without merit. I
have personal knowledge from my observation of and
participation in the review of common benefit time and

App. 46
my observation of the FCC’s analysis of the value of
those contributions that the FCC did not discuss specific allocations until after all of the submitted time
and expense was evaluated. Certainly, that review and
analysis informed the FCC’s determination about the
value of the common benefit contributions of each applicant firm, but there was never a discussion of specific values for allocations until the arduous work of
analyzing the time and expense submitted was complete. To the extent that any objector – especially given
that they were not present for these deliberations – alleges otherwise, they are quite simply misinformed.
I also evaluated each attorney who was appointed
to a leadership position to determine if they performed
common benefit work. In some instances, certain members of Plaintiffs’ Leadership did limited work, and in
some instances, no substantive work contributing to
the common benefit of the litigation at all even though
this Court made clear that leadership appointments
were individual in nature. There were members of the
MDL PSC that utilized work product developed in the
MDL for benefit outside of the MDL without making
substantive contribution to the common benefit of the
MDL litigation. Having assisted the FCC in its evaluation of the efforts and effectiveness of leadership, I
find that the FCC properly evaluated the contributions
of Plaintiffs’ Leadership. I did consider that PSC firms
contributed substantial capital to fund the litigation.
Where appropriate, I considered information that was
harmful to the advancement of the litigation. Actions
by certain attorneys caused the Plaintiffs’ Leadership

App. 47
and the FCC to incur significant additional costs and
were disruptive to the advancement of this litigation.
These negative consequences to the litigation as a
whole are referred to as “common detriment,” and I
was directed to consider common detriment pursuant
to the Protocol and the FCC Orders.
My methodology in assigning a percentage to each
applicant firm of the aggregate award based on the
firm’s relative contribution to the outcome of the litigation is consistent with the methodology in similar
multi-plaintiff product liability MDLs, including those
in which I have served in a similar role. In In re Nuvaring Prods. Liab. Litig., 2014 WL 7271959, *2 (E.D.Mo.2014),
the MDL court affirmed my recommended allocation of
common benefit fees that was based on the quality and
value of the work performed rather than on a “lodestar” analysis of rates multiplied by hours. Id. at *6.
Likewise, in the In re Yasmin and Yaz Prods. Liab.
Litig. MDL, I recommended an allocation based on the
quality and value of the work to the litigation and resolution and I expressly declined the “lodestar” approach as both arbitrary and inappropriate because it
would not properly consider the value and quality of
the work involved. In re Yasmin and Yaz Prods. Liab.
Litig., 3:09-md-02100, Doc. 3843 (Special Master’s Report and Recommendation Regarding the Allocation
and Distribution of Common Benefit Fees and Expenses) (S.D.Ill. Nov. 6, 2015), pp. 7-8. The Yaz MDL
Judge, the Hon. David R. Herndon, adopted my allocation recommendation in its entirety. Id., Doc. 3856

App. 48
(Minute Order adopting Special Master’s recommended
allocation in its entirety) (S.D. Ill. Nov. 20, 2015).
The First Circuit in In re Thirteen Appeals Arising
Out of San Juan Dupont Plaza Hotel Fire Litig., 56
F.3d 295, 307-08 (1st Cir.1995), expressly held that “in
a common fund case the district court, in the exercise
of discretion, may calculate counsel fees either on a
percentage of the fund basis or by fashioning a lodestar. . . . [W]e rule the court below did not err in purposing to allocate fees based on the [percentage of
fund] method, emphasizing the attorneys’ ‘relative contribution’ to the creation of the Fund.” Similarly, the
MDL court in In re FEMA Trailer Formaldehyde Prods.
Liab. Litig., 2013 WL 1867117, *4-*15 (E.D.La.2013)
approved the common benefit fee allocation proposed
by the steering committee and the court-appointed
special master, which awarded a stated percentage of
available common benefit fees to each of the firms applying for common benefit. Similarly, in In re Prempro
Prods. Liab. Litig., 2014 WL 3809101, *1-*2 (E.D. Ark.
2014), the MDL court adopted a percentage-based common benefit allocation as recommended by fee committee and proposed by the special master. More recently,
in In re Fresenius Granuflo/Naturalyte Dialysate Prods.
Liab. Litig., MDL 2428 (“Granuflo”), the court-appointed
fee committee recommended an allocation to each applicant firm of a percentage of the total fee award
based on the committee’s experience and the facts submitted and after receiving input from the interested
firms. Granuflo, 1:13-md-2428, Doc. 1983 (Memorandum in Support of Plaintiff Leadership’s Petition for

App. 49
Award and Allocation of Common Benefit Fees) (D.Mass.
Dec. 12, 2017). The fee committee in Granuflo emphasized in its petition that it did not undertake to apply
“an unyielding mathematical formula,” which it noted
could not properly account for the subjective differences
that must be considered in making such an award,
such as the differing skills and contributions of the attorneys and varying nature and complexity of the
tasks involved. Id., p. 22. The MDL court approved
the committee’s recommendation. Granuflo, 2018 WL
2163627 (D.Mass.2018).
At the time of this Recommendation, half of the
objectors to the FCC’s Final Written Recommendation
have agreed to withdraw their objection. This is a direct result of the more than adequate Due Process
safeguards put into place by the Court in the Fee Protocol and its implementation by the FCC. It is further
a testament to the reasonableness of certain objectors
and the FCC, as well as a willingness to reach compromise despite good faith disagreements concerning the
ultimate common benefit value provided by a particular firm. Only four objectors remain, and I discuss each
in turn below. I am satisfied that the methods employed by the FCC, as well as my methodology in making allocations, is consistent with applicable precedent,
as well as the directives given to me by this Court. For
each of the four firms that continue to object to the
FCC’s Final Written Recommendation after my meetings and conversations with them, I make the following
findings and recommendations regarding allocation of
common benefit funds:

App. 50
1.

Anderson Law Offices: I received the materials submitted by this objector, met with this
objector and considered the contribution of the
firm to the common benefit of the litigation. I
participated in observing the review of the
hours submitted by this objector, and I remain
concerned regarding the hours submitted by
this firm. In balancing the information gained
from representatives of this objector with the
information gleaned from the evidence developed throughout the common benefit review
process under the Protocol, I recommend an increase of 0.1142858% which when considered
in light of the anticipated $350,000,000 initial
fund for distribution for common benefit fees
results in an effective increase of $400,000.00.
This increase in the recommended award results in a total percentage of 2.1742858%% as
reflected in Exhibit 1 hereto.

2.

Bernstein Liebhard: I received the materials submitted by this objector, met with this
objector and considered the contribution of
the firm to the common benefit of the litigation. In balancing the information gained
from representatives of this objector with the
information gleaned from the evidence developed throughout the common benefit review
process under the Protocol, I recommend an increase of 0.1285715% which when considered
in light of the anticipated $350,000,000 initial
fund for distribution for common benefit fees
results in an effective increase of $450,000.00.
This increase in the recommended award results in a total percentage of 0.3978090% as
reflected in Exhibit 1 hereto.

App. 51
3.

Kline & Specter: I received the materials
submitted by this objector, met with this objector and considered the contribution of the
firm to the common benefit of the litigation. In
making my recommendation, I reviewed and
considered the time and effort expended by
this objector and recognize that a great deal
of their work was done in individual cases
filed in the Court of Common Pleas in Philadelphia, Pennsylvania. Most of the information and argument during our meeting was
related to the number of State Court cases
they had tried with successful verdicts, their
continuing trials of cases, the number of cases
accepted by other plaintiffs’ counsel, and the
settlement value of cases obtained by other
firms. In balancing the information gained
from representatives of this objector with the
information gleaned from the evidence developed throughout the common benefit review
process under the Protocol, I recommend no
change in the amount allocated for common
benefit fees as reflected in Exhibit 1 hereto.

4.

Mazie Slater Katz & Freeman: I received
the materials submitted by this objector, met
with this objector and considered the contribution of the firm to the common benefit of the
litigation. In making my recommendation, I
reviewed and considered the time and effort
expended by this objector and recognize that
a great deal of their work was done in individual cases filed in the state courts of New Jersey
and that multiple firms sought compensation
for the same work as was sought by this objector. I first met with Mssrs. Slater and Mazie

App. 52
as representatives of this objector after the
firm’s objection to the FCC’s Preliminary
Written Recommendation in their offices in
Morristown, NJ together with Mssrs. Thomas
Cartmell and Jeff Kuntz. The meeting was unproductive. I later met with the objector again
in St. Louis during my process of attempting
to resolve objections to the Final Written Recommendation. While the meeting was very
cordial, and arguments were made, it still appeared to me that the objector’s central argument was that early cases tried in New Jersey
as well as the one expert developed by Mr.
Slater were almost solely responsible for
the success of all of the MDLs. I was unable
to arrive at any amount of common benefit
compensation that would be reasonable in
amount and satisfactory to the objector. In
balancing the information gained from representatives of this objector with the information gleaned from the evidence developed
throughout the common benefit review process under the Protocol, I recommend no change
in the amount allocated for common benefit
fees as reflected in Exhibit 1 hereto.
III. REIMBURSEMENT OF SHARED EXPENSES
AND HELD COSTS
The common fund doctrine also authorizes reimbursement of the reasonable amounts paid out-of-pocket
to achieve a common benefit recovery or to advance the
common goals of all plaintiffs in MDL litigation. As discussed above, this Court previously ordered that 5% of

App. 53
all proceeds of cases be held back for “payment of attorneys’ fees and approved common benefit and MDL
expenses.” The common benefit attorneys have incurred
a substantial amount in common benefit “held” expenses
and the PSC funded substantial “shared” expenses to advance the litigation. These expenses include, but are not
limited to: housing all of the discovery produced by the
parties to this litigation and making it searchable and
accessible to all common benefit attorneys; travel costs
for attending depositions around the country and in
Europe; expert fees and expenses; deposition transcript and video costs; hearing transcript costs; PSC
group administration matters, such as meetings and
conference calls; and other litigation expenses, including the significant costs of preparing for and trying the
MDL bellwether and consolidated trials to verdict and
handling of the defendants’ appeals of those verdicts.
All the submitted expenses were audited and inappropriate or excessive expenses were disallowed or reduced.
Through my participation in the FCC’s review of
expenses submitted by each common benefit attorney,
I observed that the same due process protections provided to applicant firms with regard to common benefit
time submissions were also applied to the review of
expense submissions. The FCC ensured that each request complied with this Court’s direction as set forth
in the Protocol and the FCC Order. All the expenses
that the FCC has recommended for reimbursement
were incurred in the ordinary course of litigation for
the common benefit of all plaintiffs and are reasonable.

App. 54
I also note that additional common benefit expenses
will be incurred for the further administration of the
litigation, and therefore, funds should he maintained
in the common benefit fund until the litigation is concluded.
IV. ALLOCATION OF COMMON BENEFIT FEES,
SHARED EXPENSES AND HELD COSTS
Based upon all of this work, I made my determination for each firm independently of the FCC. The
FCC’s process for evaluation of firms was the most
thorough that I have ever encountered. While I am convinced that the FCC process was thorough and fair, I
did reach different conclusions as to a number of firms
– including adjusting allocations for firms on the FCC.
For those firms which did not accept the FCC recommendation and objected to the Final Written Recommendation of the FCC, I engaged in discussions with
those firms in an attempt to reach a global consensus.
The allocations of fees and expenses are attached
as Exhibits 2 and 3, and for the detailed reasons setforth herein, I make the recommendation that this
Court approve these allocations. Further, it is anticipated that additional monies will be added to the common benefit fee fund as additional cases are resolved,
although the precise amount is incapable of determination at this time. I recommend that the Court (1) allocate thirty percent (30%) of future funds received in
the MDL common benefit fund as being subject to
future orders of the Court regarding payment; and

App. 55
(2) allocate seventy percent (70%) of future funds received in the MDL common benefit fund amongst applicant firms utilizing the same percentages as set
forth in this Recommended Allocation. Any future distributions of the thirty percent (30%) should be at an
appropriate time and method as directed by this Court,
and it is my recommendation such distributions must
be made upon Order of the Court.
V.

CONCLUSION

For the reasons set forth above, in my capacity as
External Review Specialist, I respectfully request that
this Court adopt my Recommended Allocation, including the following:
1.

To approve the allocation of common benefit
fees as set forth in Exhibit 1, and order that
those funds be distributed from the common
benefit fund account to those firms promptly;

2.

To approve the reimbursement of common
benefit expenses as set forth in Exhibit 2, and
order that those amounts be distributed from
the common benefit fund account promptly;

3.

To allocate thirty percent (30%) of future
funds received in the MDL common benefit
fund as being subject to future orders of the
Court regarding payment; and

4.

To allocate seventy percent (70%) of future
funds received in the MDL common benefit
fund amongst applicant firms utilizing the

App. 56
same percentages as set forth in this Recommended Allocation in Exhibit 1.
Respectfully submitted this 11th day of March, 2019.
/s/ Daniel J. Stack
Daniel J. Stack, Court Appointed
External Review Specialist
1529 Anton Drive
Columbia, IL 62236
618-792-8604

App. 57
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST
VIRGINIA CHARLESTON DIVISION
IN RE: C.R. BARD, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL NO. 2187

MDL No. 2325
IN RE: AMERICAN MEDICAL
SYSTEMS, INC. PELVIC REPAIR
SYSTEMS PRODUCTS LIABIILITY
LITIGATION
IN RE: BOSTON SCIENTIFIC
CORP., PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY
LITIGATION

MDL No. 2326

IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC MDL No. 2387
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
IN RE: COOK MEDICAL, INC,
PELVIC REPAIR SYSTEM PRODUCTS LIABILITY LITIGATION

MDL No. 2440

App. 58
IN RE NEOMEDIC PELVIC REPAIR MDL No. 2511
SYSTEM PRODUCT LIABILITY
LITIGATION
This Document Relates To All Cases
Final Written Recommendation of the
Common Benefit Fee and Cost Committee
Concerning the Allocation of Common
Benefit Fees and the Reimbursement of
Shared Expenses and Held Costs
COMES NOW, The Common Benefit Fee and Cost
Committee (“FCC”) and issues its Final Written Recommendation concerning the allocation of common
benefit fees and the reimbursement of shared expenses
and held costs.
1. Formation of the FCC:
The Court, on January 15, 2016, entered its Pretrial Order Establishing Criteria for Applications to
the MDL Fund to Compensate and Reimburse Attorneys for Services Performed and Expenses Incurred for
MDL Administration and Common Benefit and Appointment of Common Benefit Fee and Cost Committee in MDL Nos. 2187, 2325, 2326, 2327, 2387, 2440,
and 2511 (the “FCC Order”).1 Much like the litigation
1

Bard MDL 2187 PTO 207, AMS MDL 2325 PTO 204, BSC
MDL 2326 PTO 136, Ethicon MDL 2327 PTO 211, Cook MDL
2440 PTO 71, Coloplast MDL 2387 PTO 85, Neomedic MDL 2511
PTO 23.

App. 59
had been conducted by a cross-MDL leadership team
tasked with working across MDL lines, the FCC Order
appointed nine individuals to serve as members of the
Common Benefit Fee and Cost Committee for purposes
of recommending an allocation of a singular common
benefit fund. The nine members of the FCC are Chairperson Henry G. Garrard III (Blasingame, Burch, Garrard & Ashley), Renee Baggett (Aylstock, Witkin, Kreis
& Overholtz), Riley L. Burnett, Jr. (Burnett Law Firm),
Thomas P. Cartmell (Wagstaff & Cartmell), Clayton A.
Clark (Clark, Love & Hutson), Yvonne M. Flaherty
(Lockridge, Grindal, Nauen), Carl N. Frankovitch
(Frankovitch, Anetakis, Colantonio & Simon), William
H. McKee, Jr., and Joseph F. Rice (Motley Rice).2
On June 23, 2017, the Court entered its Pretrial
Orders establishing the Fee Committee Protocol for
the review and evaluation of time and expense for consideration by the FCC (the “Protocol”).3 Pursuant to
the terms of the Protocol, on October 13, 2017, the
Court entered its Order Granting Motion to Appoint
the Honorable Daniel J. Stack, Retired, as External Review Specialist to work with the FCC in accomplishing

2

The FCC members have no financial arrangement with one
another with regard to the payment of funds associated with common benefit awards. Each member’s conduct is independent and
guided by the Court’s Orders.
3
Bard MDL 2187 PTO 257, AMS MDL 2325 PTO 244, BSC
MDL 2326 PTO 166, Ethicon MDL 2327 PTO 262, Cook MDL
2440 PTO 81, Coloplast MDL 2387 PTO 133, Neomedic MDL 2511
PTO 38.

App. 60
the Court’s directives under the FCC Order and the
Protocol.4
2. History of the Litigation:
The pelvic mesh multi-district litigations (“MDLs”)
pending before this Court are unprecedented. What began with the Judicial Panel on Multidistrict Litigation’s order consolidating 36 individual cases involving
the Avaulta line of pelvic organ prolapse repair devices—sold by C.R. Bard, Inc. (“Bard”)—in 2010, ultimately led to the consolidation of seven multidistrict
litigations (“MDLs”) in the Southern District of West
Virginia.5
As pelvic mesh cases began to be filed against various pelvic mesh defendants in different federal courts,
the firms involved in leadership came together to discuss potential MDL strategy. In light of the presence of
numerous cases where a single plaintiff was implanted
with multiple products, and the similar defects and
complications associated with the various products,
the firms involved in the leadership of the litigation
decided to request the JPML to send all of the pelvic
4

Bard MDL 2187 Doc. No. 4663, AMS MDL 2325 Doc. No
5112, BSC MDL 2326 Doc No. 4422, Ethicon MDL 2327 Doc. No.
4783, Cook MDL 2440 Doc. No. 592, Coloplast MDL 2387 Doc. No.
1572, Neomedic MDL 2511 Doc. No. 177.
5
In re Avaulta Pelvic Support Sys. Prods. Liab. Litig. (later
expanded to include a range of other pelvic repair mesh devices
sold by Bard, and renamed the C.R. Bard, Inc. Pelvic Repair Sys.
Prod. Liab. Litig.), 746 F.Supp.2d 1362, MDL No. 2187 (J.P.M.L.
2010).

App. 61
mesh cases to this Court for coordination pursuant to
28 U.S.C. § 1407. The JPML agreed, holding that the
presence of several common fact issues shared by all
MDLs, and the fact that many individual cases involved the implantation of multiple products from different manufacturers, supported centralization of all
of these products before the same Court. In re American Med. Sys., Inc., et al., Pelvic Repair Systems Prods.
Liab. Litig., 844 F.Supp.2d 1359, 1360-61 (J.P.M.L.
2012) (“The actions in each MDL share factual issues arising from allegations of defects in pelvic surgical mesh products manufactured by AMS, Boston
Scientific, and Ethicon, respectively. Centralization
therefore will eliminate duplicative discovery;
prevent inconsistent pretrial rulings; and conserve the resources of the parties, their counsel
and the judiciary.”; “Chief Judge Joseph R. Goodwin
of that district is currently presiding over MDL No.
2187, which involves claims of defects in similar
pelvic surgical mesh products, and is uniquely situated to preside over the similar claims in these
three MDLs. The pelvic surgical mesh products at issue in MDL Nos. 2325, 2326, and 2327 are used to
treat similar conditions as those at issue in MDL
No. 2187, and they have allegedly resulted in similar
injuries. . . . Finally, a number of these actions are
brought by plaintiffs who were implanted with multiple products made by multiple manufacturers. Centralization of the three MDLs in one court will
allow for coordination of any overlapping issues
of fact in such multi-product, multi-defendant
actions.”) (Emphasis added).

App. 62
At the request of the Plaintiffs, the MDL Panel
sent four additional MDLs to this Court in 2012, another in 2013, and a seventh MDL in 2014.6 These
seven (7) related pelvic mesh MDLs involved different
medical device manufacturers along with other related
defendants, and included dozens of related pelvic mesh
devices.7 Never before in the history of MDL practice
has the JPML sent multiple, large-scale product
liability MDLs involving different products and manufacturers to a single MDL court for inter-MDL coordinated proceedings. The pelvic mesh litigation
coordinated before this Court ultimately grew to include 104,836 filed cases, comprising one of the largest
mass tort litigations in history.8
As explained in the Plaintiffs’ Proposed Counsel
Organizational Structure (a copy of which is attached
hereto as Exhibit 1), which was submitted to the
Court on March 17, 2012, the common medical, scientific and legal claims and theories, common defenses,
6

In re American Med. Sys., Inc., et al., Pelvic Repair Systems
Prods. Liab. Litig., 844 F.Supp.2d 1359, MDLs Nos. 2325, 2326,
2327 (J.P.M.L. 2012) (3 separate MDLs); In re Coloplast Corp.
Pelvic Repair Support Sys. Prods. Liab. Litig., 883 F.Supp.2d
1348, MDL 2387 (J.P.M.L. 2012); In re Cook Medical, Inc., Pelvic
Repair Sys. Prods. Liab. Litig., 949 F.Supp.2d 1373, MDL 2440
(J.P.M.L. 2013); In re Neomedic Pelvic Repair Sys. Prods. Liab.
Litig., 999 F.Supp.2d, MDL 2511 (J.P.M.L. 2014).
7
For example, the Bard MDL 2187 involved claims against
two international medical device companies (C.R. Bard, Inc. and
subsidiaries of Covidien, PLC (now Medtronic)), both of which
represented by different counsel.
8
Illustrating the impact of this litigation, the filing fees
($450 per case) for this number of cases totals $47,176,200.

App. 63
and common experts, as well as the presence of numerous plaintiffs implanted with different defendants’
products, called for a singular “cross-MDL” Plaintiffs’
leadership structure. The Proposed Counsel Organizational Structure was vetted and agreed upon by every
attorney who was included in the proposal. As stated
in the Proposed Counsel Organizational Structure,
“[t]his [singular leadership] structure is the product of
numerous meetings and many more conversations by
attorneys from across the country who have devoted a
substantial amount of time, effort and resources into
the investigation and development of these cases, and
who are committed to working together for the mutual interests of their respective clients. . . . The
serious health risks generally associated with these
women’s pelvic repair products also warrant legal inquiry that is not confined to a single product or
manufacturer. . . . [T]he problems associated with
transvaginal mesh products are inherent in the use of
mesh in the female pelvic region, and thus are not limited to any one product. Instead, these are issues
that need to be explored and addressed globally.
Many experts for both Plaintiffs and Defendants will
traverse company and product lines. The efficient
conduct of these cases will require coordination by
Plaintiffs’ counsel across MDL lines, while still maintaining the [multiple] MDL’s. Additionally, discovery
relating to corporate liability issues will involve common themes, and coordination between the four
MDL’s will be beneficial.” The Proposed Counsel Organizational Structure further stated as follows:

App. 64
The interrelationship between these products
is but one significant issue that lends itself to
coordinated investigation across MDL
lines. . . .
In light of the interrelationship between the
products, the serious health problems generally associated with these devices, and the
commonality of the defenses anticipated in
every case, a coordinated and unified
leadership that spans the four related
pelvic repair product MDL’s before this
Court is essential to the effective and efficient prosecution in these cases. . . .
Perhaps most importantly, because of the
interrelationship between these MDL’s
in terms of common product defect allegations, similar injuries, and the prevalence of
cases involving multiple products by the various defendants, the leadership structure in
these MDL’s should be composed of attorneys
who have the ability and the expressed desire
to work with one another in a concerted
effort to seek a timely and just resolution of
these cases. . . .
As set forth in more detail below, the undersigned propose a Coordinating Co-Lead Counsel, an Executive Committee made up of
Co-Leads for each MDL, and a singular PSC
all to coordinate across MDL lines. If such
proposal is accepted by the Court, then the
Coordinating Co-Lead Counsel in conjunction
with the Executive Committee will be able to
work across MDL lines in conjunction

App. 65
with one PSC to determine which lawyers
are best suited to handle a given Task. . . .
Many of these tasks will not be MDLspecific, but rather will be common issues that will need a coordinated effort.
It is also the intent that the Coordinating CoLead Counsel will be in a position to determine when separate groups from the PSC
should be designated to work on MDL-specific
issues that do not cross MDL lines. However,
it is vital to this proposal that there be a
cohesive and coordinated structure that
spans these four related MDL’s so as to
best achieve the efficiency and effectiveness of
representation that will move this litigation
forward.
[T]his proposal calls for a singular PSC to
coordinate across MDL lines in four separate MDL’s, each of which involves a different
manufacturer (and related defendants in
some cases) and several different products. . . .
The undersigned submit that a PSC composed
of a significant number of attorneys is necessary to accommodate the large amount of
work that will be necessary to prepare these
cases effectively, and with many coordinated litigation activities occurring simultaneously across MDL lines.
At the Initial Case Management Conference in the
first of the additional related pelvic mesh MDLs transferred to this Court, the Court made clear its intent to
coordinate and consolidate across MDL lines to the

App. 66
fullest possible extent, stating “[i]n its most simplistic
form, we have similar pelvic mesh products manufactured by different defendants that allegedly caused a
variety of injuries to women. We suspect and we hope
that there are commonalities among the four MDLs,
and [Magistrate] Judge Stanley and I believe that
the most efficient way to handle the four MDLs,
particularly for discovery purposes, is to coordinate them as much as possible. . . . I believe that
the most efficient way to handle the four MDLs
is to consolidate as much as possible.” (April 13,
2012 Hearing T., 33:1-15) (Emphasis added). The Court
similarly observed that “[a] coordinated and unified
Plaintiffs’ leadership team that spans the four
related pelvic repair mesh MDLs before this
Court is essential to the efficient, effective prosecution . . . of this case.” (Id., 22:19-22).
The Plaintiffs’ lawyers involved in the litigation
from the outset foresaw the onerous task that lay
ahead and assembled a Plaintiffs’ Steering Committee
(“PSC”) of 61 attorneys from law firms across the country, who were ultimately appointed and assigned by
the Court the responsibility of marshaling resources
and leading this sprawling litigation under a unified
leadership structure. The Court entered Orders in each
of the MDLs stating that “[i]t shall be the responsibility of Coordinating Co-Lead Counsel to work across
MDL lines in conjunction with the Executive Committee named below to determine which attorneys are best
suited to handle a given task. . . .” and appointing “[a]
singular PSC to coordinate across MDL lines in the

App. 67
[ ] separate pelvic mesh MDLs before this court. . . .”
(Emphasis added).9
As envisioned and directed by the Court, the
Court-appointed PSC coordinated and collaborated
across MDL lines to plan the litigation strategy, develop theories and confront legal issues, identify experts, and ultimately bear the cost and expended the
labor necessary to develop the general liability cases
against numerous products made and sold by a variety
of corporate defendants. This singular PSC and leadership structure enabled such coordinated development
of litigation strategy and theories and allowed the
work product from one MDL to be utilized across product and manufacturer lines. Important legal decisions
by the Court and by counsel impacted all MDLs due to
the commonality of the products and issues involved.
This single, unified leadership structure was also necessary to avoid potential conflicts and cross-purpose
work.
As anticipated, the time, effort and expense of simultaneously pursuing and developing multiple legal
theories against a range of products manufactured and
sold by a disparate group of defendants, has been enormous.
The defendants in these MDLs are several of the
largest medical device manufacturers in the world, and
this litigation has been vigorously defended by this
9

Bard MDL 2187 PTO 33, AMS MDL 2325 PTO 4, BSC MDL
2326 PTO 4, Ethicon MDL 2327 PTO 4, Cook MDL 2440 PTO 4,
Coloplast MDL 2387 PTO 2, Neomedic MDL 2511 PTO 7.

App. 68
country’s largest and most experienced medical device
defense law firms. Prosecuting multiple MDLs simultaneously before one court presented unique logistical
and procedural difficulties and taxed the resources of
the firms leading this litigation. To address the economic disparity between the parties, the PSC firms
were required to expend tens of millions of dollars to
prosecute this massive litigation. The PSC firms contributed a total of $17,825,000 in common benefit assessments, which were used to fund the litigation
generally. “Held costs” in the amount of $28,986,811.38
were recognized by the FCC as common benefit, which
have not yet been reimbursed out of the MDL fund. An
additional $12,037,448.66 has been paid from the common benefit fund as costs associated with general expert fees, special master fees, data warehousing and
management fees, and to the Court-appointed accountant overseeing the MDL fund. These costs continue to
be incurred and to be paid from the common benefit
fund.
At the outset, Plaintiffs’ leadership undertook to
define the parameters of the litigation through Master
Pleadings, Plaintiff Profile Forms and Plaintiff Fact
Sheets, and pushed the litigation forward through a series of procedural and scheduling orders. After establishing these baseline documents and schedules,
Plaintiffs’ leadership undertook the onerous process of
discovery.
Discovery in these cases was among the first areas
to be tackled by leadership. Electronically-Stored Information protocols and search parameters, plaintiff

App. 69
and defendant fact sheets/profile forms, joint records
collection, protective orders, and procedures for the collection and preservation of pathology were the subject
of intense negotiation, and in several instances, disputes with defendants. Because certain of the Defendants had been involved in prior litigation relating to
the same products, Plaintiffs’ leadership undertook the
motions practice necessary to obtain documents produced by those Defendants in those prior cases
over their objection. The number of different products,
defendants, and related third parties (materials processors, component or materials manufacturers), necessitated multiple rounds of written discovery and
ESI term search requests to defendants related to a
variety of subjects and from a number of non-party
sources. Plaintiffs’ leadership established and funded
the shared electronic document depository (Crivella
West) where all defense-produced documents and
other important materials were made accessible to all
MDL plaintiffs’ counsel in searchable format. Plaintiffs’ leadership identified the important issues in
these cases and created “issue codes” for purposes of
document review, and documents were reviewed and
“coded” according to their relevance. Plaintiffs’ leadership and other Participating Counsel10 reviewed and
analyzed Defendants’ discovery responses and
10

As used in this Petition, “Participating Counsel” has the
same definition as that set forth in the Agreed Order Regarding
Management of Timekeeping, Cost Reimbursement and Related
Common Benefit Issues, to wit: “ ‘Participating Counsel’ are counsel who subsequently desire to be considered for common benefit
compensation. . . .”

App. 70
objections and handled disputes regarding confidentiality, privilege and work product claims by the defense,
typically by way of informal meet and confer, but occasionally necessitating motions practice before the Magistrate Judge or the Court. Other discovery disputes
necessitated numerous meet and confers with defense
counsel, discovery conferences with the Court’s Magistrate Judge, and motions to compel or responses to motions for protective order or motions to quash. The
production of documents in these cases was voluminous. To date, more than 21,504,590 documents totaling over 199,740,958 pages have been produced across
the pelvic mesh MDLs, and production is on-going in
some of the MDLs. Plaintiffs’ leadership was responsible for the oversight and coordination of this massive
review effort and bore responsibility for culling the
thousands of documents used in expert preparation
and the preparation of these cases for trial, and at trial,
and identification of important documents for use by
other attorneys with cases in these MDLs.
Depositions were taken in these MDLs by Plaintiffs’ leadership and other Participating Counsel of a
variety of former and current employees of the defendants, including representatives from sales and marketing, regulatory, post-market surveillance, manufacturing,
research and development/product design, risk management, as well as managerial and executive employees. More than two-hundred (200) individual and
30(b)(6) corporate depositions were eventually taken of
the Defendants in these MDLs. Plaintiffs fought multiple “apex” motions relative to depositions sought of

App. 71
Defendants’ executive employees. The cases also involved significant third-party depositions, including
depositions of “key opinion leader physicians,” representatives of medical organizations who issued “position statements” in support of the products at issue,
and various individuals and entities that participated
in the design or testing of the devices or that manufactured or processed components or materials used in
the pelvic mesh products.
The scope and complexity of these MDLs also complicated expert discovery. Plaintiffs’ leadership was required to identify and cultivate general experts from an
array of scientific and medical fields, from biomaterials, pathology, physicians (including pathologists, pelvic pain specialists, urologists, gynecologists and
Female Pelvic Reconstructive Surgeons) to regulatory.
The theories and concepts relating to the defective
design of the TVM devices in these MDLs – what made
these devices problematic in the female pelvis – required knowledge of the applicable anatomy, medicine,
and the scientific principles and literature applicable
to synthetic and biologic surgical mesh devices. Proving to a jury the complex scientific and medical reasons
that these products caused the Plaintiffs’ injuries required education. Plaintiffs’ leadership developed and
presented expert reports addressing the important scientific product defect principles, such as the in vivo
degradation of polypropylene, chronic and excessive
foreign body reaction to the mesh, inadequate pore size
(scar-induced mesh contracture), mechanical instability, anatomical mismatch, mesh arm “sawing,” and

App. 72
asymmetrical mesh contracture utilized across all
MDLs.
Due to the number of products and defendants
involved, as well as the number of cases that were ultimately worked up towards potential trial, the plaintiffs’ leadership were required to develop numerous
qualified experts from a relatively limited pool. Because much of the innovation related to these products
occurred in Europe, several of the foremost plaintiffs’
experts were in Europe, which entailed additional expense and effort as a result of travel, translation and
compliance with foreign applicable law regarding discovery. Several of these experts conducted extensive laboratory testing of the materials and products involved
utilizing a variety of laboratory and scientific
equipment, and plaintiffs’ leadership oversaw the issuance of extensive reports outlining, in detail, these experts’ medical and scientific findings and opinions. For
example, biomaterials experts conducted testing to
demonstrate scientifically the phenomenon of mesh
degradation, showing through microscopic photographs actual images of degraded mesh that had been
removed from the bodies of plaintiffs. The potential for
mesh degradation, and the clinical effects, was vigorously disputed by the defense. Establishing this important theory through scientific testing (which was
admitted despite repeated Daubert challenges) was
key to conveying these matters to a jury. Pathology experts examined numerous explanted mesh samples
and pathology slides from plaintiffs under electron microscopy to explain the chronic negative effects of

App. 73
body’s reaction to the mesh and the results of scarification of tissue due to the mesh design. Plaintiffs’ experts conducted testing and developed demonstrative
exhibits, including 3D models, to show how the design
of these products caused asymmetrical contracture,
which pulled the mesh and caused chronic pain and
sexual dysfunction. These tests and exhibits demonstrated the experts’ theories and opinions in a tangible
way.
Ultimately, Plaintiffs’ leadership identified and
served 84 Rule 26 Reports for 52 general plaintiffs’ experts. As anticipated from the outset, many of Plaintiffs’ experts designated by leadership to provide
general testimony crossed MDL lines. Nineteen of
Plaintiffs’ 52 experts (36.5%) provided general expert
testimony in more than one MDL, while nine (17.3%)
provided testimony in more than three or more MDLs.
Defendants likewise had their own respective
teams of experts, and Plaintiffs’ leadership was responsible for preparing for and taking their depositions. One hundred nine (109) general experts were
identified by the defense in these cases, and nearly all
of them were deposed by Plaintiffs’ leadership, some of
them multiple times. Many of the defense experts issued voluminous reports, citing to reams of scientific
testing and clinical and animal study results, all of
which had to be meticulously reviewed and analyzed
by Plaintiffs’ leadership, and ultimately addressed by
way of cross-examination, Daubert motions and testimony from Plaintiffs’ experts.

App. 74
While some of the MDL defendants undertook
early efforts to attempt to compromise, most made
clear that they had no interest in settlement, at least
not without first trying multiple cases. This necessitated the preparation of numerous cases for trial
across the MDLs, which process was handled and overseen by Plaintiffs’ leadership. Some of the trial selection cases were resolved prior to trial, but only after all
of the extensive pre-trial work had been done and the
cases were ready for trial.11 Preparing a case for trial
in these MDLs was an expensive and difficult undertaking in light of the complexity of the issues involved,
and the number of fact and expert witnesses whose testimony is necessary to meet the burden of proof and to
address the litany of defenses asserted. Every MDL
trial case entailed additional rounds of motions and
briefing on procedural and substantive legal issues,
arguments over deposition designations and other evidence to be offered at trial and a variety of other pretrial issues.
Following initial “bellwether” trials, the Court ordered several successive “waves” of cases to be prepared for trial in several of the MDLs. Each of these
waves consisted of dozens, if not hundreds, of individual plaintiffs. These trial waves required an extensive
amount of orchestration and effort in a condensed time
frame by Plaintiffs’ leadership. These hundreds of
11

The FCC also recognized as common benefit time expended
preparing for and trying cases in certain state court venues, provided that the cases were the first involving the product at issue
to be tried.

App. 75
wave cases necessitated the identification and depositions of numerous general experts for both plaintiff
and defense, and an intensive general motions practice
that involved briefing of dozens of additional dispositive, Daubert and in limine motions. The same legal issues had to be addressed by Plaintiffs’ leadership
under numerous different states’ substantive law. Responses to these motions prepared by leadership were
then provided to other MDL counsel, and served as the
template for responses in future trial selection or remanded cases.
Plaintiffs’ leadership oversaw the preparation of
case-specific discovery to be served by individual plaintiffs on the defendants in the wave process and led
efforts to ensure consistent responses from the Defendants to this discovery. To assist the several firms outside of leadership who had cases included in the
bellwether process and later in the trial waves, Plaintiffs’ leadership conducted, and continue to conduct, inperson educational sessions in various locations
throughout the country to help educate these attorneys about the liability case generally, as well as how
to handle the individual case-specific issues in their
cases, such as preparing for and taking plaintiff and
treating physician depositions and responding to the
motions anticipated from the defense. Educational materials, including legal and factual outlines, template
response briefing, sample expert reports, collections of
important documents, corporate deposition transcripts
and exhibits, sample plaintiff and doctor depositions,
deposition outlines, trial exhibits and trial transcripts,

App. 76
were prepared by leadership and provided to or made
available to counsel for the MDL plaintiffs. Expert reports and expert depositions for both Plaintiffs’ and
Defendants’ general experts, as well as all corporate
and third-party depositions, were also made available
to MDL Plaintiffs’ counsel by way of the Crivella West
shared document depository.
During the course of the pelvic mesh MDLs pending in this Court, volumes of pre-trial, trial and posttrial motions have been argued and decided and orders
have been issued by the Court pursuant to the laws of
many different states, including: Daubert motions
against nearly every expert (and other witnesses);
summary judgment motions on issues relating to design defect, punitive damages, warnings sufficiency,
the learned intermediary doctrine, preemption, statute
of limitations, general causation and specific causation; and numerous motions in limine seeking to limit
or exclude Plaintiffs’ evidence. Because certain of the
defendants were affiliated corporate entities, Plaintiffs’ leadership undertook the discovery and motions
practice necessary to establish liability on the part of
each the named defendants, which resulted in important stipulations regarding the liability of parent
corporations for conduct of their subsidiaries. Plaintiffs’ leadership briefed important procedural issues
related to joinder, remand, choice-of-law, jurisdiction,
venue and Lexecon, and the Court’s ability to try MDL
cases upon remand to other federal jurisdictions.
Plaintiffs’ leadership handled the Daubert and dispositive responsive briefing, as well as Plaintiffs’

App. 77
“offensive” summary judgment motions and reply
briefing, and Plaintiffs’ motions in limine. Important
legal issues regarding consolidation of multiple MDL
plaintiffs for purposes of trial pursuant to Rule 42 were
briefed and argued by leadership. Plaintiffs’ leadership
also handled the briefing regarding the exclusion of evidence regarding the FDA 510(k) clearance process.
The Court’s ruling on this motion proved a seminal ruling that impacted all of the MDLs. This critical evidentiary ruling spurred a litany of related motions for
reconsideration, motions for new trial and evidentiary
proffers across the MDLs, as well as grounds for appeal
in multiple cases. Leadership also prepared the briefing regarding the admissibility of important productrelated evidence used by all Plaintiffs. Hundreds of
instructive opinions from the Court in these pelvic
mesh MDLs are available through online legal research sites, such as Westlaw, most of which were directly the result of the work of Plaintiffs’ leadership.12
Several of the bellwether cases were resolved
shortly before trial, but the pre-trial preparation for
these cases was no different than the cases that ultimately went to verdict. When MDL bellwether cases
were tried, the verdicts were subject to various posttrial motions and eventually appealed. The appeals often involved amicus briefing by multiple interested
third parties due to the significance of the issues
12

For example, a recent Westlaw search of the terms “pelvic
OR transvaginal WITHIN THE SAME SENTENCE AS mesh
AND goodwin” within the West Virginia Federal Courts database
yields 1,970 results.

App. 78
involved in this litigation. The extensive pre-trial briefing (pre-trial orders, jury charges, evidentiary motions), trial briefing (motion for directed verdict,
evidentiary motions), and post-verdict briefing (motion
for judgment as a matter of law, motion for new trial)
in the bellwether cases were handled primarily by
Plaintiffs’ leadership. Plaintiffs’ leadership also handled the appellate briefing in these cases, and these
rulings helped shape the course of this litigation.
•

Lewis v. Johnson & Johnson, 601 Fed. App’x
205 (4th Cir.2015) (affirming grant of motion
for judgment as a matter of law for Defendants)

•

Cisson v. C.R. Bard, Inc., 810 F.3d 913 (4th Cir.
2016) (affirming $2 million verdict for plaintiffs)

•

Huskey v. Ethicon, Inc., 848 F.3d 151 (4th
Cir.2017) (affirming $3.2 million verdict for
plaintiffs)

•

Eghnayem v. Boston Scientific Corporation,
873 F.3d 1304 (11th Cir. 2017) (affirming verdicts for four separate plaintiffs tried together
in consolidated trial totaling $26.7 million)

•

Campbell v. Boston Scientific Corporation, 882
F.3d 70 (4th Cir. 2018) (affirming verdicts for
four separate plaintiffs tried together in consolidated trial totaling $18.5 million)

The results of these post-trial motions and appellate rulings have likewise provided instructive guidance for the participants in this MDL, as well as for

App. 79
future product liability MDLs. Disparate legal and factual issues such as the propriety of consolidated, multiplaintiff trials, the admissibility of evidence related to
FDA, statutes of limitations, gross negligence and punitive damages, and the sufficiency of the evidence to
sustain multi-million dollar verdicts on design defect
and failure to warn have been addressed and resolved
in plaintiffs’ favor by the Fourth and Eleventh Circuits,
providing substantial benefit to all MDL claimants and
further certainty across MDL lines.
Plaintiffs’ leadership also coordinated efforts with
attorneys who were handling related litigation against
the same defendants in various State courts across the
country.
Eventually, and due in large part to the continuing
efforts of the plaintiffs’ leadership and the Court’s innovative approaches to move cases forward, the defendants, who had generally resisted settlement
discussions, began to consider resolution. However,
resolution in these MDLs has proven nearly as challenging as the litigation itself. The range of products
involved, the varying nature of the injuries or damages
claimed by Plaintiffs, the “multi-product” issue, and
the differing financial status and interest in resolution
among the different Defendants presented difficulties
in resolutions that required perseverance and creativity by Plaintiffs’ leadership. Plaintiffs’ leadership coordinated efforts to conduct “censuses” of thousands of
MDL cases in order to inform the Court and the parties
of the range of products and injuries involved. At the
request of the Court, certain Plaintiffs’ leadership has

App. 80
been involved in attempting to facilitate the settlement process for other MDL firms. The Court has conducted multiple mandatory settlement conferences
with various Defendants in which Plaintiffs’ leadership has played an important role.
Through December 21, 2016, ninety-four law firms
submitted more than 900,000 hours of time for common benefit consideration, and the Court-appointed
FCC has recognized a total of 679,191.20 of those hours
as being for common benefit.
To date, over ninety percent of cases in these
MDLs have reached resolution or otherwise been
dismissed, which has resulted in approximately
$366,500,000 in payments into the common benefit
fund by Defendants. Based on the number of cases that
have been resolved pursuant to a Master Settlement
Agreement but not yet processed or that remain in the
MDLs, it is anticipated that the common benefit fund
will ultimately equal or exceed $550,000,000.
3. Process of Allocation of Funds for Common
Benefit Fees and Expenses.
On October 4, 2012, the Court entered its Pretrial
Order Regarding Management of Timekeeping, Cost
Reimbursement and Related Common Benefit Issues.13
In this Order, the Court set preliminary procedures for
13

Bard MDL 2187 PTO 54, AMS MDL 2325 PTO 20, BSC
MDL 2326 PTO 17, Ethicon MDL 2327 PTO 18, Cook MDL 2440
PTO 11 (entered on 10/28/2013), Coloplast MDL 2387 PTO 6, Neomedic MDL 2511 PTO 20 (entered on 12/22/2015).

App. 81
attorneys establishing standards for maintaining and
submitting time and expenses for possible future consideration as common benefit and established the account to receive and disburse funds for the common
benefit of the litigation. The Court directed attorneys
to submit time and expense records to the Courtappointed accountant on a periodic basis of every six
weeks beginning November 1, 2012. As part of this Order, which was approved by all members of the PSC
and signed and submitted by all members of the Plaintiffs’ Executive Committee, counsel who desire to be
considered for common benefit compensation acknowledged – as a condition for such consideration – that the
Court will have “final, non-appealable authority
regarding the award of fees, the allocation of those fees
and awards for cost reimbursements in this matter”
and they “have (or will have) agreed to and therefore
will be bound by the court’s determination on
common benefit attorney fee awards, attorney fee allocations, and expense awards, and . . . knowingly and
expressly waive any right to appeal those decisions or the ability to assert the lack of enforceability of this Agreed Order or to otherwise
challenge its adequacy.” (Emphasis added).
Upon the entry of the FCC Order on January 15,
2016, the FCC began to meet for the purpose of performing the tasks required under the FCC Order so as
to evaluate the common benefit work performed by applicant firms. The FCC met in Atlanta, Georgia on February 8, 9 and 10, 2016, along with members of the
PSC for a portion of the time to discuss the entry of the

App. 82
FCC Order and to discuss the upcoming work of the
FCC. The FCC invited the PSC to provide input and
feedback into the process during this meeting and after. Several members of the PSC and Executive Committee met with the FCC and expressed thoughts and
opinions about the process, including some concerns,
that were considered by the FCC in establishing its review process.
The FCC met with the Court-appointed accountants on February 16 and 22, 2016 to discuss the time
and expense submissions by firms and funds received
into the MDL common benefit fund. Thereafter, the
FCC met to begin the process of proposing a set of policies and procedures for the review of time and expense
submissions for common benefit funds. During the period from March through October of 2016, the FCC consulted the Co-Lead Counsel for the MDLs regarding
the appropriate policies and procedures for evaluating
the common benefit contributions of applicant firms.
These meetings included a meeting with the PSC on
April 4 and 5, 2016, in Charleston, West Virginia. On
November 3 and 4, 2016, the FCC met in Charleston,
South Carolina to draft a proposed set of policies and
procedures for the review of time and expense submissions for common benefit funds. On December 1, 2016,
FCC Chairperson Henry Garrard appeared before the
Court for the purpose of addressing the entry of an order establishing policies and procedures for common
benefit fund application review. Thereafter, the FCC
met via conference calls, virtual meetings, and inperson meetings to refine the proposed policies and

App. 83
procedures. The FCC met in Atlanta, Georgia on May
17, 2017, regarding the contents of the proposed policies and procedures for the evaluation of common benefit contributions of firms to the litigation. On June 23,
2017, the Protocol was entered by the Court, which established the baseline policies and procedures to be
utilized by the FCC in determining the value of the
common benefit work performed by each applicant
firm.
Shortly after the Court’s entry of the Protocol, the
FCC began preparations for the review of common benefit work and recommending an allocation to the Court
in accordance with the Protocol. On June 26 and 27,
2017, the FCC met in Washington, DC, for the purpose
of planning the process of review of time and expense
submissions by firms seeking payment for common
benefit work performed. The FCC focused its efforts
and attention on how the time and expense submissions of firms would be evaluated for the purpose of determining the overall contribution of each applicant
firm to the common benefit of the litigation. At the conclusion of the meeting, FCC members continued to discuss the timeframe and procedures that would be
necessary within the requirements of the Protocol.
Pursuant to the Protocol, the CPA returned to
each applicant firm the time and expense documentation received by the CPA through December 21, 2016.
Thereafter, each firm had sixty days in which to audit
its time and confirm that the time and expense submitted was true, accurate, clear, and for the common benefit of the litigation. Once complete, each firm was to

App. 84
resubmit its time and expense along with an affidavit
from a senior member of the firm attesting that the
time and expenses submitted were for common benefit.
The required affidavit was also to designate whether
the party billing time was a full-time or contract employee, and to provide an individual biography not exceeding two (2) pages for each attorney billing time.
The FCC received the audited time and expense from
firms and accompanying affidavits in September of
2017. The FCC met on September 8, 19 and 20, 2017 in
Atlanta, Georgia, and October 2 and 3, 2017 in Athens,
Georgia, to plan the process of reviewing the time submissions received from applicant firms. The FCC
Chairperson then met with The Honorable Daniel J.
Stack, Retired, regarding his willingness and availability to serve as the External Review Specialist under
the Protocol. The FCC Chairperson also interviewed
another potential candidate for the External Review
Specialist. Upon appointment by the Court on October
13, 2017, Judge Stack began serving as the External
Review Specialist and attended almost all meetings of
the FCC. The FCC met on October 16 and 17, 2017, to
establish the procedure for review of all applicant
firms.
The process of the Initial Review under the Protocol began in October of 2017. The FCC’s methodology
in evaluating the submissions of applicant firms follows the Protocol and the Court’s prior common benefit
orders. The FCC’s review of the time and expense submissions and accompanying affidavits was conducted
in accordance with the fifteen items enumerated in

App. 85
Section B of the Protocol, the ten factors identified in
Section C of the Protocol (which are the same as the
items in Section B of the FCC Order), as well as the
factors enumerated in Barber v. Kimbrell’s, Inc., 577
F.2d 216 (4th Cir. 1978). The FCC assigned each firm
seeking payment of common benefit funds to two members of the FCC for initial review. Those two FCC members worked together to review every time and expense
entry received from the applicant firm. In reviewing
the time and expense submissions and affidavits, the
reviewers were guided by the Protocol and the FCC
Order in determining the firm’s contribution to the
common benefit of the overall litigation. The FCC continued to meet during the process of review to discuss
and ensure the consistent application of the review for
each applicant firm’s submission. The FCC was assisted in its review process by certain other attorneys
who were requested to assist the FCC pursuant to Section A of the FCC Order. Those attorneys were Amy
Collins (Burnett Law Firm), Thomas Hollingsworth
(Blasingame, Burch, Garrard & Ashley), Jeff Kuntz
(Wagstaff & Cartmell), Don Migliori (Motley Rice), and
Mike Moreland (Clark, Love & Hutson). These attorneys assisted the FCC in the preparation of materials
for FCC meetings.
Upon commencement of the Initial Review of the
time submission by applicant firms, the FCC recognized that some firms diligently self-audited their time
entries and submitted time for review that was substantially compliant with the instructions from the
Court regarding hours that would be considered as

App. 86
contributing to the common benefit of the litigation.
However, other firms made little or no changes to their
time submission during the Court-ordered self-audit
process, which resulted in submissions for time that
did not satisfy the Court’s instructions. The elimination of time that clearly did not satisfy the Court’s criteria for common benefit consideration, which should
have been identified in the self-audit process, resulted
in the FCC’s recognition of a relatively lower percentage of submitted hours as common benefit for firms
that failed to adequately self-audit. Conversely, firms
that made a good-faith effort to review their time submission during the self-audit period had a higher percentage of submitted time recognized as contributing
to the common benefit.
The FCC met on November 16 and 17, 2017 in Atlanta, Georgia to discuss ongoing reviews and ensure
that all firms were receiving consistent evaluations
pursuant to the Protocol. The FCC met again on December 4 and 5, 2017, in Houston, Texas, for the purpose of discussing firms whose review had been
completed by the two FCC members primarily assigned the task of reviewing time submissions. The
FCC met again on December 12, 13 and 14, 2017, and
continued to discuss those firms whose review had
been completed by the two FCC members primarily assigned the task of reviewing time submissions. Finally,
the FCC met on January 5 (by telephone), 10, 23 and
24, and February 1, 2018 in Atlanta, Georgia, to complete the process of discussing those firms whose review had been completed by the two FCC members

App. 87
primarily assigned the task of reviewing time submissions. During these meetings, each firm was thoroughly discussed by the entire FCC. While the number
of FCC meetings was significant, far greater time was
invested by FCC members between meetings. FCC
members routinely worked on matters in preparation
for the next FCC meeting.
During its meetings from November 16, 2017
through February 1, 2018, the FCC received detailed
presentations about each firm seeking common benefit
compensation. As discussed above, except for the telephonic meeting on January 5, 2018, the FCC meetings
were conducted in-person. With the exception of a single instance where an FCC member was participating
in a jury trial, all members of the FCC were in attendance at the FCC meetings. The FCC also consulted
with the Co-Leads of the MDLs, including an in-person
meeting with the MDL Co-Leads in Houston, Texas on
December 5, 2017, and discussed the quality and value
of the contribution of applicant firms to the common
benefit of the litigation. The work of the FCC during
this period was not simply to determine the number of
hours that might be considered compensable, but also
(and more significantly to the FCC) the quality of those
hours and the extent such time was of benefit to the
litigation. As each firm was discussed, the FCC decided
which time entries would (at that stage) be considered
as common benefit, which time entries were deemed of
no compensable value, and which entries required additional information in order for the FCC to properly
evaluate the submission.

App. 88
Simultaneously, the FCC evaluated the nature of
the legal work reflected in the time submissions. The
FCC considered for each firm whether the work for
which time was submitted was performed by attorneys
or non-attorney staff, and the experience and seniority
of the attorney performing work, as well as whether
multiple lawyers or firm members were performing the
same or similar tasks that could appropriately be handled by a single attorney The FCC discussed the nature of the work and the role of the applicant firm as
reflected in the time submissions, including for example whether the firm was engaged in document review,
expert identification and preparation, written discovery, depositions, trials, briefing or appellate work, or
settlement negotiation. With regard to the venue of
cases, and in accordance with the Court’s instruction
in the FCC Protocol, the FCC considered whether trial
work was performed within the MDLs or in various
state courts, and the extent to which it contributed to
the outcome of the litigation and benefited the MDL.
In addressing trials, the FCC considered whether a
trial was the first successful trial of a particular mesh
product, whether the trial attorneys created common
benefit materials and shared such materials with
other plaintiffs’ firms within the litigation without
compensation (and at what point in time that material
was shared), and whether the trial attorneys consulted
with MDL leadership in case selection, trial preparation and trial strategy. Further, the FCC considered
whether a firm participated in a lead role, a back-up
role, or was simply an observer of the activity in the
litigation. As directed in the Protocol, emphasis was

App. 89
placed on work product and materials that were provided to Plaintiffs’ counsel to prepare for trial. In some
instances, the low quality of information delivered to
the FCC by the applicant firm made it impossible for
the FCC to identify any common benefit derived from
the submitted time. The foregoing examples are not
meant to be exhaustive but are meant to be illustrative
of the attention given to each firm during the Initial
Review. Throughout the Initial Review, the FCC was
mindful of the Court’s instruction that “the overarching guideline that the FCC must consider is the
contribution of each common benefit attorney to the
outcome of the litigation.” The FCC received time entries totaling more than nine hundred thousand
(900,000) hours. The FCC reviewed every time entry
from every firm in conducting its Initial Review. Where
the FCC had questions requiring further evaluation of
applicant firms, the FCC members continued their review and returned at subsequent meetings to respond.
No applicant firm’s time was approved for distribution
to the firm until the FCC unanimously approved the
time.
On February 16, 2018, the FCC provided its Initial
Review to the applicant firms. Each firm received a letter detailing the process utilized by the FCC along
with four exhibits. Exhibit A identified those time entries where the FCC found that there was no compensable basis for the time. Exhibit B identified those time
entries requiring more information from the applicant
firm. Exhibit C identified the dates beyond which the
FCC determined that time did not contribute to the

App. 90
common benefit of the litigation. Exhibit D set forth
categories of expenses which applicant firms were to
remove from their submission. The letter to each firm
instructed the applicant firm how and when to respond
and also provided the reasons why time was placed on
Exhibits A and B for that firm. Each letter was unique
and tailored to the specific firm providing only those
reasons that were applicable to the particular firm’s
time. Firms were required to provide an affidavit in the
format provided in the Protocol signed by a senior firm
member setting forth the reasons, grounds and explanation for the Firm’s entitlement to common benefit
fees under the factors outlined in the FCC Order and
in the FCC Protocol. Firms were also given the opportunity to provide a response for each time entry that
the firm believed was placed on Exhibit A or B in error,
and to provide revised expenses in accordance with the
instructions given. For any firm that did not provide a
complete response, the FCC sent letters on April 18,
2018, requesting that the applicant firm complete its
response.
After receipt of the affidavits and responsive materials from the firms, the FCC once again reviewed
each time entry for which the applicant firm sought reimbursement, as well as their affidavits, in order to further evaluate the contribution made by each firm to
the common benefit of the litigation. The FCC met on
March 29 and 30, 2018 in Atlanta Georgia. During the
meeting the FCC received presentations from its members regarding the responses received from applicant
firms. The FCC discussed and decided on whether time

App. 91
submissions placed on Exhibits A and B delivered to
the firms should be considered as compensable. Revised expenses were reviewed by FCC members in the
same manner as had previously been used for the evaluation of time entries. The FCC also heard reports and
discussed the amount of expenses for consideration for
each applicant firm. The meetings of the FCC continued
and were conducted on April 23, 24 and 25, 2018 and
May 7, 2018 in Atlanta, Georgia. In addition, there was
an FCC conference call conducted on May 2, 2019 [sic],
to address firms’ time and expense and affidavit review. As discussed above, the FCC’s focus during its review of responses of applicant firms was not directed
toward a mechanical calculation of the numbers reflected in time and expense entries. Rather, the FCC
endeavored to analyze the benefit and value of the
work reflected in these submissions in light of each
firm’s role in the litigation and in accordance with the
Court’s directives set forth in the common benefit orders, based on the FCC’s experience in the litigation
and the materials and information submitted by each
Firm. Specifically, the FCC considered the final time
and expense submissions and affidavits of each firm in
light of the items enumerated in Section B of the Protocol, the factors enumerated in Section C of the Protocol, and the factors set forth in Barber v. Kimbrell’s,
Inc.
On May 18, 2018, the FCC delivered to each applicant firm the results of the FCC’s evaluation of the
firm’s affidavit and materials in response to the Initial
Review. At that time, the FCC notified each firm of the

App. 92
hours and expenses that the FCC found to be eligible
for consideration as common benefit. In accordance
with Section D of the Protocol, each firm was given notice of the opportunity to be heard by the FCC. The letter provided to each firm was accompanied by a revised
version of Exhibits A and B reflecting the FCC’s decision to allow or disallow each entry based upon the information provided by the applicant firm in its final
submission of time, expense and its affidavit. The letter
provided instructions on how to request an opportunity
to be heard by the FCC. Of the ninety-four firms whose
time was reviewed, twenty-seven elected to be heard
by the FCC. The FCC conducted in-person meetings
with representatives of each firm who made a request.
The FCC conducted in-person meetings in Charleston,
West Virginia on June 12, 13, 14 and 15, 2018, and in
Atlanta, Georgia on July 17, 18 and 19, 2018. In accordance with Section C. of the FCC Order, each firm was
permitted to “present the reasons, grounds, and explanation for their entitlement to common benefit,” and
was generally allowed to be heard by and to discuss
with the FCC any matter of its choosing during these
in-person meetings. The FCC received and considered
all of the oral presentations of all applicant firms who
availed themselves of this opportunity. Based on the
presentations of firms, the FCC reviewed, and where
appropriate, revised the hours or expenses considered
for common benefit. Additionally, the FCC met and discussed the presentation of firms in light of the value
that each firm contributed to the litigation. At the conclusion of the in-person meetings, the FCC finalized

App. 93
the number of hours and amount of expenses for its
preliminary recommendation.
The FCC met on August 1 and 2, 2018 in Atlanta,
Georgia for the purpose of finalizing its allocation of
funds available for compensation of common benefit. In
so doing, the FCC relied upon its detailed knowledge
and understanding of the work performed accumulated throughout the process of thoroughly reviewing
each firm’s time and expense submissions, affidavits,
written materials accompanying affidavits, and inperson meetings. The FCC also relied upon the collective personal knowledge and experience of its members
in this litigation and the input received from other
leadership within the litigation. The process of allocating the potential fund was not a new process for the
FCC, rather it was the continuation of the process that
began with the entry of the FCC Order. Members of the
FCC continued to meet on August 15, 2018 in Washington, DC and discussed the allocation of the potential fund for common benefit. The FCC met again on
August 21, 2018, in Atlanta, Georgia to continue its
discussion of the allocation of potential funds for common benefit awards. At the request of the FCC, the
Chairperson proposed a series of awards utilizing a
percentage of the funds for each of the applicant firms.
The FCC then addressed each of the firms individually
and discussed whether the proposed percentage
award was appropriate. The percentage value assigned
to each firm was then adjusted to reflect the decision
of the FCC for each firm. Some adjustments were
upwards, some downwards and some remained

App. 94
unchanged. In discussing an appropriate percentage
for the applicant firms, the FCC was again guided by
their experience and familiarity with the litigation, the
nature and value of the work performed, the FCC Order and the FCC Protocol with focus being given to the
items enumerated in Section C of the Protocol and the
Barber factors. Only FCC members participated in the
discussion and decision regarding the allocation of
common benefit funds. Attorneys who assisted the
FCC in its review process did not participate in the decision by the FCC regarding allocation of funds to applicant firms.
The FCC did not request any information regarding billing rates utilized by applicant firms. The FCC
did not apply a formulaic or grid approach whereby an
applicant’s recommended common benefit award was
the sum of points or the product of an “hours x rate x
multiplier” equation. The FCC observed that the hours
submitted by firms varied widely in quality, with some
applicants submitting significant numbers of hours of
limited value, while others submitted fewer hours that
provided substantial benefit to the litigation. The FCC
identified its directive under the Protocol to focus on
(and reward) firms based on their substantive contributions rather than the bulk submission of hours.
Upon the completion of the allocation process, the
FCC was unanimous in its agreement that the process
used throughout the review of time and expense was
performed in accordance with the Court’s Orders and
the applicable legal authority, and the FCC was unanimous in its agreement to the amounts allocated to

App. 95
each firm in the Preliminary Written Recommendation. The FCC met and collectively prepared the materials for distribution of the FCC’s Preliminary Written
Recommendation on September 11, 2018. The FCC reviewed the information being delivered to each applicant firm and discussed the Protocol with regard to
the Preliminary Written Recommendation, the opportunity for objections thereto and the Final Written
Recommendation. The FCC’s Preliminary Written Recommendation was delivered to all applicant firms on
September 13, 2018.
Applicant firms were permitted to make any objection to the Preliminary Written Recommendation on or
before September 28, 2018. Of the ninety-four firms receiving the Preliminary Written Recommendation, the
FCC received objections from twenty-four firms. The
FCC considered the written objections of firms and met
on October 22 and 23, 2018, in Athens, Georgia to
deliberate and discuss the objections. The FCC then
continued to confer regarding objections, and on November 16, 2018, the FCC met to approve the form and
content of this Final Written Recommendation. Of the
twenty-four objections eleven have now been resolved.
After due consideration of the remaining objections,
the FCC unanimously agreed to its proposed allocation
of funds for compensation of common benefit to each
applicant firm as set forth in this Final Written Recommendation.
The FCC received certain objections from counsel
to its Preliminary Written Recommendation, which remain unresolved. Some of the remaining objectors

App. 96
argue that their awards are insufficient in light of their
contribution, while others objected that those same
firms’ award was excessive in light of the same factors.
Some objectors took umbrage with the FCC’s stated intention of requesting the Court set aside 30% of future
common benefit funds for work completed post-December
21, 2016 as too much, while others argued the percentage set aside should be significantly more than 30% to
prevent firms that did less work after that date from
being overcompensated. Some objectors took the position that the FCC’s recommendations for the members
of the FCC were too high, while others commended the
FCC members for their hard work, dedication, and the
value they added to the litigation. Often, objectors
claimed to have performed the same work as was performed by other applicant firms. In summary, the objections raised generally took both sides of virtually
any given issue. Accordingly, the FCC revisited its preliminary recommendations with an eye toward ensuring compliance with the Court’s directives in the
applicable pretrial orders, with careful attention paid
to recommending awards on a firm-by-firm basis that
reflected as accurately as possible the value provided
by that firm to MDL claimants.
The FCC notes that certain of the remaining objections received focus upon the “implied” or “effective”
hourly rates that objecting firms calculated in order to
subjectively compare themselves to other firms. These
objections necessarily substitute the objecting firm’s
subjective evaluation of the firm’s contribution to the
common benefit of the litigation in place of the analysis

App. 97
performed by the FCC. The essential crux of each such
objection is that the firm seeks an increase in its award
based on its self-evaluation in comparison to other
firms. The FCC reviewed the objections and determined that no new factual information was provided
by the objectors beyond that already received and considered by the FCC in making its recommended percentage allocation. The FCC, as discussed in detail in
this Final Written Recommendation, did not use an
hourly rate method in arriving at its percent allocation
for each applicant firm. However, in an effort to ensure
that the method employed by the FCC delivered a fair
result, the FCC performed a review of the effective
hourly rates resulting from its percentage award set
forth in its Preliminary Written Recommendation. The
FCC reviewed and considered each of the effective
hourly rates for the applicant firms and determined
that the result was consistent with the FCC’s determination of the appropriate percentage award, which was
determined in accordance with the factors and instructions set forth in the FCC Protocol and the Court’s
prior common benefit orders. Further, the range of effective hourly rates was within the range of other
MDL litigations.14 Having conducted this additional
14

See, e.g., In re Actos (Pioglitazone) Prods. Liab. Litig., 274
F. Supp. 3d 485 (W.D. La. Jul. 17, 2017) (Order adopting Special
Masters Report and Recommendation which awarded effective
hourly rates ranging from $270.00 to $1,305.00); see also In re Oil
Spill by the Oil Rig “Deepwater Horizon” in the Gulf of Mexico, on
April 20, 2010, Case No. 2:10-md-02179, Doc. 23574 (E.D. La. Oct.
24, 2017) (Order adopting Special Master’s Recommendations
which awarded effective hourly rates ranging from $60.89 to
$2,162.41).

App. 98
crosscheck of its recommended allocations, the FCC
unanimously agreed to its proposed allocation of funds
for compensation of common benefit to each applicant
firm as set forth in this Final Written Recommendation.
The overarching theme of the unresolved objections received can be summarized as follows: my firm
did not receive enough money and/or another firm (or
other firms) received too much money. However, the
subjective comparisons proffered by the objecting firms
are often contradictory, if not self-defeating. For example, certain of the objecting firms seek the lion’s share
of credit for the same litigation, but in varying State
Court venues and in MDL. As a specific example, one
firm claims that its work in a specific State Court trial
was of significant benefit to the litigation while another firm contends that same trial was only of limited
value compared to a subsequent trial(s) in which their
firm was involved (for example, the verdict addressed
only failure to warn and not design defect). Certain of
the same objecting firms claim to have developed the
same experts for the same litigation. These varying
proposals with disparate accounts only serves to underscore the inherent subjectivity of the allocation process, and the difficulty in reaching a recommendation
that matches every firm’s own subjective expectation
and view of their self-worth. Stated otherwise, it readily appears that the objecting firms’ true intent is to
substitute their own subjective judgment for that of
the FCC with respect to the value of their and other
firms’ work in the allocation process.

App. 99
It was further noted that the remaining objecting
firms generally sought to compare their effective
hourly rate to that which they calculated for other
firms (typically those whose rates they calculated as
being higher than their own). However, in challenging
why another firm (or other firms) received a higher
rate than theirs, several of the objecting firms focused
primarily on their subjective views regarding the quality or value of the work of only one member of their firm
(typically the one lawyer from the firm who served in
a Court-appointed leadership position). This analysis
is fundamentally flawed. The FCC did not base its
analysis solely on whether or not the firm had a member who was appointed to a leadership position, or
whether any of the firm’s members contributed value
to the litigation, but instead necessarily focused on the
value contributed to the litigation by the firm as a
whole. As required under the FCC Protocol, the FCC
considered the skill, reputation and experience of each
of the individuals who submitted time for each firm, as
well as the nature and quality of work being performed
by each of those individuals. It is impossible to make a
side-by-side comparison between applicant firms without considering the nature, quality and value of the
work of the firm as a whole versus just one person
within that firm. For example, a law firm may have one
attorney who served in a leadership position and
whose work contributed value to the litigation, but
that attorney’s time may only account for a small fraction of the firm’s overall time submitted as common
benefit. The firm’s other time may have been performed primarily by young associates, paralegals, or

App. 100
other lawyers or staff who did routine work that did
not add significant value to the litigation. In that situation, such firm should not be heard to object on the
basis that the firm’s “effective hourly rate” was less
than another firm who had multiple partner-level attorneys who submitted consistent and substantial
time that provided significant value to the litigation.
Furthermore, all hours are not created equal. One
common example is that hours spent actively trying an
MDL case are considered more valuable than hours on
other tasks, such as document review or administrative tasks. This analysis may also be true, however,
even between hours spent on the same task by similarly
skilled or experienced lawyers. For example, not all
hours spent on “document review” are equivalent in
value. Time spent identifying the documents that were
later used in significant motions or briefing, provided
to general experts, used during important corporate
depositions or at trial, or made part of “trial packages”
provided to other lawyers is necessarily more valuable
than hours submitted for document review with no
tangible work product. Firms that consistently billed
time for “document review” with little or no tangible
work product to show for that time provided less of a
benefit, and more of a detriment. Likewise, not all
“trial” hours are the same. Some firms shouldered the
brunt of the trial work from the day the trial setting
was obtained through the day the appellate court issued its opinion affirming the verdict. Others may have
provided valuable support prior to or during the trial,
and others may have participated in the trial itself, but

App. 101
each to varying degrees. It is not practicable, nor equitable, to declare that all attorney hours are of the same
value or that all “trial” time is deserving of equal
weight. Variances in consistency, duration, skill, responsibility, role, and task all must be taken into account in determining the firm’s collective value to the
litigation. To evaluate the efforts of counsel otherwise
is to reward the professional biller or the inefficient
worker.
4. Legal analysis of common benefit fee allocation process.
“It is beyond dispute that a court may ‘appoint a
committee of plaintiffs’ counsel to recommend how to
divide up an aggregate fee award.’ ” In re Vioxx Prods.
Liab. Litig., 802 F. Supp. 2d 740, 773 (E.D. La. 2011).
As recognized in In re Diet Drugs Prods. Liab. Litig.,
2003 WL 21641958, *6 (E.D. Pa. 2003), a committee allocating attorneys’ fees is “well suited” for that task
where it is “comprised of respected attorneys with indepth knowledge of the work performed throughout
the course of . . . the litigation.”; see also, In re Diet
Drugs Prods. Liab. Litig., 2002 WL 32154197, at *23
(E.D. Pa. 2002) (finding it “both more efficient and
fairer” to permit a committee of counsel involved in the
litigation to make an initial attempt at allocating a fee
award among the applicant counsel, rather than having the court make those determinations in the first
instance); Vioxx, 802 F. Supp. 2d at 764 (observing that
fee committee appointees were “heavily involved” in
the litigation and thus “had firsthand knowledge of the

App. 102
nature and extent of the common benefit work which
was done and who did it”); Victor v. Argent Classic Convertible Arbitrage Fund L.P., 623 F.3d 82, 90 (2d Cir.
2010) (“Since lead counsel is typically well-positioned
to weigh the relative merit of other counsel’s contributions, it is neither unusual nor inappropriate for courts
to consider lead counsel’s proposed allocation of attorneys fees, particularly . . . where the district court retains the ultimate power to review applications and
allocations and to adjust them where appropriate.”); In
re Cathode Ray Tube (CRT) Antitrust Litig., 2016 WL
6909680, *2 (N.D.Ca.2016) (“In class actions lead counsel commonly propose the initial plan of fee allocation
since ‘class counsel are the most familiar with the
amount of work actually contributed by each of the . . .
firms,’ and can assess ‘in a manner that they believe,
in good faith, reflects the contributions of counsel to
the prosecution and settlement of the claims.’ ”) (Cits.
omitted).
“As a general principle, . . . [attorneys’] fees are to
be allocated in a manner that reflects the relative contribution of the individual firms and attorneys to the
overall outcome of the litigation.” Diet Drugs, 2003 WL
21641958, at *6. See also, In re Copley Pharmaceutical,
Inc., Albuterol Prods. Liab. Litig., 50 F.Supp.2d 1141,
1149-50 (D.Wyo.1999) (“The Court’s research reveals
that courts unanimously make allocations based ‘upon
the quantity and quality of effort expended by the attorneys in obtaining the common fund.”) (Internal
cits. omitted); Turner v. Murphy Oil USA, Inc., 582
F.Supp.2d 797, 812 (E.D.La.2008) (“This apportionment

App. 103
[of common benefit funds among counsel] is largely dependent on an analysis of the amount, nature, and significance of the work of each counsel and how it relates
to the work of the other counsel.”). Consistent with
such authority, and as discussed above, the Court
instructed in its Order Establishing Criteria for Applications to MDL Common Benefit Fund that “the
over-arching guideline that the FCC must consider [in
allocating common benefit attorney’s fees] is the contribution of each common benefit attorney to the outcome of the litigation.” (Order Establishing Criteria for
Applications to MDL Common Benefit Fund, p. 5).
Stated plainly, the “allocation of fees is not an exact science,” and the methodology used may vary, so
long as it is designed to produce results that are both
fair and reasonable. See Diet Drugs, 2003 WL
21641958, at *7, *11. See also, In re Motor Fuel Temperature Sales Practices Litig., 2016 WL 4445438, *13
(D.Kan.2016) (“In determining reasonable attorneys’
fees, the essential goal ‘is to do rough justice, not to
achieve auditing perfection.’ ”). Because subjective factors, such as the nature of the work performed, the
skill and experience of the counsel doing it, and the results achieved are relevant considerations, “some subjectivity is unavoidable in allotting common benefit
fees.” Vioxx, 802 F. Supp. 2d at 774. “[I]n the real and
imperfect world of litigation it is an accepted fact that
not all work hours are entitled to the same compensation rate. The nature of the work, the skill and experience of the party doing the work, and the result
achieved all factor into the appropriate allocation. How

App. 104
these factors are weighed injects an unavoidable
amount of subjectivity in the analysis. The best that
can be done to assure the validity of the analysis
is to base the subjectivity quotient on sufficient
facts and experience, and to invite input from
those affected.” Id. (Emphasis added). “With so much
money at stake and so much time invested by skilled
attorneys on valuable common benefit work, it is not
surprising that disputes exist concerning the proper
method and dollar amount of the individual allocations. We emphasize, however, that the allocation of
fees is not an exact science.” Diet Drugs, 2003 WL
21641958 at *10-*11.
The process used in allocating attorneys’ fees generally should also offer the opportunity for meaningful
input by the fee applicants. Diet Drugs, 2003 WL
21641958 at *6 (noting that applicants had the opportunity to object to their proposed fee allocation, meet
with the fee committee and discuss their objections,
suggest revisions before a final recommended allocation was determined, and, if still dissatisfied, seek relief from the court).
The proposed fee allocation in this case plainly
satisfies all of the necessary criteria discussed in the
applicable legal authority, as well as the protocols and
procedures established by the Court. In their objections to the FCC’s preliminary recommendation, certain of the applicant firms have suggested that the
FCC was required to utilize a “lodestar” methodology,
where the hours credited to the firm are multiplied by
an hourly rate. Several courts have considered and

App. 105
rejected similar arguments, and to be clear, the FCC
was not required to and did not attempt to employ any
“lodestar” calculation. See, In re Thirteen Appeals Arising Out of San Juan Dupont Plaza Hotel Fire Litig., 56
F.3d 295, 307-08 (1st Cir.1995) (rejecting argument
that common fund must be allocated among counsel
using lodestar method, stating “[W]e hold that in a
common fund case the district court, in the exercise of
discretion, may calculate counsel fees either on a percentage of the fund basis or by fashioning a lodestar. . . . [W]e rule the court below did not err in
purposing to allocate fees based on the [percentage of
fund] method, emphasizing the attorneys’ ‘relative contribution’ to the creation of the Fund.”); Glaberson v.
Comcast Corp., 2016 WL 6276233 (E.D.Pa. 2016) (observing that in allocation of common fund attorneys’
fees, “a mathematical application of a ratio of the firms’
lodestars is not mandated.”) Here, the FCC considered
the submitted time of counsel for common benefit fee
purposes as entitled to allocation weight only in relationship to outcome contribution. Not simply how
much time an attorney has spent and submitted, but
whether and how an attorney’s time contributed to the
outcome of the litigation, has been a consistent, and
even primary, focus of the FCC in its analysis and recommendation.
In a similar vein, the dollar-specific allocations
recommended by the FCC are not driven by mathematical formulation, any more than they are based upon
the mere counting of attorney hours. The FCC was
charged by the Court with the task of reviewing time

App. 106
and expense submissions and accompanying affidavits
from ninety-four different law firms. As described
above, a painstaking, detailed review by the FCC of
submitted time records was conducted over several
months. The Initial Review, along with the required affidavits and other materials submitted from the applicant firms, and the feedback and input from objecting
firms, assisted the FCC in analyzing inter alia the nature, quantity and duration of the work performed, the
identity of the attorneys performing the work and their
respective experience and abilities, and generally how
the work contributed (or did not contribute) to the
overall common benefit of the MDL plaintiffs. As outlined in detail above, this review and allocation process
that involved hundreds of hours over several months
was thorough. Each applicant firm was allowed to provide substantive input to the process, and to receive
feedback from the FCC. While the FCC extensively reviewed the hours submitted by every firm and took the
approved time into consideration in making its proposed allocation, the FCC did not request hourly rates
from any firm or attempt to mechanically apply any
“hours x rate” analysis. See, Vioxx, 802 F. Supp.2d at
773 (“To simply total the hours spent, apply an appropriate lodestar factor, and allocate the fee on that basis
alone would not be appropriate in this case.”). Instead,
the FCC reviewed the submitted time and applicant
input in light of the Court’s directives set forth in the
Fee Committee Protocol and prior common benefit orders, the ultimate purpose of which is to “evaluat[e]
what work and expenses furthered the common benefit
of the litigation.” (Fee Committee Protocol, p. 10). See,

App. 107
In re Thirteen Appeals Arising Out of San Juan Dupont
Plaza Hotel Fire Litig., 56 F.3d 295, 307 (1st Cir.1995)
(“While the time logged is still relevant to the court’s
inquiry – even under the [percentage of fund] method,
time records tend to illuminate the attorney’s role in
the creation of the fund, and, thus, inform the court’s
inquiry into the reasonableness of a particular percentage. . . .”); In re Copley Pharmaceutical, Inc., Albuterol Prods. Liab. Litig., 50 F.Supp.2d 1141, 1149-50
(D.Wyo.1999) (“[t]he value of time expended with appropriate adjustments may provide a rough starting
point for assessing the respective roles of counsel, but
it should not be used rigidly as a precise measure to
the exclusion of other intangible factors.”).
The FCC’s approach in making this proposed
allocation is consistent with the allocation methodology applied in similar multi-plaintiff product liability
settlements. Recently, in In re Fresenius Granuflo/
Naturalyte Dialysate Prods. Liab. Litig., MDL 2428
(“Granuflo”), the court-appointed fee committee recommended an allocation to each applicant firm of a percentage of the total fee award based on the committee’s
experience and the facts submitted, and after receiving
input from the interested firms. Granuflo, 1:13-md2428, Doc. 1983 (Memorandum in Support of Plaintiff
Leadership’s Petition for Award and Allocation of Common Benefit Fees) (D.Mass. Dec. 12, 2017). The fee
committee in Granuflo emphasized in its petition that
it did not undertake to apply “an unyielding mathematical formula,” which it noted could not account for
the multitude of subjective differences that must be

App. 108
considered in making such an award, such as the differing skills and contributions of the attorneys and
varying nature and complexity of the tasks involved.
(Id., p. 22). The MDL court approved the fee committee’s recommendation. Granuflo, 2018 WL 2163627
(D.Mass.2018). Similarly, in In re Nuvaring Prods.
Liab. Litig., 2014 WL 7271959, *2 (E.D.Mo.2014) (Order approving recommendation of Special Master’s
Recommendation Regarding Allocation and Distribution of Common Benefit Fees and Expenses), the Court
affirmed the Special Master’s recommended allocation
of common benefit fees. As noted there, the recommended allocations were based on the quality and
value of the work performed, not on a “lodestar” analysis of rates multiplied by hours. Id. at *6. Likewise, in
the In re Yasmin and Yaz Prods. Liab. Litig. MDL, the
Special Master recommended an allocation based on
the quality and value of the work to the litigation and
resolution and expressly rejected the “lodestar” approach as both arbitrary and inappropriate because it
would not properly consider the value and quality of
the work involved. In re Yasmin and Yaz Prods. Liab.
Litig., 3:09-md-02100, Doc. 3843 (Special Master’s Report and Recommendation Regarding the Allocation
and Distribution of Common Benefit Fees and Expenses) (S.D.Ill. Nov. 6, 2015), pp. 7-8. The Yaz MDL
Judge, the Hon. David R. Herndon, adopted the Special
Master’s allocation recommendation in its entirety. Id.,
Doc. 3856 (Minute Order adopting Special Master’s
recommended allocation in its entirety) (S.D. Ill. Nov.
20, 2015).

App. 109
In its Recommendation for Fee Allocation filed in
In re: Oil Spill by the Oil Rig “Deepwater Horizon” in
the Gulf of Mexico, on Apr. 20, 2010, MDL 2179, the
court-appointed Fee Committee stated that it “did not
employ a ‘lodestar’ or ‘hourly rate’ approach. . . . Nor
did the FCC interpret its task to simply apply a single
blended hourly rate to all hours that had been submitted in the case.” (In re: Oil Spill by the Oil Rig “Deepwater Horizon” in the Gulf of Mexico, on Apr. 20,
2010,2:10-md-2179, Doc. 22628 (Fee and Cost Committee Recommendation for Proposed Cost Reimbursements and Fee Allocation) (E.D. La. Apr. 11, 2017), p.
5). The Deepwater Horizon committee further explained that it “did not, at any time, assign particular
‘rates’, or ‘multipliers’, to a firm’s accepted hours, and
then use that to derive the ultimate fee recommendation.” Id., p. 7. Instead, “[t]he overarching guideline for
the FCC to consider was the relative common benefit
contribution of each Fee Applicant to the outcome of
the litigation. . . .” Id., p. 6. Likewise, the Deepwater
Horizon Special Master cited to Judge Fallon’s Vioxx
opinion, noting that “[m]echanically calculating
hours and allocating fees solely on that basis
would incentivize padded hours and diminish
the work that truly moved the litigation towards
its conclusion.” (Deepwater Horizon, Doc. 23574-1
(Special Master’s Recommendation Concerning the Allocation of Common Benefit Fees) (Oct. 24, 2017), p. 8
(emphasis added)). The court in Deepwater Horizon
adopted the Special Master’s recommended allocation.
(Id., Doc. 23574 (Order Adopting Special Master’s Recommendation Concerning the Allocation of Common

App. 110
Benefit Fees) ()). See also, In re FEMA Trailer Formaldehyde Prods. Liab. Litig., 2013 WL 1867117, *4-*15
(E.D.La.2013) (approving MDL fee allocation proposed
by PSC and by Special Master by percentage of available common benefit fees); In re Prempro Prods. Liab.
Litig., 2014 WL 3809101, *1-*2 (E.D. Ark. 2014) (adopting percentage-based common benefit allocation recommended by Common Benefit Fee Committee and
proposed by Special Master).
5. Objections claiming lack of “discovery” from
FCC.
Certain of the objecting firms have sought to conduct discovery regarding the FCC’s deliberations, and
complain generally about an alleged lack of “transparency” about the process. Initially, as all applicant firms
are aware, the Court charged the FCC “with engaging
in confidential discussions as part of the FCC’s function.” (FCC Order, Section A) (Emphasis added). As the
Court’s Order recognizes, confidentiality is necessary
for the FCC to have candid and frank discussions and
deliberations about the value and benefit of the contribution of the firms involved.
In In re Genetically Modified Rice Litig., 764 F.3d
864, 872 (8th Cir. 2014), the Eighth Circuit considered
and rejected a similar objection to a common fund allocation for lack of discovery, observing as follows:
Although the court did not appoint an external auditor or permit discovery, cf. In re Diet
Drugs, 582 F.3d at 533-34, discovery in

App. 111
connection with fee motions is rarely permitted, In re Prudential Ins. Co. Am. Sales Practice Litig., 148 F.3d 283, 338 (3d Cir.1998), and
a “request for attorney’s fees should not result
in a second major litigation.” Hensley v. Eckerhart, 461 U.S. 424, 437, 103 S.Ct. 1933, 76
L.Ed.2d 40 (1983).
In In re Pradaxa (Dabigatran Etexilate) Prods. Liab.
Litig., C.A. No. 3:12-md-02385, Doc. 613 (Case Management Order No. 89 – Denying Motion to Stay and Prohibiting Discovery Relating to Common Benefit Fee
Determination) (S.D.Ill. Jan. 8, 2015), the Hon. David
R. Herndon, an experienced MDL Judge, similarly rejected a firm’s (“CDL”) request for discovery regarding
a common benefit fee allocation. Instructively, Judge
Herndon stated there “The Court finds that it has imposed appropriate guidelines and ground rules with regard to the common benefit fee determination. [The
law firm seeking discovery] has not presented the
Court with any reason to doubt the methodology that
has been employed, conclude that informal or formal
discovery is genuinely needed, or doubt the billing information that has been provided to date. Accordingly,
the Court sees no reason to depart from the principle
that discovery in connection with fee motions should
rarely be permitted.”
Here, the Court provided detailed guidance and
established rules and criteria that have governed the
FCC’s common benefit allocation process. The facts and
information considered by the FCC have been provided
and explained in detail to every firm that applied for

App. 112
common benefit. As detailed above, every applicant
firm has been provided substantial information about
how their work was evaluated, including written explanations regarding the applicant firm’s submitted
time considered – or not considered – as common benefit, and an opportunity to respond in writing and inperson. Each firm also has now received information
about each of the other applicant firms’ submitted time
considered for common benefit (total hours submitted,
and number of hours and amount of expenses recognized as common benefit).
As the Court-Ordered Protocol and this Final
Written Recommendation reflect, applicant firms were
given several opportunities to receive feedback from
the FCC about the review and allocation process, both
in writing and in-person. All applicant firms were allowed to make a presentation and/or provide a written
submission to the FCC which they felt would establish
the value of their work and/or their contribution to the
common benefit of this MDL. (See, e.g., FCC Protocol,
Section C (each applicant firm must submit affidavit
that “shall [set] forth the reasons, grounds and explanation for the [F]irm’s entitlement to common benefit
fees.”); FCC Order, Section C (“It is the responsibility
of the FCC to conduct meetings, at the appropriate
time, during which any counsel who has submitted an
application for common benefit compensation may, at his
or her discretion, separately appear and present the
reasons, grounds, and explanation for their entitlement
to common benefit fees.”). Likewise, pursuant to Court’s
Protocol, the FCC provided ample opportunity for

App. 113
applicant firms to provide substantive feedback and input regarding the process – again, both in-person and
in writing – including any input regarding the relative
contributions or benefit provided by any applicant
firm. Not only has every applicant firm had multiple
opportunities to both provide and receive information
and feedback to and from the FCC, the Court’s Protocol
provides additional opportunities to present objections
to the Court-appointed External Review Specialist and
to the Court. Any complaint about an alleged lack of
information here is unfounded.
6. Final Recommended Allocation of Funds:
Comprised of attorneys whose work spanned the
entire litigation, the FCC was well-informed of the
substantive contributions made by each applicant firm
and endeavored to appropriately recognize those contributions. The FCC has exhaustively reviewed all of
the facts and information provided by common benefit
applicant firms, has applied the principles and complied with the directives established in the Court’s protocol, and relied upon its experience and familiarity
with the litigation and with the facts, providing multiple opportunities to provide and receive input by common benefit applicant firms in writing and in person.
After several months of deliberations regarding the applications, the FCC reached its recommendations.
Based on the foregoing, the FCC makes the following observations regarding the contribution of each
common benefit applicant to the outcome of the

App. 114
litigation and recommends the following awards. In
making its Final Recommendation, the FCC utilized
the following method. First, the FCC considered the
total anticipated funds available in the MDL
common benefit fund at the time of the first anticipated distribution by the Court to be approximately
$400,000,000.00 (specifically the assumption of
$396,811,811.38 was utilized). Next, the FCC deducted
the total of $17,825,000.00 for repayment of MDL PSC
assessments paid by firms for the purpose of funding
the initial work of plaintiffs’ counsel in the litigation.
The FCC then deducted the total of $28,986,811.38 for
the purpose of reimbursing applicant firms for held
costs which were for the common benefit of the litigation. After the total deduction of $46,811,811.38 (the
sum of $17,825,000.00 and $28,986,811.38), the remaining anticipated funds in the MDL common benefit
fund at the time of the first distribution total
$350,000,000.00. Using the percentage method discussed previously in this Final Written Recommendation, the FCC recommends that upon application of the
recommended percentages for each applicant firm, the
following amounts should be distributed to each firm.15
The FCC further anticipates that additional funds will
continue to be received by the MDL common benefit
fund. The Protocol limits the temporal scope of the
FCC’s review and recommendation regarding the
award of funds for common benefit to those activities
15

The FCC’s Final Written Recommendation is premised
upon the Court’s grant of the FCC’s Petition for an Award of Common Benefit Attorneys’ Fees filed November 12, 2018.

App. 115
occurring on or before December 21, 2016. The FCC is
aware of work that has been performed and continues
to be performed beyond December 21, 2016, which the
FCC believes would merit consideration as common
benefit. In order to discharge its assigned duties while
also providing adequate funds to address work performed beyond December 21, 2016, the FCC recommends that with regard to future funds, the Court (1)
allocate thirty percent (30%) of future funds received
in the MDL common benefit fund as being subject to
future orders of the Court regarding payment; and (2)
allocate seventy percent (70%) of future funds received
in the MDL common benefit fund amongst applicant
firms utilizing the same percentages as set forth
herein below. Some objecting firms have urged that the
percentage of funds recommended by the FCC to be retained for distribution pursuant to a future order of the
Court (30% of funds received in the future) is too high,
while other objectors contend that the percentage is
not high enough. The FCC recommends that the sum
is adequate to address future payment needs, though
any recommendation regarding the allocation of such
funds is beyond the scope of the FCC pursuant to the
Court’s Protocol.
The FCC recommends that allocation of funds for
common benefit be paid as follows:16
16

In Vioxx, 802 F. Supp.2d at 774-825, Judge Fallon similarly recited the total hours logged by each applicant, as well as
the relevant factors applicable to that counsel’s or law firm’s service. See also, Turner v. Murphy Oil, supra at 812-827 (J. Fallon)
(similar synopses of firms’ allocations).

App. 116
Anapol Weiss. Anapol Weiss partner Tom Anapol is a
member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the MDLs
through its payment of the MDL assessment. The firm
contributed $100,000.00 in assessments. The Fee
Committee recommends reimbursement of the firm’s
$100,000.00 in assessments.
Anderson Law Office. Anderson Law Office partner
Ben Anderson is a member of the Plaintiffs’ Steering
Committee and served as Co-Lead of the Cook MDL.
The firm’s work in Cook with Co-Lead Counsel resulted in a global settlement, although there were issues with the terms of the settlement. The firm
contributed to the MDLs, with an emphasis on work
with experts. The firm worked with experts in science
and medicine, and Ben Anderson was a member of the
Science Committee. The firm participated in some trials. All of the firm’s work was performed by one attorney and two paralegals, with more than 40% of the
total approved time coming from paralegal hours. The
firm’s work ultimately resulted—in targeted areas—in
expert witnesses, although the Fee Committee takes
note that the work was often done in an inefficient
manner. The firm submitted 33,220.93 hours for review by the FCC. The Fee Committee recognized a total
of 22,209.68 hours and $666,993.81 in expenses. The
firm contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,

App. 117
the Fee Committee recommends an allocation of
$7,210,000.00 (2.0600000%), plus reimbursement of the
firm’s $350,000.00 in assessments, and reimbursement
of $666,993.81 in expenses.
Andrus Wagstaff. Andrus Wagstaff partner Amy
Wagstaff is a member of the Plaintiffs’ Steering Committee, was appointed to serve as Co-Lead Counsel for
the Boston Scientific MDL, and was appointed as a
member of the Executive Committee. In her role as CoLead Counsel, Ms. Wagstaff participated in Executive
Committee and Plaintiffs’ Steering Committee conferences, attended hearings and status conferences, managed BSC discovery, assisted in motion practice and
also participated in a BSC MDL trial. Ms. Wagstaff and
her colleagues also prepared annotated work product
which was made available to lawyers with BSC cases.
The firm also had wave work, document review and
travel. The firm submitted 31,549.55 hours for review
by the FCC. The Fee Committee recognized a total of
29,563.85 hours and $505,275.50 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the BSC MDL, the Fee Committee recommends an allocation of $8,715,000.00 (2.4900000%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $505,275.50 in expenses.
Ashcraft Gerel. Ashcraft Gerel partner Michelle Parfitt is a member of the Plaintiffs’ Steering Committee.

App. 118
The firm contributed to the common benefit of the
AMS, BSC, Bard, and Ethicon MDLs. The firm participated primarily in limited expert development and
also performed document review for the BSC and AMS
MDLs. The firm submitted 846.76 hours for review by
the FCC. The Fee Committee recognized a total of
773.40 hours and $7,200.40 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $174,667.50
(0.0499050%), plus reimbursement of the firm’s $350,000.00
in assessments, and reimbursement of $7,200.40 in expenses.
Aylstock, Witkin, Kries & Overholtz, PLLC. Aylstock, Witkin, Kreis & Overholtz, PLLC (“AWKO”) was
an early participant in the TVM litigation. AWKO began its work in TVM litigation in New Jersey as part
of the New Jersey Consolidation. Upon formation of
the Federal MDL, AWKO partner Bryan Aylstock was
assigned as one of the three Coordinating Co-Leads in
the overall TVM MDLs, was a member of the Executive
Committee and the Plaintiffs’ Steering Committee;
and AWKO partner Renee Baggett was assigned to a
Co-Lead position in the Ethicon MDL and is a member
of the Plaintiffs’ Steering Committee. AWKO briefed
and argued discovery hearings, took corporate depositions, fact witness depositions, expert depositions and
managed the Ethicon litigation. AWKO was also involved in trials that the Committee recognized. AWKO

App. 119
participated in the development of the material science
and experts in the Ethicon MDL. AWKO worked to coordinate the efforts of plaintiffs’ counsel and provided
information to plaintiffs’ counsel regarding developments in the litigation. AWKO participated in bringing
a large number of cases to an AMS settlement. The
firm submitted 55,031.00 hours for review by the FCC.
The Fee Committee recognized a total of 43,932.50
hours and $1,108,942.51 in expenses. The firm contributed $350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $27,125,000.00
(7.7500000%), plus reimbursement of the firm’s $350,000.00
in assessments, and reimbursement of $1,108,942.51
in expenses.
Babbitt Johnson Osborne & LaClainche, P.A.
Babbitt Johnson Osborne & LaClainche, P.A. partner
Joseph Osborne is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the BSC and Ethicon MDLs. The firm participated in bellwether cases
for the BSC and Ethicon MDLs. The firm also participated in document review for the BSC MDL. The
firm submitted 6,002.55 hours for review by the FCC.
The Fee Committee recognized 4,308.80 hours and
$200,816.91 in expenses. The firm contributed $350,000.00
in assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit

App. 120
of the MDLs, the Fee Committee recommends an allocation of $1,355,000.50 (0.3871430%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $200,816.91 in expenses.
Baron and Blue. Baron and Blue partner Lisa Blue
is a member of the Plaintiffs’ Steering Committee. The
firm contributed to the Bard MDL. The firm participated in the development of damages theories and bellwether trial preparation for Bard MDL cases through
jury selection in two cases. The firm submitted 439.30
hours for review by the FCC. The Fee Committee recognized 436.05 hours and $33,687.74 in expenses. The
firm contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records, the
Fee Affidavit and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $137,375.00
(0.0392500%), plus reimbursement of the firm’s $350,000.00
in assessments, and reimbursement of $33,687.74 in
expenses.
Baron & Budd, P.C. Baron & Budd partner Russell
Budd is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common benefit of the
MDLs through its payment of the MDL assessment.
The firm contributed $350,000.00 in assessments. The
Fee Committee recommends reimbursement of the
firm’s $350,000.00 in assessments.
Beasley, Allen, Crow, Methvin, Portis & Miles,
P.C. Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
partner Leigh O’Dell was appointed to the Plaintiffs’

App. 121
Steering Committee and contributed to the discovery
process by taking the depositions of some corporate
witnesses, as well as conducting third-party discovery.
Beasley Allen worked on science and Bellwether cases
in the AMS MDL. The firm’s members assisted with
MDL briefing in the Boston Scientific MDL, and
worked up general causation experts for the AMS,
Bard, BSC and Ethicon MDLs. The firm also performed
document review and had more than 50 wave cases
that required significant pre-trial discovery and briefing resulting in a large number of the firm’s hours relating to its wave cases. The firm submitted 24,097.70
hours for review by the FCC. The Fee Committee recognized a total of 22,295.45 hours and $308,978.75 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $5,250,000.00 (1.5000000%), plus reimbursement of the firm’s outstanding $350,000.00 in
assessments, and reimbursement of $308,978.75 in expenses.
Bell Law Firm. Bell Law Firm partner Harry Bell
was appointed as Plaintiffs’ Co-Liaison Counsel and is
a member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of all the mesh
MDLs, with its greatest benefit occurring in the AMS
and Ethicon MDLs. As Co-Liaison counsel, Mr.
Bell worked with John Jenkins, the PSC, and the

App. 122
Executive Committee in the initial phases of the litigation. The firm also performed document review. The
firm submitted 4,208.49 hours for review by the FCC.
The Fee Committee recognized a total of 3,724.59
hours and $6,253.68 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $814,159.50 (0.2326170%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $6,253.68 in expenses.
Bernstein Liebhard, LLP. Bernstein Liebhard former partner Jeffrey Grand is a member of the Plaintiffs’ Steering Committee. The firm contributed to the
common benefit of the Ethicon MDL, but their work
was primarily for the New Jersey litigation as they
served as co-liaison counsel in New Jersey. The firm
participated in depositions and worked up state bellwether trial candidates in the New Jersey litigation.
The firm served on the trial team for Gross v. Ethicon.
The firm performed document review for the Ethicon
MDL. The firm submitted 4,407.00 hours for review by
the FCC. The Fee Committee recognized a total of
3,951.50 hours and $102,445.59 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and analysis of the firm’s contribution to
the common benefit of the Ethicon MDL, the Fee Committee recommends an allocation of $942,331.25

App. 123
(0.2692375%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$102,445.59 in expenses.
Bertram & Graf. The firm contributed to the Bard
and BSC MDLs. The firm participated in the discovery
and workup of wave cases for the Bard MDL and BSC
MDL. The firm submitted 469.50 hours for review by
the FCC. The Fee Committee recognized a total of
401.50 hours and $12,404.24 in expenses. The firm did
not pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $83,580.00 (0.0238800%), plus
reimbursement of the firm’s $12,404.24 in expenses.
Blasingame, Burch, Garrard & Ashley, PC.
Blasingame, Burch, Garrard & Ashley, PC (“BBGA”)
helped start the Pelvic Mesh litigation. BBGA partner
Henry Garrard was appointed by Judge Goodwin to
numerous positions, including Coordinating Co-Lead
Counsel for all of the transvaginal mesh MDLs, CoLead Counsel for the Bard MDL, a member of the
Executive Committee, as well as a member of the
Plaintiffs’ Steering Committee. BBGA partner Josh
Wages was also appointed to the Plaintiffs’ Steering
Committee. BBGA started the TVM litigation that resulted in creating all the MDLs. BBGA brought considerable experience in developing TVM liability theories
to the MDLs, and, as a result of having successfully
lead the Mentor Obtape MDL and trying cases in it,
BBGA’s insight advanced the common benefit of the

App. 124
MDLs. BBGA lead the Bard MDL and participated
from the early stages of discovery, document review,
motion practice, depositions of corporate witnesses,
consulting and obtaining experts and trial preparation. BBGA was lead counsel in the first four MDL bellwether cases and was lead counsel in the first MDL
case tried to a verdict for the Plaintiff. BBGA managed
and coordinated the ongoing activities of the MDLs
and assisted attorneys across the country in handling
their cases. BBGA led in the preparation of briefs in
the MDLs, the Fourth Circuit Court of Appeals and the
Eleventh Circuit Court of Appeals. BBGA played a role
in helping shape legal issues and obtaining rulings regarding the admissibility of FDA evidence and evidence regarding the MSDS. BBGA handled dozens of
experts including drafting reports, defending depositions and defending Daubert motions. The firm contributed significantly to the initial funding of the
litigation. At the direction of the Court beginning in
August of 2013, Henry Garrard focused on the resolution and settlement of cases for MDL firms which
helped move the litigation to resolution. Henry Garrard helped others resolve more than 52,000 of their
cases. This work was undertaken without compensation from those cases. The firm submitted 69,685.30
hours for review by the FCC. The Fee Committee recognized a total of 63,719.30 hours and $9,545,824.63 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation of
the firm’s overall contribution to the common benefit of

App. 125
the MDLs, the Fee Committee recommends an allocation of $56,634,392.50 (16.1812550%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $9,545,824.63 in expenses.
Blizzard & Nabers, LLP. Blizzard & Nabers partner
Ed Blizzard is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common benefit of the AMS, BSC, Bard, and Ethicon MDLs. The firm
participated in corporate depositions in Ethicon and
BSC and aided in preparation of the first AMS Bellwether defense pick. The firm also performed document review for the BSC and Ethicon MDLs, and Holly
Gibson was co-chair of the sales/marketing document
review. The firm submitted 3,905.67 hours for review
by the FCC. The Fee Committee recognized a total of
3,693.90 hours and $241,576.56 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $1,435,000.00
(0.4100000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$241,576.56 in expenses.
Burke Harvey, LLC. Burke Harvey partner Todd
Harvey is a member of the Plaintiffs’ Steering Committee. The firm worked at the direction of and with
members of the Executive Committee and on the Bard
and Ethicon MDLs. The firm participated in discovery
and workup of wave cases for the Ethicon MDL. The
firm also participated in research and briefing in the

App. 126
Bard MDL. The firm submitted 364.30 hours for review by the FCC. The Fee Committee recognized a total
of 349.40 hours and $14,197.66 in expenses. The firm
contributed $300,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $96,915.00
(0.0276900%), plus reimbursement of the firm’s $300,000.00
in assessments, and reimbursement of $14,197.66 in
expenses.
Burnett Law Firm. Burnett Law Firm partner Riley
Burnett is a Co-lead in the Coloplast and Neomedic
MDLs and a member of the Plaintiffs’ Steering Committee. In reviewing the firms’ time submission, the
FCC notes that 9,004.1 hours submitted by Burnett
Law Firm were originally submitted jointly by the
Potts Law Firm and the Burnett Law Firm for the time
period of June 2012 through December 2013. The joint
time submitted was originally credited solely to Potts
Law Firm. During the self-auditing time period, Potts
Law Firm and Burnett Law Firm agreed to transfer
9,004.1 hours of the jointly-submitted time from Potts
Law Firm to Burnett Law Firm with a corresponding
reduction of time by Potts Law Firm. The firm contributed to the common benefit of the Coloplast, Neomedic,
AMS and Bard MDLs. The firm negotiated settlements
in these MDLs. Riley Burnett played a major role in
developing a complex settlement program with AMS at
the request of the Court that benefitted many firms
and resolved thousands of cases. The firm also

App. 127
reviewed documents in the Bard, AMS and Coloplast
MDLs. The firm continues to work as the main lead in
the Coloplast MDL. The firm submitted 10,763.15
hours for review by the FCC. The Fee Committee recognized a total of 10,490.35 hours and $10,941.33 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $5,075,000.00 (1.4500000%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $10,941.33 in expenses.
Carey Danis & Lowe, LLP. Carey Danis & Lowe contributed to the common benefit of the Boston Scientific,
Bard, and Cook MDLs. The firm performed document
review, prepared experts for depositions, and attended
depositions of experts. The firm submitted 10,474.25
hours for review by the FCC. The Fee Committee recognized a total of 8,840.80 hours. The firm did not pay
an assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $700,000.00 (0.2000000%).
Chaffin Luhana, LLP. Chaffin Luhana partner Eric
Chaffin is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common benefit of
the Ethicon MDL. The firm performed document review and assisted in developing the Plaintiff Profile

App. 128
Form. The firm submitted 382.87 hours for review by
the FCC. The Fee Committee recognized a total of
301.57 hours and $1,578.10 in expenses. The firm contributed $50,000.00 in assessments. Based on a complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $58,170.00
(0.0166200%), plus reimbursement of the firm’s
$50,000.00 in assessments, and reimbursement of
$1,578.10 in expenses.
Clark, Love & Hutson, G.P. Clark, Love & Hutson,
G.P. (“CLH”) performed a leadership role in the state
and federal transvaginal mesh litigation from its inception. CLH partner Clayton Clark was appointed to
serve as Co-Lead Counsel for the Boston Scientific
MDL, is a member of the Executive Committee and the
Plaintiffs’ Steering Committee. CLH partner Scott
Love is a member of the Plaintiffs’ Steering Committee. Mr. Clark participated in Executive Committee
and Plaintiffs’ Steering Committee conferences, and
developed litigation strategies applied across MDLs. In
his role as Co-Lead Counsel of the BSC MDL, Mr.
Clark attended hearings and status conferences, managed BSC discovery, experts, motion practice and trials. CLH developed experts and defended those experts
through Daubert challenges, deposed liability witnesses, and negotiated resolution structures. CLH was
lead counsel for three MDL trials, including two consolidated trials for eight plaintiffs, despite not having
a fee interest in the outcome of the majority of those

App. 129
plaintiffs. Additionally, CLH tried a remanded bellwether case. The firm participated in two separate appeals to the Fourth and Eleventh Circuits, successfully
affirming jury verdicts on the consolidated trials in
both. The firm also performed wave work, document review and travel associated with its pursuit of MDL litigation. CLH managed and coordinated the ongoing
activities of the Boston Scientific MDL and assisted attorneys in handling their cases. The firm had common
benefit work recognized in each of the major MDLs.
The firm submitted 50,268.00 hours for review by the
FCC. The Fee Committee recognized a total of
47,226.50 hours and $4,230,319.61 in expenses. The
firm contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $45,500,000.00 (13.0000000%), plus reimbursement
of the firm’s $350,000.00 in assessments, and reimbursement of $4,230,319.61 in expenses.
Cohen, Placitella & Roth, PC. Cohen, Placitella &
Roth partner Chris Placitella is a member of the Plaintiffs’ Steering Committee. The firm contributed to the
common benefit of the Ethicon and Bard MDLs, but
their work was primarily for the New Jersey litigation
as they served as co-liaison counsel. They attended
CMCs and participated in the preparation of depositions as well as document review for the Ethicon MDL.
The firm submitted 865.40 hours for review by the

App. 130
FCC. The Fee Committee recognized a total of 614.50
hours and $71,444.10 in expenses. The firm contributed $350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $343,105.00
(0.0980300%), plus reimbursement of the firm’s $350,000.00
in assessments, and reimbursement of $71,444.10 in
expenses.
Davis & Crump, L.L.P. Davis & Crump partner Martin Crump is a member of the Plaintiffs’ Steering Committee and served as Co-Lead of the Cook MDL. The
firm developed experts, obtained Daubert orders, and
later reached a global settlement with the defendant
in the Cook MDL. The firm’s work in Cook with CoLead Counsel resulted in a global settlement, although
there were issues with the terms of the settlement. The
firm was very active in document review—predominantly in AMS and Cook—which comprised more than
half of the firm’s time. Although the firm was active in
wave work in the MDLs and worked on a bellwether
case in BSC, the firm obtained no verdicts and the
firm’s sole BSC bellwether was dismissed prior to trial
on summary judgment. The firm was played an important supportive role across multiple MDLs, including AMS, Boston Scientific, and Bard. The firm
submitted 12,751.95 hours for review by the FCC. The
Fee Committee recognized a total of 11,381.65 hours
and $120,902.90 in expenses. The firm contributed

App. 131
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $2,695,000.00 (0.7700000%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $120,902.90 in expenses.
Davis, Bethune & Jones, L.L.C. The firm contributed to the common benefit of the Bard and BSC
MDLs. The firm participated in discovery, briefing, expert development, trial preparation and the joint trial
of a Bard and BSC product. The firm submitted
2,968.70 hours for review by the FCC. The Fee Committee recognized a total of 1,397.80 hours and $346,652.48
in expenses. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, the firm’s in-person presentation to the Fee Committee, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $551,845.00 (0.1576700%), plus reimbursement of
the firm’s $346,652.48 in expenses.
Doyle Lowther, LLP. The firm contributed to the
common benefit of the BSC and Cook MDLs. The firm
participated in discovery for both the Cook MDL and
for a BSC Wave One case. The firm submitted 1,409.35
hours for review by the FCC. The Fee Committee recognized a total of 1,150.90 hours and $2,751.93 in expenses. The firm did not pay an assessment. Based on
a complete review of the time and expense records, the

App. 132
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $210,026.25
(0.0600075%), plus reimbursement of the firm’s $2,751.93
in expenses.
Edwards Kirby, LLP. The firm contributed to the
common benefit of the Bard MDL. The firm participated in preparation of a Bard bellwether case for trial.
The firm submitted 577.90 hours for review by the
FCC. The Fee Committee recognized a total of 499.50
hours. The firm did not pay an assessment. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $157,360.00
(0.0449600%).
Evers & Preston. The firm contributed to the common benefit of the Ethicon MDL. The firm participated
in document review in the Ethicon MDL. The firm submitted 2,579.65 hours for review by the FCC. The Fee
Committee recognized a total of 2,512.35 hours and the
firm did not submit expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $472,500.00 (0.1350000%).
Fibich, Leebron, Copeland & Briggs. Fibich,
Leebron, Copeland & Briggs partner Erin Copeland is
a member of the Plaintiffs’ Steering Committee. The

App. 133
firm worked with Co-Leads in the BSC, AMS, Bard and
Cook MDLs, providing deposition support and assisting with discovery. The firm submitted 11,888.76 hours
for review by the FCC. The Fee Committee recognized
a total of 10,124.26 hours and $155,301.31 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $4,000,003.00 (1.1428580%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $155,301.31 in expenses.
Fleming Nolen Jez, LLP. Fleming Nolen Jez’s former
partner Laura Yaeger was a member of the Plaintiffs’
Steering Committee and her seat was replaced by Karen Beyea-Schroeder in 2013 when Yaeger left the firm.
Ms. Beyea-Schroeder was also Co-Lead in the Neomedic MDL. The firm contributed to the common benefit of the AMS, BSC, Bard, Cook, and Ethicon MDLs.
The firm participated in discovery related to wave
cases as well as the preparation of depositions in the
BSC, Bard, and Ethicon MDLs. The firm also performed document review for all MDLs. The firm submitted 9,843.86 hours for review by the FCC. The Fee
Committee recognized a total of 8,378.07 hours and
$15,862.79 in expenses. The firm contributed $350,000.00
in assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an

App. 134
allocation of $1,435,000.00 (0.4100000%), plus reimbursement of the firm’s $350,000.00 in assessments,
and reimbursement of $15,862.79 in expenses.
Frankovitch, Anetakis, Simon, Decapio & Pearl,
LLP. Frankovitch, Anetakis, Simon, Decapio & Pearl
partner Carl Frankovitch serves as Plaintiffs’ CoLiaison Counsel and is a member of the Plaintiffs’
Steering Committee. The firm contributed to the common benefit of all the MDLs through his role in leadership. Carl Frankovitch was important to the MDLs as
a member of the West Virginia bar and a trusted liaison in the litigation. The firm also reviewed a large
number of documents in the Cook MDL. The firm
submitted 1,622.90 hours for review by the FCC. The
Fee Committee recognized a total of 1,524.75 hours
and $28,892.78 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
the firm’s in-person presentation to the Fee Committee, and evaluation of the firm’s overall contribution
to the common benefit of the MDLs, the Fee Committee
recommends an allocation of $1,610,000.00 (0.4600000%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $28,892.78 in expenses.
Freese & Goss, PLLC. Freese & Goss partner Tim
Goss is a member of the Plaintiffs’ Steering Committee. In reviewing the firm, the Committee notes the
close working relationship between Freese & Goss and
Matthews and Associates. The firm performed common
benefit work in the AMS, Boston Scientific and Ethicon

App. 135
MDLs. The firm’s contribution to common benefit was
principally through the trial of cases in state and federal court, including a bellwether MDL trial (Lewis)
which resulted in a directed verdict for the Defendant.
The firm tried six cases and resolved an additional two
shortly before trial. The firm also participated in depositions and document review, primarily related to its
state court and wave cases. The trial efforts of the firm
assisted the overall progress of the MDL through continued pressure upon the defendants with focus on
BSC and Ethicon. The firm made contributions to the
common benefit of the MDLs through its state court
work. The firm submitted 49,788.99 hours for review
by the FCC. The FCC recognized a total of 38,744.48
hours and $910,588.03 in expenses. The firm contributed $350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee Affidavit, the firm’s in-person presentation to the Fee Committee, and evaluation of the firm’s overall contribution
to the common benefit of the MDLs, the Fee Committee
recommends an allocation of $14,097,828.50 (4.0279510%),
plus reimbursement of the firms’ $350,000.00 in assessments, and reimbursement of $910,588.03 in expenses.
Girard Gibbs. Girard Gibbs partner AJ De Bartolomeo is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common benefit of
the AMS, BSC, Coloplast, and Ethicon MDLs. The firm
participated in the development of the Plaintiff Fact
Sheet and attended Science Day. The firm submitted
132.08 hours for review by the FCC. The Fee

App. 136
Committee recognized a total of 67.26 hours and
$4,337.32 in expenses. The firm did not pay an assessment. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $15,907.50 (0.0045450%), plus reimbursement of the
firm’s $4,337.32 in expenses.
Goza Honnold. The firm contributed to the common
benefit of the Ethicon MDL. The firm participated in
discovery, expert development and document review in
the Ethicon MDL. The firm submitted 1,483.35 hours
for review by the FCC. The Fee Committee recognized
1,305.60 hours and $17,629.76 in expenses. The firm
did not pay an assessment. Based on a complete review
of the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $410,655.00 (0.1173300%), plus
reimbursement of the firm’s $17,629.76 in expenses.
Greene Ketchum Farrell Bailey & Tweel, L.L.P.
Greene Ketchum Farrell Bailey & Tweel partner Paul
T. Farrell, Jr. serves as Co-Liaison Counsel for the
MDLs and is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common benefit of
the Bard and BSC MDLs. The firm contributed to bellwether trials and performed wave discovery. The firm
submitted 4,912.20 hours for review by the FCC. The
Fee Committee recognized a total of 4,392.40 hours
and $26,653.16 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete

App. 137
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $2,415,000.00
(0.6900000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$26,653.16 in expenses.
Gustafson Gluek. Gustafson Gluek contributed to
the common benefit of the AMS MDL. The firm performed discovery work and briefed issues at the request of leadership. The firm submitted 1,075.50 hours
for review by the FCC. The Fee Committee recognized
a total of 725.00 hours and $1,707.61 in expenses. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $158,900.00
(0.0454000%), plus reimbursement of the firm’s
$1,707.61 in expenses.
Heninger Garrison Davis, LLC. The firm contributed to the BSC MDL. The firm performed document
review for the BSC MDL. The firm submitted 895.85
hours for review by the FCC. The Fee Committee recognized 784.6 hours and $3,639.07 in expenses. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee Affidavit, and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends an allocation of $177,292.50 (0.0506550%),
plus reimbursement of the firm’s $3,639.07 in expenses.

App. 138
Herman Gerel. The firm contributed to the AMS and
BSC MDLs. The firm participated in the preparation
and taking of corporate representative depositions for
the AMS MDL. The firm also performed document review for the BSC MDL. The firm submitted 1,169.05
hours for review by the FCC. The Fee Committee recognized 907.45 hours and $25,861.53 in expenses. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $173,670.00
(0.0496200%), plus reimbursement of the firm’s
$25,861.53 in expenses.
Herman & Katz. The firm contributed to the common
benefit of the AMS MDL. The firm participated in document review and preparation for corporate representative depositions for the AMS MDL. The firm
submitted 837.80 hours for review by the FCC. The Fee
Committee recognized 699.00 hours and $15,810.91 in
expenses. The firm did not pay an assessment. Based
on a complete review of the time and expense records,
the Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs, the
Fee Committee recommends an allocation of $119,175.00
(0.0340500%), plus reimbursement of the firm’s
$15,810.91 in expenses.
Hersh and Hersh. Hersh and Hersh former partner
Amy Eskin is a member of the Plaintiffs’ Steering
Committee, the Executive Committee, and Co-Lead of
the AMS MDL. The firm contributed to the common

App. 139
benefit of the AMS MDL. While employed by Hersh
and Hersh, Ms. Eskin appeared at status conferences,
attended Executive Committee meetings, and drafted
pleadings and discovery motions. The firm contributed
to the Delaware Consolidated AMS litigation, performed document review, and prepared for and contributed to Science Day. The firm submitted 2,448.15 hours
for review by the FCC. The Fee Committee recognized
a total of 1,005.60 hours and $5,114.80 in expenses.
The firm did not pay an assessment. Based on a complete review of the time and expense records, the Fee
Affidavit, the firm’s in-person presentation to the Fee
Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $266,255.50
(0.0760730%), plus reimbursement of the firm’s $5,114.80
in expenses.
Hissey Kientz. Hissey Kientz partner Erik Walker is
a member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the Cook and
Ethicon MDLs. The firm participated in the preparation of the Ethicon Bellwether case, Bellew. The firm
submitted 1,266.10 hours for review by the FCC. The
Fee Committee recognized a total of 1,145.90 hours
and $2,619.91 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $306,978.00 (0.0877080%),
plus reimbursement of the firm’s $350,000.00 in

App. 140
assessments, and reimbursement of $2,619.91 in expenses.
Hunt & Lees, L.C. Hunt & Lees contributed to the
common benefit of the Bard MDL. The firm conducted
a focus group, performed document review, and assisted with trial preparation for a Bard bellwether
case. The firm submitted 278.40 hours for review by
the FCC. The Fee Committee recognized a total of
261.70 hours and $14,895.21 in expenses. The firm did
not pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $82,425.00 (0.0235500%), plus
reimbursement of the firm’s $14,895.21 in expenses.
Irpino Avin & Hawkins Law Firm. The firm contributed to the Bard, Cook and Ethicon MDLs. The firm
participated in discovery, specifically privilege matters,
in the Bard, Cook and Ethicon MDLs. The firm submitted 3,286.90 hours for review by the FCC. The Fee
Committee recognized a total of 3,285.80 hours and a
total of $6,999.14 in expenses. The firm did not pay an
assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $785,074.50 (0.2243070%), plus reimbursement of the firm’s $6,999.14 in expenses.
Johnson Becker, PLLC. Johnson Becker partner
Lisa Gorshe is a member of the Plaintiffs’ Steering

App. 141
Committee. The firm contributed to the common benefit of the AMS and BSC MDLs. The firm participated
in discovery, law and briefing and conducted depositions for the AMS MDL. The firm submitted 3,243.40
hours for review by the FCC. The Fee Committee recognized a total 3,126.40 hours and a total of $34,897.65
in expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and
expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $715,102.50 (0.2043150%), plus reimbursement
of the firm’s $350,000.00 in assessments, and reimbursement of $34,897.65 in expenses.
Junell & Associates. Junell & Associates contributed
to the common benefit of the AMS MDL. The firm participated in settlement negotiations with AMS with
implications for all cases in the MDL and assisted with
drafting a Master Settlement Agreement. The firm
submitted 2,249.76 hours for review by the FCC. The
Fee Committee recognized a total of 526.90 hours. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $165,970.00
(0.0474200%).
Keith Miller Butler. Keith Miller Butler contributed
to the common benefit of the Ethicon MDL. The firm
performed document review, participated in general discovery work, prepared for and conducted depositions,

App. 142
and drafted motions. The firm submitted 4,130.00
hours for review by the FCC. The Fee Committee recognized a total of 3,926.30 hours and $17,151.53 in
expenses. The firm did not pay an assessment. Based
on a complete review of the time and expense records,
the Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$904,638.00 (0.2584680%), plus reimbursement of the
firm’s $17,151.53 in expenses.
Kell Lampin, L.L.C. Kell Lampin contributed to the
common benefit of the AMS, Bard, and Ethicon MDLs.
The firm performed general Ethicon discovery, including preparing for depositions, conducting depositions,
and document review. Additionally, the firm deposed
plaintiffs and case-specific witnesses for a Bard Wave
case, an Ethicon bellwether case, and a compensable
AMS state court case. The firm submitted 1,714.60
hours for review by the FCC. The Fee Committee recognized a total of 1,609.90 hours and $43,541.16 in expenses. The firm did not pay an assessment. Based on
a complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $327,101.25
(0.0934575%), plus reimbursement of the firm’s
$43,541.16 in expenses.
Kline & Specter, P.C. Kline & Specter partner Lee B.
Balefsky is a member of the Plaintiffs’ Steering Committee. Although in a position of leadership in the
MDL, the firm generally preferred to work in state

App. 143
court in their home venue of Philadelphia, Pennsylvania, and expended significant hours fighting removal
of Ethicon cases from state court there. This effort included thousands of hours of document review on the
discrete issue of whether remand was appropriate. The
Mass Tort Program in Philadelphia was an additional
pressure point in the Ethicon litigation. The firm participated in early Ethicon document review as well.
However, the firm’s efforts often conflicted with the cooperative efforts in the MDL, and the firm mandamused the Court, which the Fourth Circuit denied in
turn. In the Philadelphia Mass Tort Program in Pennsylvania State Court, the firm assisted in obtaining
several successful verdicts against Ethicon, although
most of those verdicts came on products where Plaintiffs’ verdicts were already obtained either in the MDL
or in prior state courts. The firm acknowledges that
much of the work product used in their state court trials was obtained from the MDL, and MDL attorneys –
including leadership in the Ethicon MDL, BSC MDL
and others – also participated in the work-up and trial
of those cases. The firm appeared at a number of MDL
corporate witness liability depositions by telephone
but asked no questions at most of them. The firm tried
no cases in the MDL and was not an active participant
in the overall strategy and decision-making of the PSC.
The Fee Committee notes that the firm declined to participate meaningfully in the fee allocation process, declining to provide additional information to specific
entries whose appropriateness was questioned. The
firm has ultimately performed good work in representing their individual clients in state court in

App. 144
Pennsylvania. The firm’s efforts largely consisted of
utilizing common benefit work from the MDL rather
than working to create common benefit to share with
and make available to MDL claimants. The firm submitted 32,270.19 hours for review by the FCC. The
Fee Committee recognized a total of 9,402.19 hours
and $667,584.48 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
the firm’s in-person presentation to the Fee Committee, and evaluation of the firm’s overall contribution
to the common benefit of the MDLs, the Fee Committee
recommends an allocation of $3,745,000.00 (1.0700000%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $667,584.48 in expenses.
Laminack, Pirtle & Martines, L.L.P. Laminack,
Pirtle & Martines contributed to the common benefit
of the BSC MDL. The firm prepared for and conducted
the depositions of corporate witnesses and defense experts for the BSC MDL. The firm submitted 756.75
hours for review by the FCC. The Fee Committee recognized a total of 756.75 hours and $37,286.70 in expenses. The firm did not pay an assessment. Based on
a complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $639,037.00
(0.1825820%), plus reimbursement of the firm’s
$37,286.70 in expenses.

App. 145
The Lanier Law Firm. Lanier Law Firm partner
Rick Meadow is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common benefit of the AMS, BSC, Bard, and Ethicon MDLs. The firm
participated in discovery for wave cases in the Bard,
BSC, and Ethicon MDLs. The firm also performed document review for the BSC MDL. The firm submitted
3,847.04 hours for review by the FCC. The Fee Committee recognized a total of 3,660.64 hours and $15,671.35
in expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and
expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $654,228.75 (0.1869225%), plus reimbursement
of the firm’s $350,000.00 in assessments, and reimbursement of $15,671.35 in expenses.
Levin, Papantonio, Thomas, Mitchell, Rafferty,
Proctor, P.A. Levin, Papantonio, Thomas, Mitchell,
Rafferty, Proctor partner Robert Price is a member of
the Plaintiffs’ Steering Committee. The firm contributed to the AMS, Bard, BSC and Ethicon MDLs. The
firm participated in discovery for wave cases for the
Ethicon MDL. The firm appeared to have excessive
time for many of the work assignments. The firm also
performed document review and research and briefing
for the Bard MDL. The firm submitted 2,938.50 hours
for review by the FCC. The Fee Committee recognized
a total of 1,975.08 hours and $41,058.32 in expenses.
The firm contributed $350,000.00 in assessments.
Based on a complete review of the time and expense

App. 146
records, the Fee Affidavit, and evaluation of the firm’s
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $383,643.75 (0.1096125%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $41,058.32 in expenses.
Levin Simes, LLP. Levin Simes partner Amy Eskin
started litigation against AMS before the creation of
the MDL and was named Co-Lead of the AMS MDL
upon its creation as well as a member of the Executive
Committee and the Plaintiffs’ Steering Committee.
The firm participated in the preparation of the strategy for proving liability in the AMS MDL. The firm also
participated in depositions and document review in the
AMS MDL. Despite the firm’s leadership position in
AMS, Levin Simes’ commitment to the litigation
waned at times and other firms were forced to increase
their participation. There were depositions taken by
the firm which had to be re-taken in the MDL because
the original deposition was taken for specific cases and
not for MDL purposes. There were no trials in the AMS
MDL, and the firm had limited work in the other
MDLs. The firm submitted 26,072.65 hours for review
by the FCC. The Fee Committee recognized a total of
14,298.14 hours and $484,095.89 in expenses. The firm
contributed $400,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of

App. 147
$5,510,001.00 (1.5742860%), plus reimbursement of
the firm’s $400,000.00 in assessments, and reimbursement of $484,095.89 in expenses.
Lockridge Grindal Nauen. Lockridge Grindal
Nauen partner Yvonne Flaherty was appointed to the
Plaintiffs’ Steering Committee. The firm primarily contributed to the AMS litigation. The firm conducted document review, took AMS liability depositions, worked
up experts, and worked with leadership and the AMS
team to develop and implement a bellwether strategy.
As the AMS litigation moved towards trial, the firm assisted with deposition designations. The firm was also
responsible for managing the Minnesota State court
litigation as Co-Lead Counsel and briefed and argued
issues related to release of the Ambroff documents, a
motion which occurred prior to the MDL hearing and
provided motion papers and transcripts to MDL leadership in advance of a comparable MDL hearing. In the
BSC litigation, the firm assisted the development of expert witnesses. In Ethicon, the firm responded to calls
for assistance in managing the volume of production
and deposition preparation. The firm submitted
17,487.30 hours for review by the FCC. The Fee Committee recognized 15,871.50 hours and $79,703.00 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and
expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and evaluation of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee recommends
an allocation of $6,405,000.00 (1.8300000%), plus

App. 148
reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $79,703.00 in expenses.
Lopez McHugh. The firm contributed to the common
benefit of the BSC, Bard, and AMS MDLs. The firm primarily participated in the workup of two early BSC potential bellwethers, Simmons and Meadows. The firm
submitted 264.78 hours for review by the FCC. The Fee
Committee recognized a total of 255.58 hours and
$3,293.31 in expenses. The firm did not pay an assessment. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $43,601.25 (0.0124575%), plus reimbursement of the
firm’s $3,293.31 in expenses.
Lyon Firm. The firm contributed to the common benefit of the Ethicon MDL. The firm performed document
review for the Ethicon MDL. The firm submitted
307.00 hours for review by the FCC. The Fee Committee recognized a total of 232.00 hours. The firm did not
pay an assessment. Based on a complete review of the
time and expense records, the Fee Affidavit, and evaluation of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee recommends
an allocation of $43,601.25 (0.0124575%).
Matthews & Associates. Matthews & Associates
partner David Matthews is a member of the Plaintiffs’
Steering Committee. In reviewing the firm, the Committee notes the close working relationship between
Freese & Goss and Matthews and Associates. The firm

App. 149
performed common benefit work in the AMS, Boston
Scientific and Ethicon MDLs. The firm’s contribution
to common benefit was principally through the trial of
cases in state and federal court, including a bellwether
MDL trial (Lewis) which resulted in a directed verdict
for the Defendant. The firm tried six cases and resolved
an additional two shortly before trial. The firm also
participated in depositions and document review, primarily related to its state court and wave cases. The
trial efforts of the firm assisted the overall progress of
the MDL through continued pressure upon the defendants with focus on BSC and Ethicon. The firm made
contributions to the common benefit of the MDLs
through its state court work. The firm submitted
8,140.00 hours for review by the FCC. The FCC recognizes a total of 6,602.00 hours and $376,254.76 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $4,122,174.00 (1.1777640%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $376,254.76 in expenses.
Mazie Slater Katz & Freeman. Mazie Slater Katz &
Freeman contributed to the common benefit of the Ethicon MDL. The firm was one of the first to bring TVM
lawsuits and focused almost entirely upon litigation in
New Jersey state court. In pursuit of the New Jersey
litigation, the firm undertook discovery, document

App. 150
review, trial preparation and trial. The firm tried the
Gross case in New Jersey and that work has been recognized. The Fee Committee notes that multiple firms
submitted substantial time related to the trial of the
Gross case. The firm’s work contributed to the common
benefit of the MDL in the pursuit of claims against
Ethicon and in the availability of documents discovered in the New Jersey litigation. For a period of time
there was reluctance by the firm to make expert witnesses available for the common benefit of the MDL
without seeking a personal financial arrangement
with the specific plaintiff ’s firm involved in the request. The firm submitted 29,752.27 hours for review
by the FCC. The Fee Committee recognized a total of
19,482.75 hours and $1,815,034.41 in expenses. The
fee and expense submission of the firm were very difficult for the committee to examine and much effort was
expended by the Fee Committee in evaluating the submission of the firm. The firm did not pay an assessment. Based on a complete review of the time and
expense records, the Fee Affidavit, the firm’s in-person
presentation to the Fee Committee, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $6,020,000.00 (1.7200000%), plus reimbursement of the firm’s $1,815,034.41 in expenses.
Meyers & Flowers, LLC. Meyers & Flowers partner
Pete Flowers is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the common benefit of the Bard, BSC and Ethicon MDLs. The firm participated in discovery for wave cases in the Bard, BSC

App. 151
and Ethicon MDLs. The firm also performed document
review for the Bard, BSC and Ethicon MDLs. The
firm submitted 2,633.38 hours for review by the
FCC. The Fee Committee recognized 1,924.80 hours
and $32,328.06 in expenses. The firm contributed
$100,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $454,728.75 (0.1299225%),
plus reimbursement of the firm’s $100,000.00 in assessments, and reimbursement of $32,328.06 in expenses.
Miller Firm, LLC. Miller Firm partner Michael Miller is a member of the Plaintiffs’ Steering Committee.
The firm contributed to the common benefit of the
MDLs through its payment of the MDL assessment.
The firm contributed $350,000.00 in assessments. The
Fee Committee recommends reimbursement of the
firm’s $350,000.00 in assessments.
The Monsour Law Firm. Monsour Law Firm partner
Douglas Monsour is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common
benefit of the MDLs, with a focus in the Ethicon and
Boston Scientific MDLs. The firm was trial counsel in
two Boston Scientific cases—the first in Massachusetts
state court which resulted in a defense verdict, and
then as co-lead counsel in the first consolidated sling
trial in the MDL in Boston Scientific in the Southern
District of West Virginia, Judge Berger presiding,
which resulted in a verdict for plaintiffs that was

App. 152
affirmed on appeal by the Fourth Circuit. The firm also
contributed to the strategic development of the cases
against BSC and Ethicon, assisting in training meetings for wave counsel that often had less exposure and
experience in these cases. The firm also conducted corporate liability witness depositions in Boston Scientific
and Ethicon, some of which were important to the overall litigation. The firm provided leadership in the area
of expert witnesses for Plaintiffs across MDLs. The
firm submitted 14,144.85 hours for review by the FCC.
The Fee Committee recognized a total of 13,267.75
hours and $232,499.22 in expenses. The firm contributed $350,000.00 in assessments. Based on a complete
review of the time and expense records, the Fee Affidavit, and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends an allocation of $4,965,002.00 (1.4185720%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $232,499.22 in expenses.
Moody Law Firm, Inc. Moody Law Firm partner
Willard J. Moody, Jr. is a member of the Plaintiffs’
Steering Committee. The firm contributed to the common benefit of the AMS and BSC MDLs. The firm performed document review. The firm also deposed AMS
and BSC witnesses. The firm submitted 4,618.06 hours
for review by the FCC. The Fee Committee recognized
a total of 4,125.97 hours and $10,555.33 in expenses.
The firm contributed $250,000.00 in assessments.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the firm’s

App. 153
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $844,312.00 (0.2412320%), plus reimbursement of
the firm’s $250,000.00 in assessments, and reimbursement of $10,555.33 in expenses.
Morgan & Morgan, PA. Morgan & Morgan partner
Michael Goetz is a member of the Plaintiffs’ Steering
Committee. The firm contributed to the Bard MDL.
The firm participated in the depositions of plaintiffs
and treating physicians in the Bard MDL. The firm
submitted 521.54 hours for review by the FCC. The Fee
Committee recognized 513.54 hours and $961.36 in expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and
expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $101,771.25 (0.0290775%), plus reimbursement
of the firm’s $350,000.00 in assessments, and reimbursement of $961.36 in expenses.
Mostyn Law Firm P.C. Mostyn Law Firm partner
Steve Mostyn was a Co-lead in the Coloplast MDL and
a member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the BSC and
Coloplast MDLs. The firm conducted discovery and liability work-up for the BSC MDL. The firm also helped
negotiate settlements in the Coloplast MDL that benefitted other firms in the MDL. The firm submitted
3,058.05 hours for review by the FCC. The Fee Committee recognized a total of 677.65 hours and $4,531.84
in expenses. The firm contributed $350,000.00 in

App. 154
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $213,465.00 (0.0609900%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $4,531.84 in expenses.
Motley Rice, LLC. Motley Rice, LLC played an active
role in the state and federal litigation of transvaginal
mesh from its inception. Motley Rice partner Fred
Thompson was appointed by Judge Goodwin Coordinating Co-Lead for all transvaginal mesh MDLs and
as a member of the Plaintiffs’ Steering Committee and
Executive Committee. Motley Rice partner Fidelma
Fitzpatrick was appointed as Co-Lead Counsel for the
AMS MDL and as a member of the Plaintiffs’ Steering
Committee. The firm managed litigation in state and
federal court, conducted discovery, tried cases, coordinated work among the MDLs, briefed and argued appeals, and negotiated and resolved cases. The firm also
had wave cases. Prior to formation of the MDL litigation, Motley Rice engaged in investigation and litigation of Boston Scientific cases in Massachusetts state
court and AMS cases in Delaware and Minnesota. Motley Rice developed and managed general liability experts, including reports, depositions, and briefing.
Motley Rice secured the first MDL verdict against Ethicon on a TVT-O product. The firm had common benefit
work recognized in each of the major MDLs. The firm
submitted 87,731.44 hours for review by the FCC. The
Fee Committee recognized a total of 60,253.34 hours

App. 155
and $2,927,113.91 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
the firm’s in-person presentation to the Fee Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $49,000,000.00
(14.0000000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$2,927,113.91 in expenses.
Mueller Law Firm. Mueller Law Firm partner Mark
Mueller is a member of the Plaintiffs’ Steering Committee and was Co-Lead of the Coloplast MDL. The
firm was Co-chair of the Science and Experts Committee which was functioning in the early stages of the litigation. The firm devoted time and resources to science
and expert projects, principally in the Bard and AMS
MDLs. The firm pursued and obtained experts for the
litigation, and was involved in developing such experts
and preparing reports for substantial numbers of experts. The firm is credited with the discovery and work
up of the MSDS related to Bard polypropylene and
helped pursue its use in the litigation. This piece of evidence contributed to the success of the litigation. The
firm’s time submission to the Committee was of poor
quality and posed a challenge for the Committee which
required investigation by the Committee to determine
the common benefit time and expense. The firm submitted 35,922.39 hours for review by the FCC. The Fee
Committee recognized 11,846.40 hours and $263,115.43
in expenses. The firm contributed $350,000.00 in

App. 156
assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, the firm’s inperson presentation to the Fee Committee, and evaluation of the firm’s overall contribution to the common
benefit of the MDLs, the Fee Committee recommends
an allocation of $4,760,000.00 (1.3600000%), plus reimbursement of the firm’s $350,000.00 in assessments,
and reimbursement of $263,115.43 in expenses.
NastLaw, L.L.C. NastLaw partner Dianne Nast is a
member of the Plaintiffs’ Steering Committee. The
firm contributed to the common benefit of the AMS,
BSC, Coloplast, and Ethicon MDLs. The firm performed document review, research, and deposition
work for the Ethicon MDL. The firm submitted 2,165.10
hours for review by the FCC. The Fee Committee recognized a total of 2,102.30 hours and $20,515.89 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $399,813.75 (0.1142325%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $20,515.89 in expenses.
Nations Law Firm. The firm contributed to the common benefit of the BSC MDL. The firm participated in
the deposition of a BSC bellwether plaintiff. The firm
submitted 98.60 hours for review by the FCC. The Fee
Committee recognized a total of 65.50 hours and
$30,231.86 in expenses. The firm did not pay an assessment. Based on a complete review of the time and

App. 157
expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $15,487.50 (0.0044250%), plus reimbursement
of the firm’s $30,231.86 in expenses.
Neblett, Beard & Arsenault. Neblett, Beard & Arsenault partner Richard Arsenault is a member of the
Plaintiffs’ Steering Committee. The firm contributed to
the common benefit of the AMS, Bard, BSC, Cook and
Ethicon MDLs. The firm participated in discovery and
document review for the Cook and Ethicon MDLs.
The firm submitted 837.27 hours for review by the
FCC. The Fee Committee recognized 765.12 hours and
$8,523.52 in expenses. The firm contributed $350,000.00
in assessments. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $137,340.00 (0.0392400%), plus reimbursement of the firm’s $350,000.00 in assessments, and
reimbursement of $8,523.52 in expenses.
The Oliver Law Group, P.C. Oliver Law Group partner Alyson Oliver is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common
benefit of the AMS, Cook, and Ethicon MDLs. The firm
completed discovery for Ethicon wave cases and performed document review. The firm submitted 2,510.10
hours for review by the FCC. The Fee Committee recognized a total of 2,259.30 hours and $17,040.78 in
expenses. The firm contributed $175,000.00 in assessments. Based on a complete review of the time and

App. 158
expense records, the Fee Affidavit, and evaluation of
the firm’s overall contribution to the common benefit of
the MDLs, the Fee Committee recommends an allocation of $436,170.00 (0.1246200%), plus reimbursement
of the firm’s $175,000.00 in assessments, and reimbursement of $17,040.78 in expenses.
Osborne & Associates. Osborne & Associates partner Joseph Osborne is a member of the Plaintiffs’
Steering Committee. The firm contributed to the BSC
and Ethicon MDLs. The firm participated in bellwether cases for the BSC and Ethicon MDLs. The firm
also participated in document review for the BSC
MDL. The firm submitted 1,247.20 hours for review by
the FCC. The Fee Committee recognized 740.80 hours.
The firm did not pay an assessment. Based on a complete review of the time and expense records, the Fee
Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $533,347.50
(0.1523850%).
Paul Sadler Law Firm. The firm performed common
benefit work in the CR Bard MDL. The firm’s contribution to common benefit focused upon the taking of depositions in MDL wave cases and the taking of expert
depositions in the MDL. The firm also took the lead in
the deposition of the Chief Operating Officer of Bard.
The firm submitted 315.10 hours for review by the
FCC. The Fee Committee recognized a total of 211.10
hours and $2,332.07 in expenses. The firm did not pay
an assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation

App. 159
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $130,704.00 (0.0373440%), plus reimbursement of the firm’s $2,332.07 in expenses.
Perdue & Kidd. Perdue & Kidd contributed to the
common benefit of the AMS, Bard, Boston Scientific
and Ethicon MDLs. The firm performed discovery,
deposition and bellwether trial work in the MDLs.
The firm took the deposition of Chevron Phillips
Sumika in furtherance of issues regarding the Material Safety Data Sheet for Marlex Polypropylene. The
firm submitted 3,337.05 hours for review by the FCC.
The Fee Committee recognized a total of 3,295.80
hours and $68,707.62 in expenses. The firm did not
pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $1,785,000.00 (0.5100000%),
plus reimbursement of the firm’s $68,707.62 in expenses.
Piscitelli Law Firm. The Piscitelli Law Firm contributed to the common benefit of the Ethicon MDL. The
firm performed document review, prepared for depositions, and deposed Ethicon sales representatives for
two wave cases. The firm submitted 58.10 hours for review by the FCC. The Fee Committee recognized a total
of 54.30 hours. The firm did not pay an assessment.
Based on a complete review of the time and expense
records, the Fee Affidavit, and evaluation of the firm’s

App. 160
overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $12,836.25 (0.0036675%).
Potts Law Firm. Potts Law Firm partner Derek Potts
is a member of the Plaintiffs’ Steering Committee, Executive Committee, and is a Co-Lead Plaintiff ’s Counsel in the Bard and Neomedic MDLs. Potts Law Firm
was an active participant early in the formation of the
TVM MDL. This early work included time in document
review and work in anticipation of Bard sling trials.
The firm also took Bard corporate depositions. Further,
the firm, in connection with several other firms, gathered cases at the request on AMS to assist in resolution
under AMS’s resolution program. In the Neomedic
MDL, the firm identified the limited financial resources of the defendant and worked to pursue settlement opportunities for plaintiffs. Most recently, the
firm worked at the Court’s request in resolving cases
with pro se plaintiffs or where plaintiff ’s counsel has
few filings. Mr. Potts’ work in resolving cases has aided
in reducing the number of pending cases on the active
docket. The firm submitted 29,172.24 hours for review
by the FCC. The Fee Committee recognized a total of
19,287.84 hours and $210,083.09 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to the
Fee Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $6,975,003.00
(1.9928580%), plus reimbursement of the firm’s

App. 161
$350,000.00 in assessments, and reimbursement of
$210,083.09 in expenses.
Pritzker Hageman, P.A. The firm contributed to the
common benefit of the Cook and AMS MDLs. The firm
primarily participated in the AMS Minnesota Consolation and performed document review for the Cook
MDL. The firm submitted 178.10 hours for review by
the FCC. The Fee Committee recognized a total of
116.10 hours and $6,455.24 in expenses. The firm did
not pay an assessment. Based on a complete review of
the time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $25,436.25 (0.0072675%),
plus reimbursement of the firm’s $6,455.24 in expenses.
Reilly Pozner. Reilly Pozner former partner Joseph
Zonies is a member of the Plaintiffs’ Steering Committee. The firm participated in discovery, briefing, expert
matters, document review and bellwether and consolidated cases in the Ethicon MDL. The firm submitted
6,390.30 hours for review by the FCC. The Fee Committee recognized 7,148.30 hours and $225,913.39 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $2,920,001.00 (0.8342860%), plus reimbursement of

App. 162
the firm’s $350,000.00 in assessments, and reimbursement of $225,913.39 in expenses.
Restaino Law, LLC. The firm performed common
benefit work in the Ethicon MDL. The firm participated in the review of medical literature and assisted
in the taking of expert depositions. The firm submitted
1,913.60 hours for review by the FCC. The Fee Committee recognized 1,323.60 hours. The firm did not pay
an assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $264,521.25 (0.0755775%).
Robins Cloud, LLP. Robins Cloud partner Bill Robins is a member of the Plaintiffs’ Steering Committee.
The firm performed common benefit work in the Ethicon MDL. The firm participated in discovery and depositions of Ethicon corporate witnesses. The firm
submitted 522.60 hours for review by the FCC. The Fee
Committee recognized 502.90 hours and $33,552.71 in
expenses. The firm contributed $350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $145,390.00 (0.0415400%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $33,552.71 in expenses.
Robinson Calcagnie, Inc. Robinson Calcagnie former partner Karen Menzies is a member of the

App. 163
Plaintiffs’ Steering Committee. The firm performed
common benefit work in MDLs. The firm participated
in meetings of the Plaintiffs’ Steering Committee.
The firm submitted 278.20 hours for review by the
FCC. The Fee Committee recognized 32.00 hours
and $13,518.39 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $7,560.00 (0.0021600%),
plus reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $13,518.39 in expenses.
Salim Beasley, L.L.C. Salim Beasley partner Robert
Salim is a member of the Plaintiffs’ Steering Committee and serves as Co-Lead for the Coloplast MDL. The
firm contributed to the common benefit of all the pelvic
mesh MDLs, with particular focus in Coloplast and
Ethicon MDLs. As Co-Lead for the Coloplast MDL, the
firm also worked on an early settlement resolution program. The firm conducted Coloplast discovery and
briefing. The firm submitted 7,102.72 hours for review
by the FCC. The Fee Committee recognized a total of
5,729.07 hours and $107,219.58 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $2,170,000.00
(0.6200000%), plus reimbursement of the firm’s

App. 164
$350,000.00 in assessments, and reimbursement of
$107,219.58 in expenses.
The Sanders Firm. Sanders Firm partner Victoria
Maniatis is a member of Plaintiffs’ Steering Committee. The firm participated in discovery in the AMS and
Ethicon MDLs, science and expert matters in the AMS
MDL, and document review in the AMS, Ethicon and
BSC MDLs. The firm submitted 1,454.70 hours for review by the FCC. The Fee Committee recognized a total
of 672.30 hours and $102,554.64 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$101,773.00 (0.0290780%), plus reimbursement of the
firm’s $350,000.00 in assessments, and reimbursement
of $102,554.64 in expenses.
Saunders & Walker, PA. Saunders & Walker partner
Joseph Saunders is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common
benefit of the Ethicon MDL. The firm worked in obtaining and reviewed documents from the Food and Drug
Administration. The firm submitted 190.05 hours for
review by the FCC. The Fee Committee recognized a
total of 125.45 hours and $134.64 in expenses. The firm
contributed $100,000.00 in assessments. Based on a
complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee

App. 165
Committee recommends an allocation of $29,662.50
(0.0084750%), plus reimbursement of the firm’s
$100,000.00 in assessments, and reimbursement of
$134.64 in expenses.
Schroeder Law Office. Schroeder Law Office partner
Karen H. Beyea-Schroeder is a member of the Plaintiffs’ Steering Committee and Co-Lead of the Neomedic
MDL. As a Co-Lead for the Neomedic MDL, she investigated distributor liability causes of action and distributor policies, negotiated lien waivers with Medicare
and Rawlings, and negotiated lien resolution services
to be provided at no expense. Schroeder Law Office also
contributed to negotiating the Neomedic settlement release and substitution process to increase settlement
participation. The firm submitted 20.40 hours for review by the FCC. The Fee Committee recognized a total
of 20.40 hours (the majority of Ms. Schroeder’s time
was submitted while she was an attorney at Fleming,
Nolen & Jez). The firm did not pay an assessment.
Based on a complete review of the time, the Fee Affidavit, and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends an allocation of $4,830.00 (0.0013800%).
Seeger Weiss, LLP. Seeger Weiss partner Jeffrey
Grand is a member of the Plaintiffs’ Steering Committee. The firm contributed to the common benefit of the
Ethicon and Bard MDLs, but their work was primarily
for the New Jersey litigation as they served as coliaison counsel. The firm participated in depositions
and worked up bellwether trial candidates in the New
Jersey litigation. The firm submitted 608.50 hours for

App. 166
review by the FCC. The Fee Committee recognized a
total of 543.25 hours and $98,011.34 in expenses. The
firm did not pay an assessment. Based on a complete
review of the time and expense records, the Fee Affidavit, and evaluation of the firm’s overall contribution to
the common benefit of the MDLs, the Fee Committee
recommends an allocation of $101,771.25 (0.0290775%),
plus reimbursement of the firm’s $98,011.34 in expenses.
Simmons Browder Gianaris Angelides & Barnerd,
L.L.C. Simmons Browder Gianaris Angelides &
Barnerd partner John Foley is a member of the Plaintiffs’ Steering Committee. The firm contributed to the
common benefit of the Cook and Ethicon MDLs. The
firm performed document review and deposition work
for the Ethicon MDL. The firm submitted 3,405.65
hours for review by the FCC. The Fee Committee recognized a total of 2,987.67 hours and $23,049.47 in
expenses. The firm contributed $250,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $393,498.00 (0.1124280%), plus reimbursement of
the firm’s $250,000.00 in assessments, and reimbursement of $23,049.47 in expenses.
Simmons Hanly Conroy, L.L.C. Simmons Hanly
Conroy partner Jayne Conroy is a member of the Plaintiffs’ Steering Committee. The firm contributed to the
common benefit of the Cook MDL. The firm performed
document review. The firm submitted 4,907.05 hours

App. 167
for review by the FCC. The Fee Committee recognized
a total of 351.90 hours and $18,754.07 in expenses. The
firm contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records, the
Fee Affidavit, and evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee
Committee recommends an allocation of $100,100.00
(0.0286000%), plus reimbursement of the firm’s
$350,000.00 in assessments, and reimbursement of
$18,754.07 in expenses.
Sommers Schwartz, P.C. Sommers Schwartz contributed to the common benefit of the Ethicon MDL.
The firm performed document review, prepared for
depositions, and deposed plaintiffs and case-specific
witnesses for an Ethicon bellwether case. The firm submitted 267.15 hours for review by the FCC. The Fee
Committee recognized a total of 214.90 hours and
$5,042.70 in expenses. The firm did not pay an assessment. Based on a complete review of the time and expense records, the Fee Affidavit, and evaluation of the
firm’s overall contribution to the common benefit of the
MDLs, the Fee Committee recommends an allocation
of $36,330.00 (0.0103800%) and reimbursement of
$5,042.70 in expenses.
Taylor Martino. The firm contributed to the common
benefit of the AMS, BSC, and Ethicon MDLs. The firm
participated in document review in the AMS, BSC, and
Ethicon MDLs. The firm submitted 83.30 hours for review by the FCC. The Fee Committee recognized a total
of 17.00 hours and $49,903.58 in expenses. The firm
did not pay an assessment. Based on a complete review

App. 168
of the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $4,016.25 (0.0011475%), plus
reimbursement of the firm’s $49,903.58 in expenses.
Turning Point Litigation – Mullins Duncan Harrell & Russell PLLC. The firm contributed to the
common benefit of the Bard MDL by providing trial
support for the first bellwether trials. The firm also
participated in discovery work-up for wave cases in the
Bard MDL. The firm submitted 10,620.50 hours for review by the FCC. The Fee Committee recognized a total
of 5,775.10 hours and $10,799.05 in expenses. The firm
did not pay an assessment. Based on a complete review
of the time and expense records, the Fee Affidavit, the
firm’s in-person presentation to the Fee Committee,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $401,544.50 (0.1147270%),
plus reimbursement of the firm’s $10,799.05 in expenses.
Verhine & Verhine. The firm contributed to the common benefit of the Bard and BSC MDLs. The firm participated in the workup of wave cases in the Bard and
BSC MDLs. The firm submitted 182.35 hours for review by the FCC. The Fee Committee recognized a total
of 119.35. The firm did not pay an assessment. Based
on a complete review of the time and expense records,
the Fee Affidavit, and evaluation of the firm’s overall
contribution to the common benefit of the MDLs,

App. 169
the Fee Committee recommends an allocation of
$25,436.25 (0.0072675%).
Wagstaff & Cartmell, LLP. Wagstaff & Cartmell,
LLP’s initial work on transvaginal mesh litigation predated the formation of the MDLs and continues to
date. Wagstaff & Cartmell partner Tom Cartmell was
appointed as member of the Executive Committee, the
Plaintiffs’ Steering Committee and Co-Lead Counsel
for the Ethicon litigation. Wagstaff & Cartmell partner
Jeff Kuntz served as the leader of the Ethicon Expert
and Bellwether Committees during the Ethicon MDL.
The Firm worked up experts for the Ethicon MDL and
other manufacturers. The Firm also successfully defended those experts from Daubert challenges. Wagstaff & Cartmell took depositions of opposing experts,
corporate representatives, and sales representatives in
the Ethicon, Bard and AMS litigation. The Firm organized and led teams of document reviewers. Wagstaff
& Cartmell tried more cases to verdict as lead or colead counsel than any other plaintiff ’s firm involved in
the MDL. The Firm tried the first Ethicon bellwether
case and participated in the first bellwether trial resulting in a plaintiffs’ verdict in the MDL in a sling
case. The firm submitted 64,801.00 hours for review by
the FCC. The Fee Committee recognized a total of
56,621.10 hours and $1,634,637.93 in expenses. The
firm contributed $350,000.00 in assessments. Based on
a complete review of the time and expense records,
the Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs,

App. 170
the Fee Committee recommends an allocation of
$38,500,000.00 (11.0000000%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $1,634,637.93 in expenses.
Waters & Kraus, L.L.P. Waters & Kraus contributed
to the common benefit of the Bard MDL. The firm completed a Daubert briefing project at the request of leadership. Additionally, the firm performed document
review and legal research for the Bard MDL. The firm
submitted 506.00 hours for review by the FCC. The Fee
Committee recognized a total of 414.60 hours. The firm
did not pay an assessment. Based on a complete review
of the time and expense records, the Fee Affidavit, and
evaluation of the firm’s overall contribution to the common benefit of the MDLs, the Fee Committee recommends an allocation of $111,440.00 (0.0318400%).
Watts Guerra, LLP. The firm contributed to the AMS,
BSC Bard and Ethicon MDLs. The firm participated in
discovery for wave cases in the BSC, Bard and Ethicon
MDLs. The firm submitted 2,985.75 hours for review
by the FCC. The Fee Committee recognized 2,837.70
hours and $16,457.55 in expenses. The firm did not pay
an assessment. Based on a complete review of the time
and expense records, the Fee Affidavit, and evaluation
of the firm’s overall contribution to the common benefit
of the MDLs, the Fee Committee recommends an allocation of $484,627.50 (0.1384650%), plus reimbursement of the firm’s $16,457.55 in expenses.
Wexler Wallace, LLP. Wexler Wallace partner Ed
Wallace is a member of the Plaintiffs’ Steering

App. 171
Committee. Out of necessity during the course of the
AMS MDL, the firm undertook an increasing role in
the management of the MDL, acted as a lead of the
MDL. The firm participated and was relied on by AMS
leadership in the MDL. The firm also participated in
spoliation briefing to the Court. Wexler Wallace was involved with the TVM litigation from its inception and
contributed in early discovery, document review, corporate witness depositions, expert development and was
co-lead counsel on two early bellwether trials for two
manufacturers. The firm performed tasks across all of
the manufacturer MDLs as requested by leadership.
The firm submitted 40,763.29 hours for review by
the FCC. The Fee Committee recognized a total of
33,079.96 hours and $420,171.37 in expenses. The firm
contributed $350,000.00 in assessments. Based on a
complete review of the time and expense records,
the Fee Affidavit, the firm’s in-person presentation to
the Fee Committee, and evaluation of the firm’s overall contribution to the common benefit of the MDLs,
the Fee Committee recommends an allocation of
$11,830,000.00 (3.3800000%), plus reimbursement of
the firm’s $350,000.00 in assessments, and reimbursement of $420,171.37 in expenses.
Wilson Law, PA. Wilson Law partner Kimberly Wilson is a member of the Plaintiffs’ Steering Committee.
The firm contributed to the common benefit of the Ethicon and Cook MDLs. The firm participated in discovery for wave cases in the Ethicon MDL. The firm
submitted 344.01 hours for review by the FCC. The
Fee Committee recognized a total of 313.20 hours

App. 172
and $1,421.43 in expenses. The firm contributed
$350,000.00 in assessments. Based on a complete review of the time and expense records, the Fee Affidavit,
and evaluation of the firm’s overall contribution to the
common benefit of the MDLs, the Fee Committee recommends an allocation of $107,390.50 (0.0306830%), plus
reimbursement of the firm’s $350,000.00 in assessments, and reimbursement of $1,421.43 in expenses.
Thank you for your prompt attention to the matters
addressed herein.
Very truly yours,
/s/ Henry G. Garrard, III
Henry G. Garrard, III
Chairperson
Renee Baggett
/s/
by HG
Renee Baggett
with permission

/s/

/s/

Riley J. Burnett, Jr.
by HG
Riley L. Burnett
with permission
Thomas P. Cartmell
by HG
Thomas P. Cartmell
with permission

Yvonne M. Flaherty
/s/
by HG
Yvonne M. Flaherty
with permission

/s/

/s/

Carl N. Frankovitch
by HG
Carl N. Frankovitch
with permission
William H. McKee, Jr.
by HG
William H. McKee, Jr.
with permission

App. 173
Clayton Clark
/s/
by HG
Clayton A. Clark
with permission

Joseph F. Rice
/s/
by HG
Joseph F. Rice
with permission

App. 174
[LOGO] BLASINGAME ▸ BURCH ▸ GARRARD
& ASHLEY, P.C.
Attorneys at Law
PO Box 832
Athens, Georgia 30603
440 College Avenue, Suite 320
Athens, GA 30601
Phone 706.354.4000
Fax 706.353.0673
1021 Parkside Commons
Suite 104
Greensboro, GA 30642
Phone 706.453.7139
Fax 706.453.7842
Henry G. Garrard, III
hgarrard@bbga.com
September 13, 2018
Sent Via E-Mail
Ben Anderson
Anderson Law Offices, LLC
ben@andersonlawoffices.net;
Raquel@andersonlawoffices.net
RE: Transvaginal Mesh MDL Common Benefit
Fee and Cost Committee Preliminary Written
Recommendation
Dear Mr. Anderson:
We are writing to you on behalf of the Common Benefit
Fee and Cost Committee appointed by the Honorable
Joseph R. Goodwin with regard to MDL Nos. 2187,
2325, 2326, 2327, 2387, 2440, and 2511 (the “FCC”). At
this time, the FCC has completed its Initial Review of

App. 175
your fee submissions and your final time and expense
submission as accompanied by your affidavit in accordance with the Fee Committee Protocol established by
the Court. For those firms who sought an opportunity
to be heard regarding common benefit fees and expenses, those meetings have been completed. There
were approximately 900,000 hours submitted to the
FCC for review. The FCC has carefully reviewed each
submission and has met with the co-leads of the MDL
to discuss the contributions made by each firm to the
MDL common benefit. For those firms that did not object to the hours and expense as delivered to you, the
FCC deems that you have no objection regarding your
hours or expenses for consideration.
The FCC now issues its Preliminary Written Recommendation with regard to the allocation of fees and expenses. The FCC currently recommends that your firm
receive consideration for 22,209.68 hours of time and
receive $7,210,000.00 for common benefit. Additionally, the FCC currently recommends that your firm receive $666,993.81 in reimbursement for held expenses
that were for the common benefit of MDL claimants,
plus the reimbursement of $350,000.00 which was paid
by your firm as an assessment in the MDL. The dollar
amounts identified herein for the compensation for
your contribution to the common benefit are based on
the assumption by the FCC that there will be approximately $344,000,000.00 available for payment of common benefit contributions at the time of the first
distribution. The FCC also anticipates an additional
amount of approximately $49,000,000.00 will be paid

App. 176
for the reimbursement of held costs and MDL assessments in the first distribution.
The amounts discussed herein are the FCC’s preliminary recommendation and are subject to change prior
to the submission of the FCC’s final written recommendation to the external review specialist, The Honorable
Dan Stack. Please note that all amounts are proposed
and are subject to the consideration and final decision
of the MDL Court. The FCC anticipates that there will
be subsequent distributions in the future. The FCC anticipates requesting that 70% of any additional funds
received be distributed by the Court pro rata in accordance with the allocations made to applicant firms. In
addition, the FCC anticipates that it will request that
30% of any additional funds be held pending further
Order of the Court.
Each firm is receiving the basis for its allocation in accordance with the Fee Committee Protocol. Further, in
accordance with the Fee Committee Protocol, attached
to this letter are (1) the explanation of the basis of the
allocation for your firm, and (2) an explanation of the
time and expenses allowed by the FCC for every firm
seeking compensation for common benefit. In making
its Preliminary Written Recommendation, the FCC considered, over a period of two years, the factors set forth
in the Orders regarding common benefit, including
Section B (Criteria for Common Benefit Applications)
of the Court’s Order establishing common benefit compensation criteria for each of the firms seeking compensation. The FCC previously delivered to you those
hours and expenses that the FCC identified as being

App. 177
disallowed for purposes of consideration for compensation through its delivery of Exhibits A, B and expenses
at the conclusion of its Initial Review. The number of
hours under consideration as common benefit was only
one part of the evaluation process in regard to the
FCC’s Preliminary Written Recommendation. Based
on the requirements of the Fee Committee Protocol,
the FCC evaluated each firm using the same criteria
and exercised its discretion in evaluating the degree to
which the work and expense incurred by each firm furthered the common benefit of the litigation. To the extent a firm requested an opportunity to be heard by the
FCC, the FCC has considered the information presented by firms and has incorporated its deliberations
and decisions into its Preliminary Written Recommendation. Throughout its evaluation, the FCC was primarily focused on evaluating the contribution of each
common benefit attorney to the outcome of the litigation.
If you accept the FCC’s Preliminary Written Recommendation, you need take no further action.
In accordance with the Fee Committee Protocol,
if you wish to object to the preliminary written
recommendation, you must notify the FCC on or
before Friday, September 28, 2018, via email to
the FCC Chairperson Henry Garrard at hgarrard@bbga.com. Any objection is limited to ten (10)
pages. Upon timely notice to the FCC, your objection
will be considered by the FCC prior to the issuance of
the final written recommendation by the FCC.

App. 178
Thank you for your prompt attention to the matters
addressed herein.
Very truly yours,
/s/ Henry G. Garrard, III
Henry G. Garrard, III
Chairperson

Daniel J. Stack by
/s/ HG with permission
The Honorable
Daniel J. Stack, Ret.
External Review Specialist

Renee Baggett
/s/
by HG
Renee Baggett
with permission

Yvonne M. Flaherty
/s/
by HG
Yvonne M. Flaherty
with permission

/s/

/s/

Riley Burnett
by HG
Riley L. Burnett, Jr.
with permission
Thomas P. Cartmell
by HG
Thomas P. Cartmell
with permission

Clayton Clark
/s/
by HG
Clayton A. Clark
with permission

/s/

/s/

Carl N. Frankovitch
by HG
Carl N. Frankovitch
with permission
William H. McKee, Jr.
by HG
William H. McKee, Jr.
with permission

Joseph F. Rice
/s/
by HG
Joseph F. Rice
with permission

App. 179
PAUL W. FLOWERS & ASSOCS.
Paul W. Flowers, Principal
Licensed to Practice in Ohio and California
Certified Appellate Law Specialist, Ohio State Bar Assn.
Louis E. Grube, Associate
Licensed to Practice in Ohio
Terminal Tower, Suite 1910
50 Public Square
Cleveland, Ohio 44113-2216
Telephone: (216) 344-9393
Fax: (216) 344-9395
Emails: pwf@pwfco.com
leg@pwfco.com
Website: www.pwfco.com
September 27, 2018
VIA E-MAIL ONLY: hgarrard@bbga.com
Henry G. Garrard, III, Esq.
BLASINGAME, BURCH, GARRARD & ASHLEY, P.C.
440 College Ave., Suite 320
Athens, GA 30601
RE: In re: Ethicon, Inc. Pelvic Repair System
Products Liability Lit.,
U.S. Dist. Court, S.D. W.V., MDL No. 2327
Dear Mr. Garrard:
I am writing to you in your capacity as the Chairman
of the Common Benefit Fee and Cost Committee
(“FCC”). We will be submitting objections tomorrow on
behalf of our client, Anderson Law Offices, to the FCC’s
preliminary recommendations in accordance with Section E of PTO #262. Because little information has

App. 180
been disclosed supporting these findings, we have been
unable to fully detail and substantiate our concerns
with the common benefit fee allocation process that
has been conducted thus far. In the interests of both
transparency and fundamental principles of due process, we are therefore requesting the following:
1.

An opportunity to review the original and
revised time and expense entries submitted in support of the claims for common
benefit awards by both members and nonmembers of the FCC;

2.

Any documents or data identifying the
time and expense entries submitted by
any FCC member or non-member that
were rejected by the FCC;

3.

Any documents or data identifying the
hourly rates approved and utilized by the
FCC for purposes of calculating a common benefit fee award to an FCC member
or non-member;

4.

Any documents or data identifying the
multipliers or other adjustments approved
and utilized by the FCC for purposes of
calculating a common benefit fee award
to an FCC member or non-member;

5.

An opportunity to review any standards,
guidelines, methodologies, or other materials bearing upon how hourly rates were
approved and utilized during the calculation of the common benefit awards for
FCC members and non-members;

App. 181
6.

An opportunity to review any standards,
guidelines, methodologies, or other materials bearing upon how multipliers or
other adjustments were approved and
utilized during the calculation of the common benefit awards for FCC members
and non-members.

7.

An opportunity to review any statements,
receipts, or other materials submitted by
an FCC member or non-member in support of a claim for litigation expenses and
costs.

We will certainly be receptive to any sensible approaches the FCC may propose for sharing this information confidentially and with minimal undue burden
or expense. I am further requesting a reasonable opportunity to supplement our objections once we have
been able to review and evaluate the FCC’s productions. Please do not hesitate to contact me if you have
any questions with regard to the nature and scope of
these requests.
Very Truly Yours,
/s/ Paul W. Flowers
Paul W. Flowers
PWF/cls

App. 182
cc: Benjamin Anderson, Esq.
(via email: ben@andersonlawoffices.net)
Richard Gottlieb, Esq.
(via email: rgottlieb@lewisglasser.com)
Jay Arceneaux, Esq.
(via email: wjarceneaux@lewisglasser.com)

App. 183
Hon. Daniel J. Stack (Ret)
1529 Anton Dr., Columbia, IL 62236-2875
Phone: 618-792-8604 ◆ ◆ djstack@me.com
September 28, 2018
Mr. Paul W. Flowers
Paul W. Flowers & Associates
Terminal Tower, Suite 1910
50 Public Square
Cleveland, Ohio 44133-2216
pwf@pwfco.com
Re: Transvaginal Mesh MDL Common Benefit
Fee and Cost Committee Preliminary Written
Recommendation and your letter to FCC
Chairman Garrard of September 27, 2018.
Dear Mr. Flowers:
Your letter of September 27, 2018 has been referred to me for reply. I was appointed by Hon. Joseph
R. Goodwin as the External Review Specialist to the
FCC. As your client is aware as a member of leadership
in the transvaginal mesh MDL litigation, the FCC was
created as a result of an Order entered by Judge Goodwin, and its members were appointed by the Court. I
have served as a Special Master in several MDLs and
Mass Actions for Judges David R. Herndon of the
Southern District of Illinois in the Yaz and Pradaxa
MDLs as well as currently in the Syngenta Corn Mass
Action; for Judge Nancy Rosenstengal of the Southern
District of Illinois in the Depakote Mass Action; by
Judge Rodney Sipple of the E. District of Missouri in
the Nuvaring MDL, by Chief Judge Edmund A. Sargus

App. 184
of the Southern District of Ohio in the DuPont C-8
MDL and also by Judge Goodwin in these Mesh MDLs.
I retired as a Circuit Judge for the 3rd Circuit,
Madison County, IL in 2010 after 23 years where I completed my last 6 years handling the Madison County
Asbestos Docket, serving as the Supervising Judge of
the Civil Division and also having presided over many
complex and multi-week jury trials including the first
Vioxx Jury case in the Midwest. In my capacity as a
Special Master I have been, and continue to be, involved in the very difficult assignment of reviewing
CBF petitions and in making my Report and Recommendation to the Court. All that I have worked on to
date have been made without objection.
Your letter fails to comply with the process that
was established by Judge Goodwin. Under the
Court’s Orders and Protocol addressing common benefit fees, your client has availed itself of multiple opportunities to provide meaningful input to and receive
feedback from the FCC regarding the process generally and your client’s application specifically, both in
writing and in person. This Committee appointed by
Judge Goodwin has worked hard for many months to
get this process right and to be fair to everyone.
The next step in the process is that each is firm
has 14 days (from September 13, 2018) to submit a
written objection to the Preliminary Written Recommendation. After review and consideration of any objections, the FCC will distribute its Final Written
Recommendation and your client will have another

App. 185
14-day period to submit objections directly to me.
These are the Administrative Remedies that have not
been exhausted by your client.
With respect to your requests for documents from
the FCC, the letters sent to your client on February 16,
2018, May 18, 2018, and September 13, 2018, address
the criteria established by the Court’s Protocol Order,
which provides the basis for the FCC’s review and evaluation of each applicant firm’s time and expense submissions in light of their contribution to the overall
common benefit of the litigation. The internal deliberations of the FCC are confidential by Court Order, and
Judge Goodwin has consistently rejected efforts to obtain discovery regarding the FCC’s performance of its
Court-ordered duties. The FCC will not be providing
the materials sought in your requests.
Please review the letter and the exhibits that were
inserted in the report to your client and follow the
procedure of replying in accordance with the Courtordered Protocol. Give the FCC and myself the opportunity to consider the responses of your client and to
determine what if any modifications should be made
prior to issuance of the Final Written Recommendation. If your client seeks further review/appeal following receipt of the Final Written Recommendation,
follow the next step in asking to participate in a meeting with me whereby we might find further understanding. And, finally, should that process not allow us
to find a suitable resolution, the next step would be to
file your objection with the Court.

App. 186
I am merely asking that you exhaust your administrative remedies in hopes that we can achieve an amicable
resolution. I hope that we can work together toward a
common satisfactory solution.
Most sincerely yours,
/s/ Daniel J. Stack
Daniel J. Stack
(Retired Circuit Judge)
Court Appointed
FCC External
Review Specialist

App. 187
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: C.R. BARD, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL NO. 2187

IN RE: AMERICAN MEDICAL
SYSTEM, INC. PELVIC REPAIR
SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2325

IN RE: BOSTON SCIENTIFIC CORP., MDL No. 2326
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2387

IN RE: COOK MEDICAL, INC,
MDL No. 2440
PELVIC REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION
IN RE NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCTS LIABILITY
LITIGATION

MDL No. 2511

THIS DOCUMENT RELATES TO ALL CASES

App. 188
ANDERSON LAW OFFICES’ OBJECTIONS
TO COMMON BENEFIT FEE
ALLOCATION AND REIMBURSEMENT
OF COST RECOMMENDATIONS
(Filed Mar. 26, 2019)
I.

INTRODUCTION

At the outset, it must be remembered that while
committees of attorneys can be appointed by a court
to recommend fee allocations, the “traditional judicial
standards of transparency, impartiality, procedural
fairness, and ultimate judicial oversight” cannot be discarded. In re High Sulfur Content Gasoline Prod. Liab.
Litig., 517 F.3d 220, 234 (5th Cir. 2008). This Court
thus remains obligated “to closely scrutinize the attorneys’ fee allocation, especially when the attorneys recommending the allocation have a financial interest in
the resulting awards.” Id. at 227; see also In re Agent
Orange Prod. Liab. Litig., 818 F.2d 216, 223-224 (2d
Cir. 1987); In re Vioxx Prod. Liab. Litig., 802 F. Supp. 2d
740, 773 (E.D. La. 2011); In re Chinese Manufactured
Drywall Prod. Liab. Litig., No. MDL 2047, 2017 WL
2290198, at *3 (E.D. La. May 25, 2017); In Re: Guidant
Corp. Implantable Defibrillators Prod. Liab. Lit., U.S.
Dist., D. Minn., Case No. 05-1708, 2008 WL5382338, *7
(Dec. 23, 2008).
As permitted by Pretrial Order (“PTO”) #332, Anderson Law Offices (“ALO”) submits these objections
to the common benefit fee and cost reimbursement
recommendations that have been produced by the
Fee and Cost Committee (“FCC”) and External Review

App. 189
Specialist (“ERS”).1 It is now evident that the explicit
instructions set forth in the earlier PTOs as well as the
firmly established legal standards governing common
benefit fee distributions in mass tort litigations have
been violated. After numerous discrepancies were
identified in the FCC’s initial recommendations, which
had seriously skewed the allocations heavily in favor
of the members themselves, a decision was made late
in the process to adopt a purely subjective and largely
unreviewable “percentage approach” that had never
been approved in the court orders. Unless this court
intercedes, ALO will suffer a serious denial of state and
federal guarantees of due process.
The eight members of the FCC are urging this
Court to authorize payment to them of almost twothirds of the common benefit funds totaling $344,000,000
to date, with the remainder to be divided amongst the
79 non-member firms that had no input or control over
the fund allocation process. Based upon the common
benefit hours they have approved for themselves, the
FCC members stand to take 64% of the fund, an average of over $27 million per firm, and are averaging an
hourly rate of $738.02, which includes the work performed by low-level associates and paralegals. See Fee
and Expense Grid, attached as Exhibit 2. In stark contrast, the average hourly rate for the non-members is
a meager $268.22. Id. The three heads of the FCC,
Henry Garrard, Joe Rice and Clayton Clark, alone are
1

ALO hereby relies on and incorporates by reference all of
its prior submissions and the entire evidentiary record before the
Court, including the materials that are the subject of PTO:#332.

App. 190
enriching themselves with 41% of the total fund; an
astonishing $143,669,635. Id. By definition, this is selfdealing pure and simple. Several non-member firms
that have been heavily invested in the transvaginal
mesh (TVM) litigation from its inception have not only
been shut out of the fund allocation process, but now
stand to receive far less than a legitimate proportional
share under any objective measure.2 As will be established in these objections, ALO is one such firm.
Unfortunately, the ERS has made no attempt to
maintain any independence from the FCC and has developed a visibly close relationship with several of the
key members. He even signed his approval to the initial allocations of May 18, 2018, before any objections
could be raised. It is now apparent that the ERS has
assumed the role of the FCC’s advocate as expressed
through the glowing endorsement that was issued on
March 11, 2019. Not only does this overly-enthusiastic
tribute possess precisely the same writing style and
characteristics as the FCC’s own self-congratulatory
opus, but the ERS somehow failed to identify any
meaningful adjustments at all that needed to be made
to any of the members’ approved fees or expenses.

2

2

When the FCC members were appointed by the Court, Attorney Anderson expressed his shock and concern that he was not
included in the appointment. Attorney Anderson was assured by
Garrard that he would be invited to speak to and provide input to
the FCC over the course of their review process. Garrard never
contacted Attorney Anderson for such input. Declaration of Benjamin H. Anderson, Esq., ¶ 2-4, attached as Exhibit 8.

App. 191
Despite the months they supposedly spent examining common benefit fee applications and preparing
their recommendations, both the FCC and ERS failed
to acknowledge ALO’s considerable contributions over
the course of seven years, beginning with one of the
first substantial bellwether jury trial verdicts of over
$11 million in 2013 in Gross v. Gynecare. Attorney Benjamin Anderson (“Anderson”) has detailed these efforts
in his comprehensive affidavit, which is adopted by
reference, and will be discussed further below.3 ALO’s
time and expense statements have been reviewed
and approved by a highly-respected and experienced
Charleston Attorney, G. Nicholas Casey. See Report of
G. Nicholas Casey dated April 6, 2018, attached as Exhibit 1. His compelling analysis confirms the reasonableness and necessity of the common benefit time that
was expended by ALO, which both the FCC and ERS
have ignored. Id. Consistent with the fundamental responsibilities recognized in the previously cited legal
authorities, this Court should now hold that the final
recommendations are irreparably flawed in multiple
ways and are entitled to no weight or consideration.

3

It appears that Attorney Anderson’s affidavit of April 9,
2018, and all of the supporting attachments had been requested
for this Court’s review in PTO#:332. PageID#:188217-188218. If
this is not the case, then ALO requests that this Court obtain a
complete copy from the FCC for full review and consideration in
resolving these objections.

App. 192
II.

THE ABSENCE OF TRANSPARENCY
A. The Refusal to Disclose Time Entries
and Data

ALO initially objects on the basis of constitutional
principles of due process and fundamental concepts of
equity that require the judicial process to be both open
and transparent.4 Early in the fee-allocation proceedings, ALO sent a seemingly unobjectionable written
request to FCC Chairman Henry G. Garrard, III (“Garrard”) seeking an opportunity to review the time and
expense data that had been submitted by the participating firms to justify their recoveries from the common benefit fund. Exhibit 3, pp. 1-2, attached. Neither
Chairman Garrard nor any of the other FCC members
raised any objections to this request. Instead, the ERS
interjected himself the next day in a written response,
extoling his credentials, criticizing ALO for having the
temerity to seek such disclosures, and refusing to permit an opportunity to examine any of the time and expense data that had been collected as directed in the
PTOs. Id., pp. 3-4. This staunch defense of the FCC’s
policy of secretiveness is hardly what one would expect
from a legitimately independent arbiter.
Incredibly, the ERS is now praising the demonstratively opaque fee-allocation process as “open and
4

ALO adopts by reference the arguments and positions on
fairness and transparency set forth in Doc#:709, Objection of
Kline & Specter, P.C. to the Recommended Allocation of Common
Benefit Fees and the Reimbursement of Shared Expenses and
Held Costs by Former Judge Stack (“K & S Objs.”), pp. 20-22;
PageID#:13083-13085.

App. 193
transparent.” Recommended Allocation of Common Benefit Fees and the Reimbursement of Shared Expenses
and Held Costs by the Court Appointed External Review
Specialist dated March 11, 2019 (“ERS Rec.”), p. 15.
This seriously inaccurate endorsement serves as further confirmation that the ERS had no intention of either conducting an impartial evaluation of the FCC’s
self-approved fees or protecting the interests of the 79
non-member firms.
B. Federal Due Process Requirements
As previously observed, “transparency” is an indispensable requirement of any court’s fee allocation. In
re High Sulfur Content Gasoline Prod. Liab. Litig., 517
F.3d at 234. In High Sulfer, the United States Court of
Appeals for the Fifth Circuit reviewed an order of a
district court that allocated a fund set aside as a part
of a settlement to pay the attorneys’ fees, costs, and expenses of the plaintiffs in a class action. Id. at 224. The
district court appointed a five-member fee committee,
which was later permitted to present a recommended
allocation of the fund during a 20-minute ex parte status conference. Id. at 224-226. The fee committee also
provided the district court with the submissions of
each attorney who sought compensation from the fund.
Id. at 225. The district court adopted the recommended
allocation of the fund without modification, which coincidentally awarded half of the fund to the five members of the fee committee. Id. at 226. Consistent with
the fee committee’s recommendation, the district court
also placed the transcript of the hearing and the

App. 194
document listing each firm’s allocation under seal and
ordered each attorney not to disclose their award to anyone in order to “prevent lawyers from fighting over
awards that they could not compare.” Id. at 224-225.
The fee allocation list remained sealed until after the
district court issued a final order. Id. at 232, fn. 16. On
appeal, the Fifth Circuit agreed with the aggrieved
plaintiffs’ attorneys that the district court had “used
flawed fee allocation procedures that are inconsistent
with well-established class action principles and basic
judicial standards of transparency and fairness.” Id. at
227. The district court’s orders were vacated, and the
matter was remanded. Id. at 235.
The Fifth Circuit made an important threshold observation:
If a court chooses to hold a ‘fee-determination
hearing, the hearing format itself ha[s] to be
fair. In other words, when a judge constructs
a process for setting fees, the process must
contain at least the procedural minima’ of
due process: notice and an opportunity to be
heard.
In re High Sulfur Content Gasoline Prod. Liab. Litig.,
517 F.3d at 231, quoting In re Nineteen Appeals Arising
Out of San Juan Dupont Plaza Hotel Fire Litig., 982
F.2d 603, 614 (1st Cir. 1992). The most pertinent statement of the High Sulfur Court was that the attorneys
who were not members of the fee committee had been
completely prevented from having a meaningful opportunity to object to the allocation because they were

App. 195
denied important information. Id. at 232. The Court
explained:
Because the court sealed the fee allocation list
and placed a gag order on plaintiffs’ attorneys,
Appellants could not compare their awards to
those of other attorneys. They were not furnished with the hours and rates that other
attorneys submitted or informed of the Fee
Committee’s process, yet such information
was essential to enable them to challenge how
the Fee Committee valued their work. See
In re Vitamins Antitrust Litig., 398 F.Supp.2d
209, 234 (D.D.C.2005) (lead counsel responsible for fee allocation must “apply a universally
fair standard of allocation to all participants,
including itself). One cannot even compare apples to oranges without knowing what the oranges are. (Footnote omitted; emphasis added.)
Id. The Fifth Circuit also criticized the district court
for limiting the scope of objections to the “specific circumstances and the relationship between the award
and the attorney’s contributions to the common benefit
of the class” without any chance to “compare the contributions of all plaintiffs’ attorneys in order to determine if the fee allocation was equitable.” Id. “After
all, ‘[a]llocation means proportion; how does the share
[one] counsel is taking compare to the shares others
are getting?’ ” Id., quoting In re Vitamins Antitrust Litig.,
398 F. Supp. 2d at 234.
At base, due process in a fee proceeding demands
that “procedures must apply in a fair and evenhanded
manner to the parties in interest, without preferring

App. 196
one group of disputants over another.” In re Nineteen
Appeals Arising Out of San Juan Dupont Plaza Hotel
Fire Litig., 982 F.2d at 614-615 (rejecting procedures
that provided mere days for non-members to consider
the common benefit hours claimed by members of the
Plaintiff Steering Committee, that limited non-member objections to a single-page form, and that denied
the non-members an opportunity to testify at the fee
hearing).
In accordance with High Sulfur and its progeny,
ALO joins in the objections that have been raised to
the decision to proceed with an in camera inspection of
the data and information that will be forming the basis
of the final distribution.5 ALO further requests that
this Court postpone the ruling by at least 90 days and
permit the firm’s attorneys and accounting experts to
review all the information specified in PTO#:332.
PageID#:188217-18. This relief is consistent with the
principles applied by the High Sulfur Court because
opening the doors that the FCC and ERS have locked
tight will permit the necessary comparison of the relative value of the work of each participating firm. It is
inconceivable that the due process mandate for transparency can be satisfied through such a secretive adjudication as the one that has been adopted. And without
an opportunity to peak behind the wizards’ curtain,
the FCC has every non-member objector at a major
5

ALO adopts by reference the arguments and positions set
forth in Doc#:7663, Kline & Spector, P.C.’s Objection to Order
Scheduling Objections in Relation to the Court’s Ex Parte, In
Camera Review; PageID#:188694.

App. 197
disadvantage. E.g., In re Nineteen Appeals Arising Out
of San Juan Dupont Plaza Hotel Fire Litig., 982 F.2d
at 614-615. It is not realistic to expect that all the
flaws and errors in the fund allocation process can be
identified and substantiated if the submitted time and
expense data remains concealed. And yet, the full universe of relevant information is available to the FCC
and ERS to defend their recommended allocations.
Once this 90-day period for inquiry and analysis has
been completed, an opportunity should be afforded for
these objections to be supplemented with the new insights that have been obtained.
C. The Inapplicability of Evidentiary Privileges
While both the FCC and the ERS have offered
vague references to unidentified privileges in their various submissions, ALO remains at a loss to understand
how such protections could apply to the data and information identified in PTO#:332. The attorney-client
privilege only reaches advice and communications that
are intended to be confidential. State ex rel. State v.
Burnside, 233 W. Va. 273, 281-282, 757 S.E.2d 803, 811812 (2014); State ex rel. HCR Manorcare, LLC v. Stucky,
235 W. Va. 677, 688, 776 S.E.2d 271, 282 (2015); In re
Grand Jury Subpoena: Under Seal, 415 F.3d 333, 338339 (4th Cir. 2005). None of the information that this
Court plans to examine in camera could possible
qualify for this protection, which “interferes with ‘the
truthseeking mission of the legal process,’ ” and is thus
disfavored by federal courts. United States v. Aramony,

App. 198
88 F.3d 1369, 1389 (4th Cir. 1996), quoting United
States v. Tedder, 801 F.2d 1437, 1441 (4th Cir. 1986).
This Court has explained:
Generally, “neither the identity of a client nor
the fees that the client pays is within the
attorney-client privilege.” Franklin D. Cleckley, Handbook on Evidence for West Virginia
Lawyers, ¶ 5-4(E)(2)(b) (3d ed.1994) (citing
United States v. (Under Seal), 774 F.2d 624,
628 (4th Cir.1985)).
Mordesovitch v. Westfield Ins. Co., 244 F. Supp. 2d 636,
643 (S.D.W. Va. 2003).
Nor is there any plausible reason to believe that
the work-product doctrine could prohibit ALO from reviewing the time entry and expense submissions underlying the FCC’s fund allocation recommendations.
This qualified immunity only precludes discovery of
“documents and tangible things prepared by a party or
his representative in anticipation of litigation.” In re
Naranjo, 768 F.3d 332, 345, fn. 16 (4th Cir. 2014), quoting In re Perrigo Co., 128 F.3d 430, 437 (6th Cir. 1997);
Solis v. Food Employers Labor Relations Ass’n, 644
F.3d 221, 231-232 (4th Cir. 2011). In rejecting an insurance company’s attempt to squeeze engagement letters
and attorney fee invoices into this narrow protection,
this Court reasoned:
[T]he work product doctrine does not preclude
production of the above-referenced documents,
as [the insurer] has not established that the
documents were prepared in anticipation of litigation, i.e., “the primary motivating purpose

App. 199
behind the creation of the document [was not]
to assist in pending or probable future litigation.” [State ex rel. United Hospital Center, Inc.
v.] Bedell, [199 W.V. 316,] 484 S.E.2d [199,]
213 [(1970)]. Instead, the documents at issue
were prepared “in the ordinary course of . . .
business” and are entitled to no protection. Id.
Mordesovitch, 244 F. Supp. 2d at 642.
ALO has been mindful that this Court has authorized “confidential discussions as part of the FCC’s
function.” PTO#:211, pp. 4-5; see also, Final Written
Recommendation of the Common Benefit Fee Committee (“FCC Final Rec.”), p. 41. ALO has always respected
this directive, and has never requested disclosure of
the “discussions” conducted in connection with the fee
allocation process. This Court stopped well short, however, of authorizing the FCC to withhold the data that
had been submitted by the participating firms as well
as the statistical results of the FCC’s decisions, which
could not possibly be covered by any legally recognized
privilege. PTO#:262, pp. 10 (The FCC’s “preliminary
written recommendation will include an explanation of
every Firm’s time and expenses allowed by the FCC,
and the basis for each Firm’s allocation.”).
D. The Legitimate Concerns for Manipulations and Self-Dealing
The need for full disclosure of all the material and
information identified in PTO#:332 is particularly
apparent when one considers the evidence of unfair

App. 200
manipulations and glaring self-dealing that has already surfaced. As previously noted, the FCC members
are averaging hourly rates of $738.02, even for those
firms that engaged in no meaningful discovery, recruited no experts, and conducted no bellwether trials.
Exhibit 2. Both the FCC and ERS have approved a rate
of $913.39 for Clark, Love & Hutson and $847.47 for
Blasingame, Birch, Garrard & Ashley, both of whom
are believed to have submitted tens of thousands of
hours for work performed by junior associates, paralegals, and contract attorneys. Id. ALO, on the other
hand, is only being recommended for a rate of $342.64,
notwithstanding Attorney Anderson’s substantial involvement for six years during both the pre-MDL and
MDL mesh litigations in development of the key design defect and failure to warn theories, retention and
development of the most widely-used experts in all of
the TVM litigation, writing and sharing 12 scientific
“White Papers” with mesh lawyers around the country,
taking and defending dozens of key science depositions
of corporate witnesses and experts, producing thousands
of pages of the most critical expert reports, conducting
extensive pre-trial discovery and motion practice, teaching the science of mesh to hundreds of attorneys around
the country, sharing through thousands of emails and
phone calls massive amounts of data (deposition outlines, expert reports, direct and cross-examination outlines, creating and sharing libraries full of scientific
literature, including summaries and expected use of
such articles and studies, trial exhibits, corporate
witness trial cuts, etc.), being a key leader in the Ethicon MDL for discovery, motion practice, depositions,

App. 201
bellwether trial selection, regular discovery dispute
hearings with Judge Eifert, and serving as lead or colead counsel in several bellwether trials conducted in
both state and federal courts. Id.; See Affidavit of Benjamin H. Anderson dated April 9, 2018. The FCC and
the ERS conveniently ignored these significant common benefit contributions in their recommendations;
contributions that fall squarely within this Court’s orders for work that should be fairly and reasonably compensated as conferring unmistakable and, in many
cases, unparalleled common benefit to tens of thousands of injured women and hundreds of the lawyers
who represent them.
Some unintended glimpses have been permitted
into the fee and expense data, the results of which have
been alarming. The totals that had been reported by
court-appointed Certified Public Accountant John Jenkins through August 24, 2016, were attached to a document titled “Motley Rice TVM Historical Analysis”
that had been provided by the Motley Rice firm to the
FCC as a chronology of the common benefit work they
claimed to have been undertaken in the mesh litigation. Exhibit 4, attached. A number of obvious discrepancies appeared, such as the claim by Blasingame,
Birch, Garrard & Ashley to 7,525 hours in time and
$2,687,171.03 in held costs solely for the Ethicon litigation. Id., pp. 53, 55. That firm had played no meaningful role in the Ethicon proceedings, and could not
have contributed to the common benefit to such a considerable degree.

App. 202
The time and expense report summaries attached
to the Motley Rice TVM Historical Analysis further indicated that Riley Burnett (“Burnett”) had submitted
only 1,662.08 hours in total as of August 24, 2016, with
only four months remaining until the Court’s cut-off
date of December 21, 2016. Exhibit 4, p. 56. But even
though the firm did not participate in any trials or
other significant proceedings during that brief period,
Burnett was approved by both the FCC and ERS for a
whopping total of 10,490.35 hours.6 Exhibit 2, p.1.7
There are thus strong justifications for requiring full
and fair transparency consistent with the basic notions
of equity and due process.

6

Riley Burnett is now known as the Burnett Law Firm.
When ALO and other non-member firms raised their objection to this mystifying surge in total benefit time, there were suggestions in response that the Burnett Law Firm was merely
adding old time entries for the work of contract attorneys that
took an inordinate amount of time to collect. But long ago this
Court had directed that each of the participating firms, including
the FCC members, were required to “keep a daily contemporaneous record of their time and expenses” to be reported every six
weeks. PTO#:18, p. 3; PageID#:3884. Any untimely submissions
should have been rejected by the FCC for this reason alone. See
PTO#:18, p. 13 (“Failure to provide time and expense records on
a quarterly basis as set forth herein shall result in a waiver of
same.”); PageID#:3894. And any additional opportunity that had
been afforded by this Court to participating firms for reduction or
clarification of their submitted hours and expenses was accompanied by a prohibition of adding any hours or expenses to those
that had been previously submitted.
7

App. 203
III. THE UNAUTHORIZED AND SUBJECTIVE
PERCENTAGE ALLOCATIONS
ALO further objects to the FCC’s resort to the “percentage of the funds” approach to distributing the common benefit fund, which the ERS has also embraced.
The FCC’s adoption of this quick-and-easy alternative
to a careful, objective analysis was announced in the
final recommendations that were issued on November
20, 2018, after it became apparent that the FCC could
neither repudiate nor resolve the serious disparities
and inequities in the initial fee allocations. The nonmember firms were never advised that the committee
was even considering the abandonment of the traditional loadstar-multiplier methodology, and thus had
no opportunity to express their grave concerns.
While the adoption of the percentage of the funds
approach undoubtedly spared the FCC from having to
methodically assimilate and scrupulously review the
common benefit time entries and expenses that have
been submitted over the course of several years, the
perfunctory path is rarely the wisest. ALO is aware of
the self-congratulatory commentary that has been submitted by the FCC and ERS on the thoroughness of the
evaluation that was supposedly conducted, which pervades the final recommendations. But the reality is
that the percentage figures could have been prepared
in virtually no time at all and founded upon nothing
more than favoritism for and by the members of the
FCC. It is simply impossible for any non-member firm
shut out from the closed-door operation to confirm
with any confidence that the FCC and ERS really did

App. 204
perform the obligations that have been delegated by
this Court.
At the same time, The FCC’s self-dealing is mathematically undisputable. Of the firms that have been
recommended for common benefit awards, only 8 were
appointed to the FCC. Yet these 8 FCC firms have recommended that this Court pay them $218,861,869.25
from the fund collected to date of $344,000,000.00. This
means that a staggering 64% of the funds would be going to just 9% of the firms. As a result, the five firms
that are poised to reap the highest common benefit recoveries are all FCC members.8 Those five firms have
awarded themselves $206,924,256.98, which represents 60% of the fund. And even the three FCC members that did not reach the top five were still rewarded
with either an unusually high approval of hours or an
unusually high hourly rate.9 Exhibit 2; Fee Committee
Hours Accepted Grid, attached as Exhibit 9. None of
these three lower-tier FCC members committed themselves to the litigation early or contributed much toward expenses, yet they collectively stand to collect
$11,937,612.27. Exhibit 2.
The FCC’s largess is evident as well when the
members claiming the highest fee allocations are examined. Blasingame, Burch, Garrard & Ashley stands
8

These FCC firms are: Blasingame ($54,000,257.19), Motley
Rice ($46,531,343.46), Clark Love ($43,136,382.52), Wagstaff Cartmell ($36,945,326.49), and AWKO ($26,310,947.32). Exhibit 2.
9
These FCC firms are: Frankovitch (hourly rate of $727.98),
Lockridge (15,871.50 approved hours), and Burnett (10,490.35 approved hours). Exhibit 2; Exhibit 9.

App. 205
at the top with a proposed recovery of 15.43% of all the
common benefit contributions to date. Exhibit 2. While
the firm was involved early in the mesh litigation and
has contributed substantially to expenses, the attorneys focused exclusively upon the Bard Avaulta Plus
product line that had already been the centerpiece of
the successful $5.5 Million verdict that had been recovered by California attorneys in July 2012. Blasingames’
single bellwether trial produced a significantly lower
verdict of $2 Milllion in August 2013. Likely emboldened by the modest recovery, Bard has refused to enter
a global settlement of all the MDL claims. Blasingames’
litigation efforts have been confined to the Avaulta
Plus product that has not been sold in the United
States since the California verdict was rendered, and
thus the firm has produced a limited common benefit.
Despite the focus on a single discontinued mesh product, Blasingame has been approved by its fellow FCC
members for a staggering 63,719.30 common benefit
hours. Exhibit 2.
The FCC member standing in second place in the
total fee allocations is Motley Rice, which is positioned
to be paid 13.29% of the total common benefit recovery.
Exhibit 2. This was one of three firms involved in the
Huskey bellwether trial that produced another modest
verdict of $3.27 Million against Ethicon. Motley Rice
also worked with several non-member firms to prepare
for the multi-plaintiff Mullins bellwether, which never
went to trial. The firm has been approved by its fellow
FCC members for an astounding 60,253.34 common
benefit hours.

App. 206
These troubling allocations and their disparity in
relation to firms who were treated much differently
than FCC firms is not dispelled by the Declaration of
Henry G. Garrard, III in Support of Final Written
Recommendation dated November 19, 2018 (“Garrard
Dec.”). While this statement is choked with unsubstantiated claims of countless phone calls and meetings,
there is reason to believe that a few FCC leaders dictated their expectations to the remainder of the committee without any meaningful opportunity for debate
and compromise. According to the Declaration, after
evidently deciding that the revised time submissions
could not be trusted, “the Chairperson proposed a series
of awards utilizing a percentage of the funds for each
of the applicant firms.” Garrard Dec., p. 30, ¶ 201. Adjustments then followed, although none of them have been
disclosed. Id., pp. 30-31, ¶ 202-206. The abandonment
of the traditional loadstar-multiplier methodology was
complete when the FCC decided not to “request any information regarding billing rates utilized by applicant
firms.” Id., p. 31, ¶ 207. The Declaration fully confirms
that the fund allocations were entirely subjective and
unverifiable, with the FCC members emerging as the
biggest winners, collectively receiving almost twothirds of the total.
Notwithstanding the grave objections that were
raised by ALO and other nonmember firms, the ERS
was quick to accept the FCC’s purely superficial percentage of the fund allocations. ERS Rec., pp. 18-19.
Although he claimed that he reviewed the “hours” submitted, the ERS specifically denied that he had performed

App. 207
any lodestar calculations. ERS Rec., pp. 18-19. But
the time entries by themselves mean little unless the
firms’ billing rates can be examined to differentiate
between partners, associates, paralegals, and contract
lawyers. ALO strongly suspects that several FCC member firms that now stand to recover more than $700.00
per hour on average have submitted claims for common benefit time allegedly performed by inexperienced
and low-level employees. And it is also highly likely
that many of the FCC members intend to compensate
themselves at this exorbitant rate for mundane tasks
such as document reviews and pleading practice.
The ERS’ obvious misunderstanding of the concept of “common benefit” time confirms that the subjective percentage of the fund analysis is hopelessly
skewed. For instance, he claimed that in addition to
evaluating the number of hours submitted, his “review
of the work performed considered additional factors in
order to determine its quality and the value it generated towards the overall litigation and ultimate settlement.” ERS Rec., p. 19. But there was no settlement
that produced a global resolution and could be considered to be a common benefit for all. The ERS failed to
recognize that time was being submitted for the firms’
inventory settlements, which were limited to their own
clients. Permitting a full and fair inspection of all of
the participating firms’ time entries and supporting
data will allow a long-overdue scrutiny of whether the
time approved actually does fall within this court’s
“common benefit” definition.

App. 208
The notion that the FCC was free to just assign
percentage of the fund allocations to the participating
firms is contrary to this Court’s actual directives. As
early as October 4, 2012, an objective procedure had
been established for recording, transmitting, and evaluating the time actually devoted to the common benefit
of the TVM litigation. PTO#:18, pp. 12-14; PageID#:389395. Further instructions were issued in this regard
throughout the litigation, notably in PTO#:211 dated
January 15, 2016. PageID#:23546-23556. A specific reference was furnished to “the time and effort expended”
in the initial discussion of the appropriate criteria. Id.,
p. 5; PageID#:23550. This Court explicitly observed
that “the total number of hours spent toward appropriate common benefit activities should be considered[.]”
Id., p. 6; PageID#:23551. A Certified Public Accounting
Firm was later retained and charged with the responsibility of documenting “the time and expenses properly
performed and expended through December 21, 2016
in accordance with the Court’s prior orders relating
to common benefit reimbursement.” PTO#:262, p. 2;
PageID#:141778. This Court provided further directions requiring participating firms to reexamine, organize, and revise their hourly rate submissions. Id.,
pp. 2-3; PageID#:141778-141779. Instructions were also
issued to the FCC with regard to the “initial review of
the time and expenses[.]” Id., pp. 6-9; PageID#:141782141785.
For years, the participating firms undertook a
massive effort to comply with this Court’s timekeeping
rules, and the FCC’s ultimate approach was to cast this

App. 209
hard work aside by ignoring the time entries. Remarkably, the ERS did not see this as a problem, probably
because he relied upon “personal knowledge” that he
had gained from his “observation of and participation
in the review of common benefit time and * * * observation of the FCC’s analysis of the value of those contributions[.]” ERS Rec., p. 21. It should be no surprise
then that the FCC members’ common benefit time was
not independently re-evaluated by the ERS. Exhibit 9,
attached. The absurdly high percentage of hours that
these firms had submitted for their own review and
had approved as common benefit time was not changed
in the ERS’ recommended allocation. Id.
At no time did this Court authorize the FCC to
cast several years’ worth of hourly time submissions
aside and simply assign a percentage recovery to each
participating firm. The data establishing the common
benefit time actually expended by the attorneys and
their staff represents the only objective guidepost for
calculating a fair and equitable distribution of the common benefit fund. As was undoubtedly appreciated, assigning percentages is a purely subjective function
that allows preferred firms to be rewarded based upon
vague assessments of their purported expertise, commitment, and overall value. The non-member firms
were not permitted to participate meaningfully in this
fund allocation process, contrary to any notions of due
process or fairness.
There is no precedent for allowing a committee of
law firms to allocate common benefit funds strictly
through a percentage of the fund approach in which

App. 210
they enrich themselves with the highest proportional
recoveries to the detriment of non-member firms. In
obvious anticipation of the inevitable objections that
would be raised, both the FCC and ERS have highlighted decisions such as In re Thirteen Appeals Arising Out of San Juan Dupont Plaza Hotel Fire Litig., 56
F.3d 295 (1st Cir. 1995). In that MDL action, a settlement had been reached that produced a total attorney
contingency fee of $68,000,000.00. Id. at 300. The fight
that ensued was between the firms that comprised the
Plaintiffs’ Steering Committee (PSC) and the individually retained attorneys. Id. The initial appeal of the
District Court’s apportionment was successful, which
resulted in a substantially modified distribution of the
fund upon remand. Id. While the United States Court
of Appeals for the First Circuit did recognize in the
next round of appeals that the percentage of the fund
approach can be a valid alternative to the lodestar
method, that was a discretionary choice for the District
Court to render. Id. at 304-308. The opinion does not
suggest that the attorneys who stand to benefit the
most are free to select the option that will be the hardest to scrutinize and challenge. Id. The First Circuit
concluded that the District Court had committed an
abuse of discretion by awarding 70% of the fund to the
PSC, despite the considerable efforts of the individual
attorneys. Id. at 310-311. The opinion cautions that
“the judge must attempt to avoid any perception of favoritism.” Id. at 310. The appellate court thus entered
its own allocation of the fee award, which divided the
funds equally between the PSC and the individual attorneys. Id. at 312-313.

App. 211
The FCC’s “percentage of the funds” approach is
indistinguishable from the oft-maligned “point system”
that was adopted by the Fee Allocation Committee in
the Vioxx multi-district litigation. See How Not to Manage A Common Benefit Fund: Allocating Attorneys’
Fees in Vioxx Litigation, Vol. 9:1, DREXEL LAW REVIEW,
Fall 2016. One of the FCC’s own member firms, Motley
Rice, justly criticized the “scheme” that utilized points
weighted “heavily in favor of leadership positions that
they, themselves, held to the exclusion of other common
benefit petitioners.” Motley Rice’s Objection to the Vioxx
Fee Allocation Committee’s Benefit Fee Recommendation, p. 3, attached as Exhibit 5. The Motley Rice firm
denounced the committee’s efforts for creating “an unavoidable and unfair prospect of self-dealing and ‘double-dipping’ by its very creators from the limited fund
whom, by their actions, inevitably disregard and disrespect the enormous contributions of others in this
litigation.” Id., p. 2. This well-deserved criticism now
applies with equal, if not greater, force in this instance.
In addition, ALO objects to the proposal for the retention of 30 percent of all future contributions to the
common benefit fund pending “future orders of the
Court.” ERS Rec., p. 28. There is no reason to believe
that any firm will be entitled to payment for common
benefit work beyond that already submitted, and thus
all further collections should be distributed in the
same percentages as will be approved by the District

App. 212
Court for the initial allocation. Moreover, this presents
an additional risk of self-dealing at a later juncture.10

IV. THE MISGUIDED WRITTEN EXPLANATIONS
This Court had directed as part of the due process
expected during the fee allocation review that the FCC
is required to furnish written recommendations that
include “an explanation of every Firm’s time and expenses allowed by the FCC, and the basis for each
Firm’s allocation.” PTO#:262, p. 10; PageID#:141786.
But while ALO’s time submissions have been discounted by more than 30 percent and the firm’s average rate equates to just $342.64, the firm received only
a generic “explanation” in the Preliminary Written Explanation of September 13, 2018, comprising a single
paragraph of text as to why such an extraordinary deduction was justified. FCC Final Rec., p. 45; Exhibit 2.
No mention was made of the report that had been prepared by G. Nicholas Casey, Esq., verifying that ALO’s
time submissions were reasonable and appropriate under the circumstances. Exhibit 1, attached. Nor did the
FCC appear to be aware that some of the most prominent experts who have been (and are still being) retained by Plaintiffs’ counsel nationwide took the time
to issue letters verifying that Attorney Anderson’s exhaustive efforts were critical to convincing them to
10

ALO adopts by reference the arguments and positions on
future contributions to the common benefit fund set forth in
Doc#:709, K & S Objs., pp. 22-23; PageID#:13085-13086.

App. 213
support the victims of the TVM tragedy. See Exhibit 6,
attached.
The FCC’s cryptic synopsis was not just impossibly ambiguous, but was also plainly drafted and approved either by individuals possessing little familiarity
with ALO’s considerable common benefit efforts or by
individuals seeking to water down ALO’s efforts in order to retain more allocation monies for the FCC members to divide amongst themselves. For instance, the
paragraph states that “Ben Anderson was a member of
the Science Committee.” FCC Final Rec., p. 45 Ben Anderson was actually appointed by the District Court as
the National Co-Lead of the Science and Expert Committee across all MDLs. See Affidavit of Benjamin H.
Anderson dated April 9, 2018, p. 2. And the authors of
the inaccurate paragraph were evidently unaware or
unwilling to state that he was the principal developer
of mesh science and mesh experts that led to successful
design defect, failure to warn, and punitive damages
claims in numerous trials, conducted an enormous
amount of discovery, drafted and provided critical support in dispositive motion practice, was lead and colead trial counsel in numerous bellwether trials, was
critical to the leadership of the entire Ethicon litigation at both the state and federal levels, retained more
of the most significant experts than any other firm in
the country, was selected by Ethicon leadership to argue discovery motions on a weekly basis to the Court,
and was the go-to firm as a warehouse of literature,
studies, trial exhibits, expert reports, white papers,
hot documents, deposition and trial summaries and

App. 214
countless other important common benefit data; none
of this is mentioned by the FCC or the ERS. Id., pp. 225.
The Preliminary Written Recommendation’s unexplained criticism of ALO for recruiting and developing experts “in an inefficient manner” is devoid of any
specific examples and appears to have been concocted
by attorneys eager to discredit his extensive contributions. In truth, ALO produced a line-up of scientific and
medical All-Stars in a remarkably brief period of time.
See Exhibit 6, attached. Countless lawyers pursuing
TVM claims nationwide, including each of the FCC
members actually handling such claims, have relied
heavily upon the concepts and principles that have
been established by ALO and its renowned team for
their trials and their inventory settlements.
In contrast, the summaries that have been provided for the largest beneficiaries of the FCC’s percentage fund allocations (Blasingame, Motley Rice, Clark
Love, Wagstaff & Cartmell, and AWKO) read like press
releases. These firms have glorified their purported
contributions, including highlighting the bellwether
trials in which they participated and the specific leadership positions that they held. But the synopsis provided for ALO carefully avoids any mention of Attorney
Anderson’s substantial roles in almost seven years of
the litigation. It is thus evident that the FCC had no
interest in actually undertaking the time and effort
needed to carefully review and evaluate all of the common benefit contributions as required by this Court’s

App. 215
various orders, and opted instead for a quick and easy
percentage approach that was never authorized.
In lock-step with the FCC, the ERS also showed no
interest in fully identifying all of ALO’s considerable
contributions. ERS Rec., p. 24. The written objections
that were raised in this regard were ignored, and the
ERS expressed no indication that he appreciated that
Attorney Anderson had been far more than just “a member of the Science Committee.” FCC Final Rec., p. 45.
Not only did he fail to recognize the FCC’s substantial
oversights, but he only proposed “an increase of
0.1142858%” based upon his purportedly independent
evaluation. ERS Rec., p. 24.
The contributions that ALO provided to the common benefit that both the FCC and ERS overlooked, or
chose to ignore, are extensive. Affidavit of Benjamin H.
Anderson dated April 9, 2018, p. 2-25. Attached as Exhibit 7 is the Ethicon Common Benefit Outline/Chronology (“Ethicon Chronology”), that was prepared by
the two co-leads of the Ethicon MDL, who are also FCC
members, with the assistance of several of the most active mesh attorneys. Declaration of Benjamin H. Anderson, Esq., ¶ 10, attached as Exhibit 8. The Ethicon
Chronology was prepared as a counterpoint to the Motley Rice TVM Historical Analysis, which had been provided to the entire FCC despite the fact that Garrard
had previously told other FCC members that “such
specific chronologies were unnecessary.” Id., ¶ 7-10 The
faction of the FCC that had determined that Garrard,
Rice and Clark were utilizing an unfairly biased account
of the TVM chronology to justify awarding themselves

App. 216
the lion’s share of the common benefit fund reached out
to Attorney Anderson and other nonmember firms to
have them urgently help draft a truer narrative of
what had transpired over the course of the TVM litigation, especially with regard to the Ethicon litigation.
Id. Additional details of ALO’s considerable discovery
contributions are set forth in this comprehensive account. Ethicon Chronology, Exhibit 7, pp. 9-22.
Prior to its involvement in the Ethicon MDL, ALO
contributed significantly to the common benefit of the
Ethicon MDL through the firm’s work in the New Jersey state court Ethicon Litigation. See Affidavit of Benjamin H. Anderson dated April 9, 2018. An agreement
was entered on August 28, 2012, between the New Jersey leadership and the MDL recognizing that the parallel federal and state court proceedings had shared
the same general factual, legal, scientific, and medical
principles. Affidavit of Benjamin H. Anderson dated
April 9, 2018, Apx., W, ¶ 3. “Due to the advanced stage
of the NJ Litigation, as compared to the MDL Ethicon
litigation the attorneys who had contributed to the
state court effort are entitled to equal consideration
and participation in the distribution of common benefit
fees.” Id., ¶ 7-13. This state-court work was so significant to the MDL that this Court entered several orders
recognizing that time spent would be awarded as compensable common-benefit time. PTO#:18, pp. 11-12;
PageID#:3892-3893 (“The court contemplates that work
done for the common benefit * * * through the state
court proceedings in New Jersey, Delaware, Massachusetts, Minnesota, West Virginia and elsewhere will be

App. 217
compensable time”); PTO#:211, pp. 6-7; PageID#:2355123552 (“The Court recognizes, particularly to the extent
there are agreements between state court attorneys
and MDL leadership, that state court attorneys may
make an application for common benefit fees and expenses to be fully considered by the FCC.”); PTO#:262,
p. 5; PageID#:141781 (“The FCC recognizes that there
was work done in state courts such as Missouri, Massachusetts, Minnesota, Texas, New Jersey, Pennsylvania, California, and Delaware for which common benefit
reimbursement may be sought.”). A significant tranche
of ALO’s state court hours were either rejected or discredited by the FCC and the ERS, and neither the New
Jersey Agreement nor this Court’s corresponding directives authorized any of these arbitrary exclusions
and diminutions.11
As detailed in both the Ethicon Chronology and
the Affidavit of Benjamin H. Anderson dated April 9,
2018, ALO participated extensively and supplied leadership assistance in all facets of the TVM MDL document reviews and analysis of depositions and trial
testimony of important corporate witnesses and general liability experts. Detailed summaries were prepared by the firm’s paralegals, which were furnished to
and utilized by countless attorneys. These indexes
were particularly important not just for future depositions, but also for trial preparation purposes. Scientific
literature was collected, summarized, indexed, and
11

ALO adopts by reference the arguments and positions on
state court time set forth in Doc#:709, K & S Objs., pp. 7-8;
PageID#:13070-13071.

App. 218
provided to experts supporting the claims of mesh victims. Bibliographies/reliance lists containing thousands
of references were prepared for numerous expert reports, which detailed the sources of information substantiating the opinions reached. These bibliographies/
reliance lists served as a template for all future plaintiff experts in the fields of urogynecology, urology, pain
management, biomaterial science, pathology, and biochemical engineering.
Attorney Anderson was appointed by this Court
1) to the PSC, 2) as National Co-lead of the Science and
Expert (S & E) Committee across all TVM MDLs, and
3) as National Co-lead of the Cook litigation. He attended virtually all of the Executive Committee (EC)
meetings, and he supplied key leadership strategies
for science and expert issues involving all mesh manufacturers and their products. Attorney Anderson
also performed vital roles with regard to trial teams,
coordination and development of numerous experts,
discovery strategy and discovery disputes, and legal
briefing as detailed further herein.
Perhaps ALO’s most significant contribution to the
common benefit was in the recruitment and development of highly qualified experts, who are still being
utilized across the county in ongoing TVM litigation.
For example, Attorney Anderson was able to establish
a dialog with Uwe Klinge, M.D., in Germany—the
world’s leading material science expert regarding
surgical mesh. Exhibit 6, pp. 4-7. Anderson traveled
to Aachen, Germany, on a number of occasions where
he and Dr. Klinge were able to develop the initial ideations that would eventually evolve into the Ethicon

App. 219
design defect claims and both trial and de bene esse testimony used in numerous Ethicon verdicts and settlements. Id. Dr. Klinge has written:
Despite my early reluctance, my work with
ALO over the course of roughly five years produced valuable medical and scientific conclusions that formed the basis of my trial
testimony with respect to both the Prolift and
TVT mesh product lines. I doubt that any
other attorney would have been able to convince me to participate in the litigation as an
expert, particularly given my prior association with Ethicon Germany. I was willing to do
so only because I was comfortable working
with Mr. Anderson as a result of his deep understanding and appreciation of the scientific
principles and ongoing research that served
as the basis for my findings and opinions.
On a final note, my involvement in the mesh
litigation was possible only because of ALO’s
willingness to meet with me in Germany for
extended periods. My wife suffers from a debilitating medical condition that required me
to remain close to her, particularly given that
we had two baby daughters at the time. The
ALO staff and I easily spent over 500 hundred
hours together in Aachen reviewing my research, developing our design defect theories,
formulating our position on causation, and
discussing potential defenses. It would have
been impractical for me to transport everything we examined during these sessions to
the United States, which included voluminous
reports, articles, data, slides and other materials. * * * Mr. Anderson’s personal inspection

App. 220
of our research facilities and testing processes
was also essential to securing a complete understanding of the relevant scientific concepts.
Above all, these face-to-face interactions were
indispensable to developing the trust and
comfort I needed to commit myself to the litigation effort. (Emphasis added.)
Id., p. 7. Virtually every case against Ethicon has involved the work that was developed between Attorney
Anderson and Dr. Klinge. With the assistance of ALO,
Dr. Klinge prepared seven comprehensive material science and design defect reports covering 11 of Ethicon’s
POP and SUI products. And his reports were designated in over 300 cases in the MDL Ethicon waves.
ALO preserved the de bene esse trial testimony of Dr.
Klinge for both POP and SUI products. This recorded
testimony has been used to obtain plaintiffs’ verdicts
and in the recovery of punitive damages in cases such
as Gross, Hammon, Carlino, Engleman, Ebaugh, Hrymoc and Kaiser. Affidavit of Benjamin H. Anderson
dated April 9, 2018, p.17.
Similar letters have been provided from other stalwart experts such as Dr. Daniel Elliott (six general
expert reports, hundreds of case-specific reports, designated in over 500 Wave cases, testified in three bellwether trials), Prof. Thomas Muehl (published firstever, peer-reviewed scientific studies demonstrating design defects of Ethicon POP and SUI mesh versus other available mesh products regarding mesh porosity, deformation, fraying and curling), and Howard
Jordi, Ph.D. (conducted first-ever, non-company testing
on Ethicon polypropylene to establish degradation and

App. 221
to establish that Ethicon had known about its degrading polypropylene for decades), which express similar
sentiments. Exhibit 6, pp. 1-3, 8-12. ALO was thus directly and fully responsible for enlisting the expertise
of the most prominent experts involved in the Ethicon
litigation. And Attorney Anderson and his staff conducted an enormous amount of work with Vladimir
Iakovlev, M.D. (over 400 expert reports, countless
pathological testing, over 250 depositions and first
plaintiffs’ pathology to testify at trial—presented to
this Court during the Bellew Prolift bellwether trial),
and Bruce Rosenzweig, M.D. (first retained in TVM ligitation by Attorney Anderson, identified as an expert
in over 1,000 cases, has produced over 1,000 expert reports, has been deposed hundreds of times and has testified in 17 trials, including Attorney Anderson’s first
TVT-Secur trial in the country, for a then-record $20
Million verdict), both of whom have credited ALO with
enabling them to render findings and opinions in a
multitude of mesh claims. Id., pp. 13-18. As each of
these experts have confirmed through their written endorsements, they were willing and able to collaborate
with Attorney Anderson only because of his exhaustive
efforts to educate himself and become as close to an
expert himself regarding the pertinent material sciences and causative agents early in his involvement.
Rather obviously, neither the FCC nor the ERS
were interested in actually identifying and fairly considering the full extent of ALO’s common benefit contributions, and thus their misguided recommendations
are unworthy of this Court’s blessing.

App. 222
CONCLUSION
For the foregoing reasons, this Court should find
that (1) the FCC’s purely arbitrary and self-indulgent
final recommendations must be rejected and (2) a new
process will be initiated that will permit a legitimately
impartial and objective allocation of the common benefit fund amongst the participating firms that is consistent with due process and fundamental fairness.
ALO and its account expert should also be afforded a
period of at least 90 days during which to examine the
materials that this Court intends to review in camera
as specified in PTO#:332 and an opportunity to supplement these objections as necessary.
Respectfully Submitted,
s/Richard L. Gottlieb
Richard L. Gottlieb, Esq.
(WV# 1447)
Webster J. Arceneaux, III, Esq.
(WV# 155)
LEWIS GLASSER PLLC
300 Summers Street,
Suite 700
Charleston, West Virginia
25301
(304) 345-2000
rgottlieb@lewisglasser.com
wjarceneaux@
lewisglasser.com

s/Paul W. Flowers
Paul W. Flowers, Esq.
(Ohio #0046625)
Louis E. Grube, Esq.
(Ohio #0091337)
PAUL W. FLOWERS
CO., L.P.A.
Terminal Tower,
Suite 1910
50 Public Square
Cleveland, Ohio 44113
(216) 344-9393
pwf@pwfco.com
leg@)pwfco.com
Attorneys for Anderson
Law Offices

App. 223
CERTIFICATE OF SERVICE
I hereby certify that on March 26, 2019, the foregoing Objections were filed electronically. Notice of
this filing will be sent to all parties by operation of the
court’s electronic filing system. Parties may access this
filing through the court’s system.
s/Paul W. Flowers
Paul W. Flowers, Esq.
(#0046625)
PAUL W. FLOWERS,
CO., L.P.A.
Attorney for Anderson
Law Offices

App. 224
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: C.R. BARD, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL NO. 2187

IN RE: AMERICAN MEDICAL
SYSTEMS, INC. PELVIC REPAIR
SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2325

IN RE: BOSTON SCIENTIFIC CORP.,
PELVIC REPAIR SYSTEM PRODUCTS MDL No. 2326
LIABILITY LITIGATION
IN RE: ETHICON, INC., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2327

IN RE: COLOPLAST CORP., PELVIC
REPAIR SYSTEM PRODUCTS
LIABILITY LITIGATION

MDL No. 2387

IN RE: COOK MEDICAL, INC.,
PELVIC REPAIR SYSTEM PRODUCTS MDL No. 2440
LIABILITY LITIGATION
IN RE: NEOMEDIC PELVIC REPAIR
SYSTEM PRODUCT LIABILITY
MDL No. 2511
LITIGATION
THIS DOCUMENT RELATES TO ALL CASES

App. 225
ANDERSON LAW OFFICES’
MOTION TO SCHEDULE HEARING
(Filed Apr. 22, 2019)
Anderson Law Offices (“ALO”) requests that this
Court schedule a hearing upon the pending objections
to the common benefit fee recommendations, during
which additional argumentation and evidence can be
presented. This additional session is necessary as a
result of the new criticisms that were recently leveled
by the Fee and Cost Committee (“FCC”) in the 74-page
Omnibus Response filed April 8, 2019. The only response that ALO has been afforded to these previously
undisclosed contentions was a 10-page Reply Brief. A
hearing will enable a full and fair exploration of all the
pertinent issues consistent with fundamental principles of due process so that this Court may render a
truly informed decision. In re High Sulfur Content
Gasoline Prods. Liab. Lit., 517 F.3d 220, 231 (5th Cir.
2008) (“Non-Fee Committee members were entitled to
notice and an opportunity to be heard.”); In re Fine Paper Antitrust Lit., 751 F.2d 562, 584 (3d Cir. 1984) (“Our
equitable fund case law also makes clear that the attorneys’ claim for fees from a fund in court is a cause
of action, belonging to the attorneys, for the reasonable
value of their services, for which a hearing is required.”).
Initially, the FCC furnished ALO with a generic
form letter on September 13, 2018, approving only
22,209.68 of the 33,220.93 hours of submitted time.
See FCC Preliminary Written Recommendation dated

App. 226
September 13, 2018, attached as Exhibit 1. Attached to
the letter as an exhibit was a single paragraph explanation for the staggering 33% deduction that was
somewhat complimentary of the firm’s efforts but also
inaccurate in at least one significant respect. Ex 2, attached. The FCC had been under the mistaken impression that Attorney Benjamin Anderson (“Anderson”)
was just “a member of the Science Committee” when
he was actually the National Science Co-Lead across
all six MDLs. Id. The only specific criticism raised of
the firm’s submission was the cryptic comment that
“the work was often done in an inefficient manner.” Id.
The FCC did not claim that the time entries were unrealistic, excessive, or duplicative of work performed by
other firms. Id.
After ALO submitted its detailed and timely objections, the FCC issued its Final Recommendations still
only approving 22,209.68 hours of common benefit
time for ALO. Largely the same single paragraph explanation was provided, which still erroneously described Attorney Anderson as just “a member of the
Science Committee.” Exhibit 3, attached. Not one of the
firm’s objections were mentioned. Id. Once again, the
FCC expressed no concerns specific to ALO with either
excessive time entries or duplicative work. Id.
ALO lodged its objections with the External Review
Specialist (ERS), but Anderson was not optimistic because the ERS had already signed his approval to the
FCC’s initial recommendations. Exhibit 1, p.3. The ERS
also furnished a one-paragraph explanation specific
to ALO, which expressed merely that he “remained

App. 227
concerned regarding the hours submitted by this firm.”
Exhibit 4, attached. Unlike the FCC, he did not suggest
that the work had been conducted in an “inefficient
manner.” Id. The ERS recommended merely “an increase of 0.1142858%[.]” Id.
It was only after ALO exercised its final opportunity for written objections that the FCC’s criticisms
of the firm ballooned. The previously undisclosed denunciations spanned numerous pages and included a
lengthy analysis of how ALO had supposedly claimed
to be primarily responsible for a number of accomplishments for which other firms were also seeking credit.
Common Benefit Fee and Cost Committee’s Omnibus
Response filed April 8, 2019 (“FCC Omnibus Resp.”),
pp. 28-33. None of this had ever been raised previously
during roughly twelve months of common benefit fee
application review. For the first time, the FCC advanced the curious argument that Attorney Anderson
“submitted very little time and expense in connection
with the Cook MDL[.]” Id., p. 34. The insinuation
seems to be that if ALO wanted a lucrative recovery,
the Cook time submissions should have been inflated.
One would have thought that minimal time submissions would have been a hallmark of both efficiency
and honesty, but evidently not in the FCC’s view.
The FCC then proceed to identify purported admissions Attorney Anderson had made months earlier
during his transcribed appearance in Atlanta, even
though the purported concessions had never appeared
to interest anyone previously. FCC Omnibus Resp.,
pp. 34-35. Next, the FCC entered its first foray into

App. 228
Anderson’s well-documented claims of having recruited
and developed key experts. Id., pp. 36-37. And for the
first time his role in the landmark Gross trial in New
Jersey was trivialized. Id., pp. 36-37. A lengthy admonishment followed ridiculing the notion that “a onelawyer firm with two paralegals” could possibly be
compared to the much larger FCC members. Id., pp. 3739. No such concerns had been expressed at any prior
time.
Finally, the FCC has leveled its first accusations of
excessive time entries specific to ALO. FCC Omnibus
Resp., pp. 39-44. Seemingly unconcerned that they had
never thought to lodge such a criticism before, the FCC
fumed that “Anderson’s submissions are either reflective of an egregiously ineffective and inefficient use of
time, or they are exaggerated – pure and simple.” Id.,
p. 39. Not even the ERS had expressed any support for
these assertions of billing fraud and deception. Exhibit
4, attached.
The FCC has also launched its first attack on the
integrity of Nicholas Casey’s report, which had been
provided to them over 11-months earlier. FCC’s Omnibus Resp., pp. 43-44. His supposedly “false and misleading” representation is founded upon nothing more
than a far-fetched “insinuation” the FCC has concocted
involving several experts ALO recruited and developed
who either testified live in, or contributed indirectly to,
the successful Huskey bellwether verdict. Id., pp. 4344.

App. 229
In a fair and honest judicial proceeding, litigants
who have been accused of deception, falsification, and
wrongdoing with respect to the relative common benefit of their work and value of their claim to a portion of
a common fund must be afforded a meaningful opportunity to respond. See In re Fine Paper Antitrust Lit.,
751 F.2d at 584. The United States Court of Appeals
for the Fourth Circuit explained how to assess what
sort of hearing must be provided:
Due process, at a minimum, requires that a
person be given notice of impending action
and afforded a hearing. * * * The nature of the
notice and the quality of the hearing are determined by the competing interests involved.
* * * Thus, when the property interest that is
subject to the deprivation is of minor value,
fairness requires a less formal hearing. A
more formal hearing would be expected when
a significant property interest, one raising the
possibility of a grievous or serious loss, is impacted. (Emphasis added. Citations omitted.)
Richardson v. Eastover, 992 F.2d 1152, 1159 (4th Cir.
1991). A hearing is necessary to not only allow ALO to
establish that the FCC’s new denunciations are inaccurate and unfounded, but also to address the recent
self-applause that permeates the 74-page Omnibus Response. The eight members’ claims of having actually
performed the work needed to justify their recovery
of two-thirds of the common benefit fund are simply
implausible and cannot withstand scrutiny. ALO is
particularly troubled by the chart that has been submitted representing that five of the member firms had

App. 230
committed between 35 and 89 attorneys and paralegals to the TVM common benefit effort, which is highly
unlikely to be accurate. FCC Omnibus Resp., p. 38.
Finally, it must be noted that the FCC has only recently asserted the position that objecting firms bear
some heightened “burden” to justify their fee-awards.
FCC Omnibus Resp., pp. 5, 6, 9, 21, 34, 50, 54, 63, 69. It
would have seemed that all the participating firms are
equally obligated to substantiate their recoveries, but
the FCC members apparently believe that anyone who
has the temerity to question their self-dealing must be
saddled with a heavier standard of proof. Regardless,
it is unrealistic to expect that this new burden could
have been satisfied in a 10-page Reply that was also
required to confront numerous other issues that had
been asserted in the 74-page Omnibus Response. Holding a hearing on the objections is the only approach
this Court can take that will ensure that ALO’s basic
due process rights are preserved.

App. 231
CONCLUSION
For the foregoing reasons, this Court should schedule a hearing to permit additional evidence and arguments to be presented in further support of ALO’s
objections.
Respectfully Submitted,
s/Richard L. Gottlieb
Richard L. Gottlieb, Esq.
(WV# 1447)
Webster J. Arceneaux, III, Esq.
(WV# 155)
LEWIS GLASSER PLLC
300 Summers Street,
Suite 700
Charleston, West Virginia
25301
(304) 345-2000
rgottlieb@lewisglasser.com
wjarceneaux@
lewisglasser.com

s/Paul W. Flowers
Paul W. Flowers, Esq.
(Ohio #0046625)
Louis E. Grube, Esq.
(Ohio #0091337)
PAUL W. FLOWERS
CO., L.P.A.
Terminal Tower,
Suite 1910
50 Public Square
Cleveland, Ohio 44113
(216) 344-9393
pwf@pwfco.com
leg@pwfco.com
Attorneys for Anderson
Law Offices

App. 232
CERTIFICATE OF SERVICE
I hereby certify that on April 22, 2019, the foregoing Motion was filed electronically. Notice of this filing
will be sent to all parties by operation of the court’s
electronic filing system. Parties may access this filing
through the court’s system.
s/Paul W. Flowers
Paul W. Flowers, Esq.
(#0046625)
PAUL W. FLOWERS,
CO., L.P.A.
Attorney for Anderson
Law Offices

